<html>
<title> - SEVERE STORMS AND REDUCING THEIR IMPACT ON COMMUNITIES</title>
<body><pre>[Senate Hearing 109-370]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-370
 
         SEVERE STORMS AND REDUCING THEIR IMPACT ON COMMUNITIES

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 29, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
26-822                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

JIM DeMint, South Carolina,          E. BENJAMIN NELSON, Nebraska, 
    Chairman                             Ranking
TED STEVENS, Alaska                  MARIA CANTWELL, Washington
GORDON H. SMITH, Oregon              BILL NELSON, Florida
DAVID VITTER, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 29, 2005....................................     1
Statement of Senator DeMint......................................     1
Statement of Senator E. Benjamin Nelson..........................     4
Statement of Senator Vitter......................................     2

                               Witnesses

Ahlberg, Doug, Director, Lincoln-Lancaster County Emergency 
  Management.....................................................    50
    Prepared statement...........................................    52
Levitan, Dr. Marc L., Director, Louisiana State University 
  Hurricane Center/Charles P. Siess, Jr. Associate Professor of 
  Civil and Environmental Engineering............................    35
    Prepared statement...........................................    38
Mayfield, Max, Director, Tropical Prediction Center/National 
  Hurricane Center, National Weather Service.....................     5
    Prepared statement...........................................     7
McCarthy, Dennis, Director, Office of Climate, Water and Weather 
  Services, National Weather Service.............................    13
    Prepared statement...........................................    15
Reinhold, Timothy A., Ph.D., Vice President of Engineering, 
  Institute for Business & Home Safety...........................    42
    Prepared statement...........................................    44
Sallenger, Jr., Asbury H., Oceanographer, U.S. Geological Survey 
  Center for Coastal and Watershed Studies.......................    19
    Prepared statement...........................................    21
Walsh, Bill, Director of Meteorology/Chief Meteorologist, WCSC 
  Live 5 News....................................................    32
    Prepared statement...........................................    34

                                Appendix

Response to Written Questions Submitted by Hon. Jim DeMint to:
    Timothy A. Reinholdt.........................................    67
    Max Mayfield.................................................    57
Response to Written Questions Submitted to Dennis McCarthy by:
    Hon. Daniel K. Inouye........................................    61
    Hon. E. Benjamin Nelson......................................    62
    Hon. Ted Stevens.............................................    59


         SEVERE STORMS AND REDUCING THEIR IMPACT ON COMMUNITIES

                              ----------                              


                        WEDNESDAY, JUNE 29, 2005

                               U.S. Senate,
Subcommittee on Disaster Prevention and Prediction,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Jim DeMint, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. JIM DeMint, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Good afternoon, everyone. I want to thank 
all of you for joining us at this hearing to discuss and 
examine the impact of severe weather on our communities, and 
what the citizens and government can do to lessen its impact. 
As we're all aware, hurricanes and tornadoes have a devastating 
impact on our communities. South Carolina witnessed the impact 
of Mother Nature most severely when Hurricane Hugo made a 
direct hit on Charleston in 1989. The devastation to homes, 
businesses, and families was widespread. Fortunately, we've 
learned some important lessons from these storms, we're 
starting to see our preparation for the storms improve, and 
we're seeing the accuracy of the Weather Service's predictions 
improve.
    While we've come a long way from where we were in 1989, 
there's still a lot that needs to be done. Too many homes and 
businesses have not incorporated disaster-resistant 
technologies into their buildings, numerous communities have 
gutted out the building codes that encourage builders and 
developers to adopt technologies that will protect life and 
property when a storm rolls in. In the past few decades, the 
Weather Service has dramatically improved its predictions of 
both hurricanes and tornadoes. The hurricanes, we've seen the 
accuracy of landfall predictions improve significantly. Now, 
this is crucial for states like South Carolina where each mile 
of coastline evacuated can cost hundreds of thousands of 
dollars.
    We've also seen tornado predictions increase by minutes, 
and a few minutes can mean the difference between getting to a 
tornado shelter and being stuck in your home. Each improvement 
translates directly into saved lives. While the improvements 
have been impressive, there are still places where we can do 
better. We need a better idea of the impact on beaches and 
rivers of hurricane landfall, NOAA needs to improve its 
forecasting of hurricane intensity. When the Weather Service 
estimates the intensity of the hurricane too high, they 
unnecessarily trigger evacuations, and this costs residences, 
businesses and governments money. When they forecast too low, 
lives are placed in jeopardy.
    I'm looking forward to hearing from Mr. Mayfield, Mr. 
McCarthy, and Dr. Sallenger on how their agencies plan to 
improve the products they provide to the taxpayer, in addition 
to the predictions and forecasts generated by the USGS and the 
Weather Service. The private sector, state, and local 
governments play an equally important role in ensuring that our 
communities are prepared, and able to respond to severe storms. 
The engineering community and insurance industry have a crucial 
role to play in encouraging the incorporation of disaster-
resistant technologies into homes and businesses that can 
provide strong incentives to businesses and individuals to 
become better prepared for disasters. We also need to recognize 
the important role that broadcast meteorologists play in 
communicating to our communities during disasters.
    For Charleston, South Carolina, Bill Walsh is the man the 
community turns to when they need to know how to prepare for 
big storms, and after the storms when the power is down, Bill 
Walsh and his colleagues along with the broadcast community are 
often the only points of information for devastated 
communities. I look forward to the comments of our witnesses 
this afternoon. This hearing and the one earlier this month are 
providing valuable insights that will help inform the Committee 
as to how we begin to draft legislation to reauthorize the 
Weather Service. While the Nation has the best weather 
prediction in the world, we can and must do better. Our coasts 
are seriously exposed to the impact of major storms, and we 
need to improve the quality of both hurricane tracks and 
intensity forecasts. I will be looking at what can be done 
legislatively to help improve these conditions and 
additionally, as we consider this reauthorization, I will work 
proactively to assure that all the assets in America's weather 
prediction community, business, government and academia work 
together.
    As the annual hurricane season shows us, weather has a 
profound impact on the lives and the economy of our coastal 
communities. I will be working to ensure that the Federal 
Government delivers to the taxpayer the best weather services 
possible.
    Again, thank you for appearing before this Committee, and I 
will turn to Senator Vitter for his opening comments.

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Chairman DeMint, thank you for holding this 
hearing today on the impact of severe storms on our 
communities. I also appreciate the very hard work of Tom Jones 
on your staff, as he has helped put this hearing together; and 
Mr. Chairman, you may be interested to know that Tom wanted 
such a realistic experience today, that he asked me to get 
hurricanes up from Pat O'Brien's in the French Quarter in New 
Orleans for refreshment.
    [Laughter.]
    Senator Vitter. For those of you who don't know, these are 
the high octane rum drinks served in the French Quarter.
    On a more serious note, I'm afraid, if you look at some of 
our disaster policy in this country, it seems as if officials 
who put it together were sipping a lot of hurricanes, because I 
think it is fundamentally flawed, Mr. Chairman, in one basic 
way--our general policy toward disasters is reactive, instead 
of proactive. We spend billions of dollars after a disaster, 
instead of spending millions of dollars to prevent many of the 
harmful effects of a disaster from ever occurring.
    We have some graphics here that will be put up behind me, 
and this isn't a simulation of World War III, or The Day After 
Tomorrow movie, or Atlantis--although one day it could be 
Atlantis--this is a real, computer-generated model of the 
impact of a hurricane hitting New Orleans. (The National 
Weather Service models have determined the following Category 
III storm, which as you know, is not the worst imaginable. It 
would place over 20 feet of water in some inland areas of 
Plaquemines Parish, populated areas, and 14 feet of water in 
the City of New Orleans.)
    A Category IV storm, one step up, would put over 24 feet of 
water in some inland areas of Plaquemines Parish, and over 18 
feet of water in New Orleans. A Category V storm, the worst 
case scenario, would put over 28 feet of water in some inland 
areas of Plaquemines Parish, and over 23 feet of water in New 
Orleans. And it's really not a question of ``if '', it's a 
question of ``when''.
    The inundation of our homes and businesses would be a 
historic national disaster, but the full tragedy would be the 
loss of up to 100,000 lives, as predicted by the National 
Weather Service. Let me make a point again--this is not some 
wild speculation, this is a valid, scientific model from the 
National Weather Service saying that up to 100,000 lives would 
be lost as a result of this sort of hurricane hit on New 
Orleans.
    To make this point even more real, I would note that the 
City of New Orleans had thousands of body bags ready for 
Hurricane Ivan last year. As we will hear today from the 
Director of the National Hurricane Center, Max Mayfield, and 
Dr. Arnold, areas like New Orleans and Key West are nearly 
impossible to evacuate with the advance warning technologies we 
have now, and the inadequate infrastructure in place in those 
areas today.
    Director Mayfield and Mr. Sallenger correctly state in 
their testimony that we experience an average of 20 deaths a 
year and spend an average of $5.1 billion a year to respond to 
storms, all after the fact. In Louisiana we have plans in place 
to prevent much of that, to try to avoid much of that before 
the fact. The Southeast Louisiana Flood Control Program, Lake 
Pontchartrain, New Orleans to Venice, Alexandria to the Gulf, 
West Bank, West Shore and Louisiana Coastal Area Programs, all 
of these are established programs that are designed to prevent 
hurricane and storm damage and the loss of life. Yet, every 
year we fight for funds just to keep these efforts afloat and 
moving on inch by inch. Instead of spending those millions now, 
instead we're going to spend billions, literally, billions--
many, many billions--after the fact, and lose up to 100,000 
lives in New Orleans. Again, this is a fundamentally flawed 
approach to disasters, and I look forward to our witnesses 
talking about that today.
    Finally, a number of our panelists will discuss wind 
damage, our lack of attention to this important issue and the 
effect this has had on our recovery costs, and I'm also very 
anxious to hear all of the witnesses thoughts and 
recommendations about this. Thank you, again, Mr. Chairman, for 
your leadership.
    Senator DeMint. Senator, excellent remarks. I would turn to 
Senator Nelson for his opening remarks before I introduce the 
panelists.

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Ben Nelson. Thanks, Mr. Chairman, thanks to our 
panelists today, we appreciate very much your being here, 
obviously coming from a state that is in the Northern end of 
Tornado Alley. Severe weather forecasting is of great interest 
to me, and of great importance to my constituents in the State 
of Nebraska.
    I would first like to recognize the efforts of NOAA and the 
National Weather Service in improving our forecasting 
abilities. It's amazing to me that only 20 years ago there was 
absolutely no lead time for tornado warnings, and over the last 
10 years the National Weather Service has increased the warning 
lead time for tornadoes to an average of 13 minutes. That 
increase in lead time leads to a decrease in deaths and 
injuries from tornadoes. Earlier this year, I visited our local 
National Weather Service station in Valley, Nebraska just west 
of Omaha. I planned this trip near the 30th anniversary of a 
devastating tornado that hit Omaha in 1975 and killed three 
people. I wanted to see what advances had been made in 
predicting and responding to tornadoes, and I must say that I 
was very impressed. During my visit, I was informed that in 
1975 it took 5 minutes just to process a warning before it 
could be issued. Now it takes under a minute, again, saving 
minutes means saving lives. I believe we need to continue our 
commitment and investment in further improving our forecasting 
capabilities. The exciting advances in technologies which will 
allow us to better forecast tornadoes, to more accurately 
pinpoint where a tornado is likely to touch down, and to allow 
longer lead time for warnings is crucial to the safety of our 
citizens. These advances in technologies also hold better 
promise for tracking hurricanes and predicting their intensity 
as well, again, information that is vital to protecting lives.
    I applaud the collaboration between the National Weather 
Service, the National Hurricane Center and the media for not 
only warning people of impending severe weather, but also 
providing the information they need as to how they should 
respond in order to remain safe.
    The education efforts you've all undertaken so that 
individuals can take more personal responsibility at ensuring 
their safety is key to reducing fatalities and injuries during 
severe weather. Protecting lives will always be our number one 
priority, and it requires keeping up with technology, which is 
why I stress the need for continuing investment in our 
forecasting capabilities. Imagine the loss of life that we 
would have had in Omaha, a highly populated area, during that 
devastating tornado back in 1975 if we had depended on the 
prediction and warning technology that was available in 1913, 
when a tornado ripped through Omaha and killed 168 people. It 
is worth the investment. Thank you, Mr. Chairman.
    Senator DeMint. Thank you, Senator.
    Appearing before the Subcommittee this afternoon, Dr. Max 
Mayfield. Mr. Mayfield is Director of the National Hurricane 
Center, he will outline the Center's work to improve the 
quality of the Nation's hurricane forecast. Joining him is Mr. 
Dennis McCarthy, Director of Climate, Water and Weather 
Services at the National Weather Service. Mr. McCarthy will be 
discussing severe weather, and specifically the impact of 
tornadoes.
    Finally, on this panel is Dr. Abby Sallenger, Oceanographer 
from the United States Geological Survey Center for Coastal and 
Watershed Studies. Dr. Sallenger will discuss the inland impact 
of hurricanes on beaches and rivers. With that, we'll start 
with Mr. Mayfield. I think if we're running these lights, the 
green will indicate you're in good shape, the yellow means you 
probably need to start slowing down, and red means you're out 
of time.
    Thank you, sir, Mr. Mayfield.

         STATEMENT OF MAX MAYFIELD, DIRECTOR, TROPICAL 
         PREDICTION CENTER/NATIONAL HURRICANE CENTER, 
                    NATIONAL WEATHER SERVICE

    Mr. Mayfield. Mr. Chairman and Members of the Subcommittee, 
I'm Max Mayfield, Director of the Tropical Prediction Center 
and National Hurricane Center. I'm pleased to be here today to 
discuss NOAA's role in researching, forecasting and warning the 
public about hurricanes. The National Hurricane Center has been 
the centerpiece of our Nation's hurricane forecast and warning 
program for 50 years. Our mission is to save lives, mitigate 
property loss and improve economic efficiency by issuing the 
best watches, warnings and forecasts of hazardous tropical 
weather, and by increasing the public's understanding of these 
hazards. Until 2004, we experienced relatively few hurricane 
landfalls in this country, and in particular, very few major 
hurricanes. Our good fortune ended last year when six 
hurricanes hit the United States and three of those were major 
hurricanes. We have already entered into a period of heightened 
hurricane activity. This activity in the Atlantic is cyclical 
with the multiple decades, and since the mid-1990s, this 
activity has increased sharply, and this period of heightened 
activity could last another 10 to 20 years.
    Great progress has been made in forecasting the track of 
tropical cyclones over the past half century, our track 
forecast errors have been cut approximately in half in the last 
15 to 20 years. Our 5 day forecast is as good as the 3 day 
forecast was just 15 years ago. These advances are largely the 
result of improvements made in operational, numerical weather 
prediction, aided by investments and increasingly sophisticated 
computers, and advances in satellite observations over 
otherwise data-sparse oceanic regions where tropical cyclones 
are spawned. An important part of the success story is also the 
Gulf Stream IV aircraft following the highly successful NOAA 
Hurricane Resource Division Program. Congress appropriated 
funds to obtain this jet in the mid-1990s. Data collected now 
by the Gulf Stream IV result in 36 to 48 hour forecast 
improvements averaging near 20 percent, when tropical cyclones 
threaten further gains in forecast skill through to 
improvements in science and technology are essential, however, 
enhanced hurricane information will not by itself be enough if 
the information is not communicated to the at-risk public in a 
manner that can effect the best preparedness actions, in 
addition to reaching out to the general public through the 
media, our website, and other routes. We've trained local, 
state, national and international emergency managers on the 
limitations of hurricane forecasting, and their proper use of 
our products through workshops. In fact, we've trained over 
1,000 emergency managers in the last 14 years. Storm surge has 
caused most of this country's tropical cyclone-related 
fatalities, and represents the greatest risk for large loss of 
life in this country. The plans for hurricane evacuation along 
the Atlantic and Gulf Coast are based on our storm surge 
calculations, and our storm surge program and the resulting 
evacuation plans are credited largely with the dramatic 
decrease in the loss of life due to storm surge in the United 
States.
    Now, while we have made significant progress in hurricane 
forecasting warnings, we have much more work to do from a 
scientific standpoint. The gaps in our capabilities fall into 
two broad categories. Number one is our ability to assess the 
current state of the hurricane and its environment, that's the 
analysis, and number two, our ability to predict the 
hurricane's future state, the forecast. Analysis is the 
starting point of the forecast process, to improve the analysis 
in tropical cyclones, we need to enhance our observation 
network. Many of the enhancements required to improve hurricane 
analyses, particularly over the data-sparse ocean areas will be 
addressed through such programs as the Global Earth Observation 
Systems, or GEOSS, a 10-year international endeavor, of which 
the United States is a member, and NOAA, a key participant. 
Further additional observation improvements will be realized 
with funding from the supplemental hurricane bill passed last 
year, including seven data buoys recently deployed, and the 
sensors to be installed on Air Force hurricane hover aircraft.
    The accuracy of our tropical cyclone forecast is closely 
tied to improvements in computer-based, numerical weather 
prediction models. The United States Weather Research Program's 
Joint Hurricane Test Bed was recently formulated and 
established at the National Hurricane Center to facilitate the 
transfer of new technology, research results and observation, 
or advances for improved operational tropical cyclone analysis 
and prediction.
    Thus far we're very pleased with the results of the Test 
Bed, the projects implemented have made quantifiable 
enhancements in our operations. In addition, the National 
Weather Service Environmental Modeling Center is leading 
development of a sophisticated, high-resolution computer model, 
intended to improve hurricane intensity and rainfall forecasts. 
This new model is scheduled to become operational in the year 
2007.
    In conclusion, we have come a long way in hurricane 
prediction to meet the challenge of reducing the risk to our 
Nation from tropical cyclones, we must continue to improve our 
forecast and warnings, and continue our public education 
efforts. I thank you for your support, and I will be happy to 
answer any questions, if I can.
    [The prepared statement of Mr. Mayfield follows:]

   Prepared Statement of Max Mayfield, Director, Tropical Prediction 
       Center/National Hurricane Center, National Weather Service

    Mr. Chairman and Members of the Subcommittee, I am Max Mayfield, 
Director of the Tropical Prediction Center/National Hurricane Center 
(TPC/NHC). The National Hurricane Center is a part of the National 
Weather Service (NWS), of the National Oceanic and Atmospheric 
Administration (NOAA) in the Department of Commerce. I am pleased to be 
here today to discuss NOAA's role in researching, forecasting, and 
warning the public about hurricanes.
    The National Hurricane Center (NHC) has been the centerpiece of our 
Nation's hurricane forecast and warning program for 50 years. Our 
mission is to save lives, mitigate property loss, and improve economic 
efficiency by issuing the best watches, warnings, and forecasts of 
hazardous tropical weather, and by increasing the public's 
understanding of these hazards. Today, I would like to provide some 
background on our hurricane program, discuss current activities, and 
outline some of our goals for the future.
    According to a 2003 report published by the American Geophysical 
Union, the NHC, along with our public and private sector partners, 
saves the lives of close to 200 people per year in the United States 
alone from hurricanes, tropical storms and tropical depressions 
collectively known as tropical cyclones. Since our efforts began in the 
1950s, we have reduced tropical cyclone mortality in the United States 
by about 90 percent. Saving lives is paramount, but it is also 
important to recognize the enormous physical and economic damage caused 
in our country by tropical cyclones. The impact of hurricanes in the 
United States alone is an average of 20 deaths and $5.1 billion in 
property damage each year.
    Public confidence in the NHC is high. A 2003 customer satisfaction 
survey conducted by Claes Fornell International indicated 87 percent of 
the respondents approved of the quality and usefulness of our products 
and services. Respondents also rated our improvements over the past 
five years at 86 out of 100. These scores are among the highest 
reported among Federal Government agencies on similar questions, and 
reflect the significant gains we have made in analyzing and forecasting 
tropical cyclones. For example, our track forecast errors have been cut 
approximately in half in the past 15-20 years due to advances in 
weather forecast models enabling us to meet our Government Performance 
and Results Act (GPRA) performance measure every year.
    We were honored last year to have President Bush visit our facility 
to thank our staff for their work during the very active 2004 hurricane 
season. I would like to express our appreciation to the Administration 
and Congress for their continuing support, highlighted by the 
Supplemental Hurricane Bill passed last year. The supplemental 
appropriation provided funding for additional observing systems (data 
buoys and observing sensors to be installed on U.S. Air Force hurricane 
reconnaissance aircraft), computer model development and supporting 
research, and is already beginning to pay dividends. The new weather 
buoys we were able to deploy because of the supplemental funding helped 
define the early characteristics of Tropical Storm Arlene.
    The combination of improved forecasting, better communications, 
advanced emergency management practices, and an aggressive education 
program have contributed to a period of relatively few tropical cyclone 
related deaths in this country. However, with more than half of the 
U.S. population residing in coastal watershed counties, we are more 
vulnerable to a hurricane catastrophe today than at any time in our 
Nation's history. Despite our progress in tracking and forecasting 
storms, we have much work still to do. To meet the challenge of 
reducing the risk to our Nation from tropical cyclones, we must 
continue to improve our forecasts and warnings, and continue our 
outreach and public education efforts.
Our Challenge
    Until 2004 we experienced relatively few hurricane landfalls in 
this country in recent decades and, in particular, very few ``major'' 
hurricanes--those of Category 3 or higher on the Saffir-Simpson 
hurricane scale (Category 1-5). Our good fortune ended last year when 
six hurricanes hit the United States, and three of those were major 
hurricanes.
    We have entered a period of heightened hurricane activity. On 
average, ten tropical storms form during the Atlantic hurricane season, 
with 6 becoming hurricanes and 2-3 becoming major hurricanes. However, 
tropical cyclone activity in the Atlantic is cyclical, with a time 
period of multiple decades. During the 1940s through the 1960s, we 
experienced an above average number of major hurricanes, and during the 
period from the 1970s into the mid-1990s we experienced fewer 
hurricanes than average. Since the mid-1990s, activity increased 
sharply and this period of heightened activity could last another 10-20 
years. In fact, there have been more hurricanes during the past ten 
years than in any other ten-year period since records began in 1851.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Figure 1. Number of Atlantic basin major hurricanes for the 
        period 1944-2004.

    This increased level of hurricane activity is occurring against a 
backdrop of a large and rapidly growing coastal population in this 
country as identified by the 2000 Census conducted by the DOC Census 
Bureau. Coastal populations are directly threatened by tropical 
cyclones, and are largely unfamiliar with the devastating impacts of 
these storms. About 85 percent of coastal residents have never 
experienced the core of a major hurricane. Population growth increases 
the overall risk by stressing the already crowded, and in some places 
overwhelmed, evacuation routes.
NHC Structure and Support
    The NHC has a staff of 41, including six hurricane forecasters and 
support staff. Our area of responsibility encompasses the Atlantic 
Ocean, Gulf of Mexico and Caribbean, as well as the Eastern Pacific 
Ocean east of 140+ W. The central Pacific from 140+ W to the 
international dateline is monitored by the NWS Central Pacific 
Hurricane Center located in Hawaii. The NHC staff is extremely 
dedicated and, in 2004, worked tirelessly to provide the forecasts 
necessary during the very active hurricane season. Some individuals 
worked for many weeks without a day off to ensure forecasts and 
warnings were issued and our mission was upheld.
    The NHC depends on numerous critical research and operational 
activities inside and outside NOAA, including NWS' Environmental 
Modeling Center (EMC), the Geophysical Fluid Dynamics Laboratory (GFDL) 
and the Hurricane Research Division (HRD) in NOAA's Office of Oceanic 
and Atmospheric Research, as well as the NWS's Central Operations, 
which is responsible for the computing infrastructure to run the 
forecast models. We also rely on the Department of Defense--in 
particular the U.S. Air Force Reserve Command's 53rd Weather 
Reconnaissance Squadron ``Hurricane Hunters.'' These reconnaissance 
flights make the storm penetration flights and provide essential data 
about the structure of the storm. NOAA's Office of Marine and Aviation 
Operations conducts further reconnaissance missions when hurricanes 
approach land. The Office of Marine and Aviation Operations also pilots 
the Gulf Stream IV, which provides data from the large area surrounding 
a hurricane.
    In the international arena, under the auspices of the World 
Meteorological Organization (WMO), a United Nations' Specialized 
Agency, the NHC is designated as a Regional Specialized Meteorological 
Center (RSMC). As an RSMC, NHC's forecasts provide guidance to two 
dozen countries in the Atlantic, Eastern Pacific and Caribbean. For 
their part, these countries provide the United States valuable weather 
observations that help in our forecasts for them and for us.
    The NHC has strong ties to the meteorological research community as 
well as others in academia, international meteorological services, 
emergency management agencies, the media, amateur radio operators, the 
American Red Cross, and the private meteorological sector. It takes a 
true team effort to make the hurricane program work.

Our Products and Services
    NHC tropical cyclone forecasts are issued every six hours and 
include text messages as well as a suite of graphical products 
depicting our forecasts and the accompanying probabilities and ``cone 
of uncertainty,'' as it has become known. This information is available 
through many sources, including the media and the Internet. The media 
is an essential partner and helps us get the information to the public. 
Without the media, it would be very difficult to get the information as 
widely distributed. The Internet has also become an excellent vehicle 
to provide our information to the public. NOAA websites recorded over 9 
billion ``hits'' during the peak of the 2004 hurricane season.
    Even with the majority of users saying they are ``very satisfied'' 
with our current products and services, we continue to develop new 
experimental products for the 2005 hurricane season to meet user needs. 
One of these products is a depiction of tropical cyclone surface wind 
speed probabilities at specific locations, and is available in both 
text and graphical formats. These new and expanded products help us 
better convey forecast uncertainties and have the potential to provide 
users with information that enhances their ability to make preparedness 
decisions specific to their situations. In accordance with the NOAA 
Partnership Policy, we consult with our users and partners to determine 
the usefulness of our products to ensure the products further the 
public-private enterprise as a whole and help us better meet our 
mission.
    The NHC coordinates with many other agencies, both domestic and 
abroad, on tropical cyclone forecasts and watches/warnings. Forecast 
coordination calls occur one hour before each advisory release 
deadline. The calls include the U.S. Navy, the U.S. Air Force Weather 
Agency, the Federal Emergency Management Agency (FEMA), and NWS 
regional headquarters and local Weather Forecast Offices (WFO) of the 
affected area. NHC then constructs and disseminates the final advisory 
products within the hour after this coordination call is initiated.
    Our Region Hurricane Operational Plan provides procedures for 
coordinating watches and warnings with other countries. This 
coordination, which is a challenging and important task for NHC, can 
involve up to six or more weather services at one time. While NHC 
provides forecast information and often initiates the coordination, it 
is ultimately up to each country to issue watches and warnings for 
their area(s) of responsibility.
    The FEMA/NWS Hurricane Liaison Team (HLT), which I usually activate 
at NHC a few days in advance of a potential U.S. landfall, coordinates 
communications between NOAA and the emergency management community at 
the Federal and State levels. After consulting with our local weather 
offices and our center, emergency managers make evacuation and other 
preparedness decisions. The HLT provides an excellent way to 
communicate with the large number of emergency managers typically 
impacted by a potential hurricane.

Our Performance
    Great progress has been made in forecasting the track of tropical 
cyclones over the past half-century. Our average 48-hour track error, 
which was near 300 nautical miles in the early 1970s, is now near 100 
nautical miles. Today's 5-day forecasts are as accurate as our 3-day 
forecasts were 15 years ago. These advances are largely the result of 
improvements made in operational numerical weather prediction, aided by 
investments in increasingly sophisticated computers and advances in 
satellite observations over the otherwise data-sparse oceanic regions 
where tropical cyclones are spawned.
    An important part of this success story is the NOAA Gulf Stream IV 
jet aircraft. Following a highly successful HRD research program, 
Congress appropriated funds to obtain this jet in the mid 1990s. Data 
collected by the Gulf Stream IV now result in 36-48 hour forecast 
improvements averaging near 20 percent when tropical cyclones threaten 
land.
    Our improvement in the accuracy of hurricane intensity forecasts 
has been more modest, in comparison to the progress made in track 
forecasts. The average 48-hour intensity forecast error has remained 
near 15 knots for at least the last 15 years. Anticipating rapid 
intensification, which occurred as Hurricane Charley made landfall last 
year, remains most challenging. As a result of forecast uncertainties, 
we advise emergency managers to prepare for a hurricane one category 
stronger on the Saffir-Simpson hurricane scale than what is being 
forecast. Improvements to the intensity forecast could substantially 
reduce the indirect costs of tropical cyclones by reducing the scope of 
evacuations and other preparations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Outreach and Education
    Further gains in forecast skill through improvements in science and 
technology are essential. Enhanced hurricane information will not, by 
itself, be enough if the information is not communicated to the at-risk 
public in a manner that can effect the best preparedness actions. For 
example, Dr. Jay Baker from Florida State University estimated that 
only 25-50 percent of the people who should have evacuated from last 
year's hurricanes did. Of those that did evacuate, a substantial number 
would have been safer remaining at home because their residence was 
well constructed and outside of a flood zone. Education and outreach 
events developed by NOAA, the emergency management community, and the 
media are essential to ensure the public has the information needed to 
protect lives and property.
    We try to bring a ``clear, calm and trusted voice'' into households 
at risk. We conduct numerous media interviews each hurricane season. 
Efforts during the 2004 season reflect the magnitude of our effort. 
During this season NHC conducted more than 2,600 interviews with radio, 
television and print outlets during hurricanes Charley, Frances, Ivan 
and Jeanne. Bilingual meteorologists satisfy our responsibility to 
inform the growing Spanish speaking population.
    NHC trains local, State, Federal and international emergency 
managers on the limitations in hurricane forecasting and proper use of 
our products through workshops. More than 1,000 emergency managers have 
been trained at the NHC in the past 14 years. These workshops extend to 
the international community where tropical weather forecasters from 
around the world come to be trained in hurricane forecasting.
    The Hurricane Awareness Tours that take place along the U.S. east 
and gulf coasts and in the Caribbean provide opportunities to advance 
hurricane awareness for the public and media in vulnerable communities. 
Doors to the ``Hurricane Hunter'' aircraft are open to thousands of 
people each year, where they learn about aircraft missions and the team 
effort between forecasters, emergency managers and the media. These 
events encourage every individual, family, business, and community to 
develop a hurricane plan, and to have that plan in place before the 
hurricane season begins. Despite these efforts, a Mason-Dixon Research 
Poll released in May 2005 revealed that 47 percent of people in coastal 
states do not have a hurricane plan. Clearly, more needs to be done and 
we will continue to address this with our partners through our 
education and outreach efforts.
    In recent years, rainfall-induced freshwater floods have taken more 
lives in tropical cyclones than any other threat. We are taking steps 
in our operational procedures, education and outreach activities, and 
research and development to reduce the loss of life.

Storm Surge: A Success Story--so far
    Storm surge has caused most of this country's tropical cyclone 
fatalities, and represents our greatest risk for a large loss of life 
in this country, particularly in hard to evacuate areas like the 
Florida Keys and New Orleans. Following Hurricane Camille in 1969, 
which resulted in at least 100 storm surge deaths, NOAA established a 
group that developed and implemented a storm surge model called SLOSH 
(Sea, Lake, and Overland Surges from Hurricanes). The plans for 
hurricane evacuation programs along the Atlantic and Gulf of Mexico 
coasts are based on SLOSH calculations. SLOSH and the resulting 
evacuation plans are credited largely with a dramatic decrease in the 
loss of life due to storm surge in the United States. Since Camille, 
the total number of deaths due to storm surge in this country is less 
than fifteen.
    The SLOSH model calculates storm surge heights resulting either 
from historical, hypothetical or actual hurricanes. SLOSH incorporates 
bathymetry and topography, including bay and river configurations, 
roads, levees, and other physical features that can modify the storm 
surge flow pattern. Thirty-eight computational domains, or SLOSH 
basins, cover the U.S. east and gulf coasts, Puerto Rico, the Virgin 
Islands, Guam, and the Hawaiian Islands of Oahu and Kauai. The SLOSH 
basins must be revised periodically to take into account new cuts in 
barrier islands, new levees or revision to older levees, waterway 
dredging and other significant changes to flow. NOAA recently formed a 
storm surge assessment team to examine our users' requirements for 
real-time storm surge information and products, to direct storm surge 
modeling within NOAA and to plan for future enhancement of, or the 
replacement of, the SLOSH model.
    Comprehensive evacuation studies conducted jointly by FEMA, the 
U.S. Army Corps of Engineers (USACE), NOAA, and state and local 
emergency managers are based on the simulated surges computed by SLOSH. 
Mapping of the resulting potential surge inundations is done by the 
USACE as a step in determining hurricane evacuation zones.
    The storm surge depends on the hurricane track and wind field. A 
slight difference in either can mean a huge difference in the surge. 
Last year's Hurricane Ivan is an example. The 12-hour forecast was off 
by only 25 miles, which is a very small amount. However, the difference 
in the predicted storm surge was large. The initial forecast called for 
a 14-foot surge in Mobile Bay and 5 feet in Pensacola Bay. But with the 
storm hitting 25 miles farther east, only a 4-foot surge occurred in 
Mobile Bay, while Pensacola Bay had a 12-foot surge. This is precisely 
why we use a mean envelope of high water for evacuation planning and 
training. An equally large difference is seen with the radius of 
maximum winds within a hurricane. When provided precise information, 
the SLOSH model performs well. Despite the tremendous success of the 
Nation's storm surge program, as our coastal regions become more 
populated the potential for a surge catastrophe remains.

Future Activities for the U.S. Hurricane Program
    While we have made significant progress in hurricane forecasting 
and warnings, we have more work to do. For example, even in the areas 
with rapid advancement, such as track forecasting, we still cannot 
provide sufficient lead time to evacuate particularly vulnerable areas 
like the Florida Keys or New Orleans. From a scientific standpoint, the 
gaps in our capabilities fall into two broad categories: (1) our 
ability to assess the current state of the hurricane and its 
environment (analysis), and (2) our ability to predict the hurricane's 
future state (the forecast). Finally, we would like to improve public 
preparedness.

Improving Analyses
    Analysis is the starting point of the forecast process. Inaccurate 
assessments of a tropical cyclone's current position, intensity, and 
size lead directly to forecast errors. To improve the analysis of 
tropical cyclones, we need to enhance our observation network. Many of 
the enhancements required to improve hurricane analyses, particularly 
over the data-sparse ocean areas, will be addressed through such 
programs as the Global Earth Observation System of Systems (GEOSS), a 
10-year international endeavor of which the United States is a member 
and NOAA a key participant. Further, additional observation 
improvements will be realized with funding from the Supplemental 
Hurricane Bill passed last year, including 7 data buoys recently 
deployed and the sensors to be installed on Air Force ``Hurricane 
Hunter'' aircraft. We are working with the research community to 
develop some of the future observation technology. Advanced operational 
data assimilation systems will very soon combine all of the available 
observational data in very sophisticated Numerical Weather Prediction 
(NWP) analyses.

Improving Forecasts
    The accuracy of NHC tropical cyclone forecasts is closely tied to 
improvements in computer-based numerical weather prediction models 
(model guidance). Significant gains in intensity, precipitation and 
wind distribution forecasting await the next generation operational 
modeling system capable of incorporating high-resolution information 
from the hurricane core. Improvements will be based on state-of-the-art 
physics developed specifically to address these deficiencies.
    We have increased our efforts to transfer research into operations. 
The United States Weather Research Program (USWRP) Joint Hurricane 
Testbed (JHT) was formed in late 2000. The mission of the JHT is to 
facilitate the transfer of new technology, research results, and 
observational advances of the USWRP, its sponsoring agencies, the 
academic community, and the private sector for improved operational 
tropical cyclone analysis and prediction. To accomplish this mission we 
identify promising and mature research and technology, and provide the 
infrastructure to test and evaluate the selected techniques in an 
operational setting. Federal assistance is provided to both Federal and 
non-federal researchers to allow them to tailor their techniques for 
the operational environment and to collaborate in the testing and 
evaluation of their techniques by operational center staff.
    We are very pleased thus far with the results of the JHT. Projects 
implemented thus far have made quantifiable enhancements to our 
operations including a 35 percent improvement in the computer model 3-
day track forecast and significant improvements at other time scales. 
These advances helped NHC to establish new records for track forecast 
accuracy, both in 2003 and 2004.
    Much of our improvement in tropical cyclone forecasting is 
attributed to advances in Numerical Weather Prediction (NWP). In 
collaboration with many scientists and developers in the domestic and 
international operational NWP centers, the EMC develops state of the 
art numerical modeling systems and is a recognized world leader. We are 
now at the point in improving intensity forecasts that we were a decade 
ago in improving track forecasts. Through our NWP advancements, our 
2005 version of the GFDL high-resolution model improved some intensity 
forecasts over the statistical models when run on several 2004 Atlantic 
storms. To advance hurricane prediction, especially hurricane intensity 
and size forecasts, EMC is leading the development of the Hurricane 
Weather and Research Forecasting (HWRF) system. The HWRF system uses a 
collaborative approach among the research community and will apply 
advanced model physics as HWRF couples the atmosphere, land, and ocean 
into an integrated model. EMC will also couple an advanced wave model 
with a dynamic storm surge model to better predict coastal impacts of 
waves and storm surge.
    Research efforts are being coordinated across NOAA to develop new 
technology and applications to improve NOAA's products, and provide 
outreach to the public. These research efforts address issues that have 
direct impact upon the ability of NOAA to provide tropical cyclone 
weather forecasting and warning services to the public.
    We are making excellent progress. NOAA has a comprehensive plan to 
improve intensity forecasts along with our other difficult forecast 
challenges. While there are no quick fixes, we are very optimistic that 
we will continue to make advances in operational forecasts of tropical 
cyclone intensity, wind structure, size, and rainfall in the near 
future. We are leading the Nation in a large collaborative effort 
through a long-term commitment to these problems.

Increase the Effectiveness of Public Preparedness
    Our Nation's hurricane warning program requires more than 
meteorology. Mitigation of storm impacts demands an interdisciplinary 
approach to develop long-term policies and practices for better public 
safety. Such an approach requires, at a minimum, contributions from the 
public, private and academic sectors to address better land use, 
building codes, sheltering plans, identification and communication of 
risk, and public education. Mitigation of future storm impacts depends 
upon a more informed public who knows what the hazards are, how those 
hazards impact them, and what actions to take based on those hazards. 
Without this approach, our Nation is vulnerable to greater devastation 
from hurricanes in the coming decades regardless of forecast accuracy.
    An example of how we can do more in outreach is through programs 
like the National Hurricane Survival Initiative. This public-private 
partnership includes the National Emergency Management Association, 
Florida Division of Emergency Management, the Salvation Army, NHC and 
corporate partners. Their collective aim is to educate and prepare 
communities at risk from hurricanes. Another example is the Federal 
Alliance for Safe Homes (FLASH<SUP>'</SUP>). FLASH<SUP>'</SUP> is a 
non-profit, 501(c)3 organization dedicated to promoting disaster safety 
and property loss mitigation. A current FLASH<SUP>'</SUP> partnership 
with the NOAA/NWS, the Allstate Foundation, The Southwestern Insurance 
Information Service and the Texas State Parks and Wildlife is bringing 
greater visibility to a national Public Service Campaign named by the 
NWS `` Turn Around Don't Drown.'' The campaign in Texas raises flood 
safety awareness using billboards, bilingual handouts for state park 
visitors and television public service announcements across major 
cities. These examples demonstrate how Federal-State and public-private 
partnerships are critical to pre-disaster planning, and targeted 
dissemination of outreach, education and information about the risks of 
severe weather.

Conclusion
    We have come a long way in hurricane prediction. Our forecasts are 
better than they have ever been. We have an excellent working 
partnership with the emergency management community. Our partners in 
the private weather sector and the media work with us to make sure our 
information is disseminated and communicated as widely and 
comprehensively as possible. Even with the substantive progress we have 
made over the last fifty years, we remain vulnerable to a hurricane 
catastrophe. To meet the challenge of reducing the risk to our Nation 
from tropical cyclones, we must continue to improve our forecasts and 
warnings, and continue our public education efforts.
    Thank you for the opportunity to talk with you about our Nation's 
hurricane forecast and warning program, and for your support as we 
continue to provide our Nation with the highest-quality weather 
services.

    Senator DeMint. Mr. McCarthy?

  STATEMENT OF DENNIS McCARTHY, DIRECTOR, OFFICE OF CLIMATE, 
      WATER AND WEATHER SERVICES, NATIONAL WEATHER SERVICE

    Mr. McCarthy. Mr. Chairman and Members of the Committee, 
I'm Dennis McCarthy, Director of the National Weather Service 
Office of Climate, Water and Weather Services. Thank you for 
the opportunity to discuss NOAA's weather programs, 
specifically tornadoes.
    In an average year in the United States, thunderstorms 
generate 1,300 tornadoes resulting in 58 deaths, 1,500 
injuries, and $1.1 billion in property damage. Thunderstorms 
produce other hazards, such as lightning, hail damage and wind 
and flash flooding. The challenge is to determine which 
thunderstorms will bring which hazards. In the 1970s less than 
1 of 3 tornadoes occurred in a tornado watch area, only 1 of 5 
occurred in a tornado warning area. More than 80 percent of 
tornado warnings were based on spotter reports, meaning there 
was virtually no warning lead time for most tornadoes. By the 
end of the decade, research focused on optimizing observational 
data and new techniques for using weather satellite and 
conventional radar data began paying off. Meanwhile, Congress 
supported an expansion of the NOAA weather radio network, and a 
computer-based communication system for National Weather 
Service field offices, both improved warning dissemination. 
During the 1980s--warnings preceded one in three tornadoes, and 
lead time increased to more than 5 minutes. To take advantage 
of Doppler radar technology, NOAA incorporated a program to 
replace the 30 year-old weather radars with NEXRAD Doppler 
radars into the National Weather Service modernization. These 
new radars had an immediate impact on tornado warnings skill 
with lead times approaching 10 minutes in the 1990s.
    In recent years, we've made improvements in the NEXRAD 
radars and the work stations used by forecasters, the Advanced 
Weather Interactive Processing System, or AWIPS, which 
integrate radar data with satellite, wind profiler and other 
data. These improvements, combined with forecasters' training 
and experience, have resulted in an increase in tornado warning 
lead time to about 13 minutes. Almost three-fourths of all 
tornadoes are now preceded by tornado warnings. Matching 
improvements in tornado detection and warning are improvements 
in education, preparedness and communication. With continued 
support from Congress and partners in the private sector, and 
all levels of government, the NOAA Weather Radio All Hazards 
network has grown to more than 900 transmitters across the 
United States. Warning dissemination, radar display and urgent 
safety advice for commercial media, especially television, have 
played a key role in reducing fatalities and injuries from 
severe storms. Internet websites displaying radar data and 
warning information are experiencing incredible growth and use. 
NOAA's Oceanic and Atmospheric Research and National Weather 
Service continue to work together to improve tornado and severe 
storm watches and warnings.
    In the short-term, the three agencies involved in NEXRAD--
NOAA, the FAA and U.S. Air Force--plan to add dual polarization 
capability to the radar in Fiscal Year 2008 to 2012 timeframe. 
Dual polarization will bring improvements not only to tornado 
warnings, but also warnings for floods, hail and winter storms. 
NOAA's Warning Decision Support System--WDSS II--uses 
sophisticated, artificial intelligence-based science to analyze 
storms for hail, wind and tornado potential. It will add 
efficiency to the warning decision-making process. Test and 
forecast offices indicated will increase warning lead times, by 
two to three minutes, and reduce the false alarm rate.
    With all of the improvements in tornado detection and lead 
time, false alarms continue to be a challenge. Approximately 
three-fourths of all tornado warnings are followed by hail, 
high winds or heavy rain, but not a tornado. Advances such as 
dual polarization, and WDSS II, along with integration of 
Geography Information System, or GIS, technology for 
dissemination will help improve the false alarm rate. In the 
long term, we're exploring new technologies to upgrade or 
replace our NEXRAD Doppler radar system, which is approaching 
the mid-point of its life cycle. One likely candidate 
technology is phased array radar--phased arrays work by forming 
and steering radar beams electronically, they're very fast and 
agile compared to the mechanical rotating dish antennas. Their 
faster collection of the volumetric data, so important to 
warning decisions, can add 4 minutes to tornado lead times. 
These radars will also be less expensive to maintain since they 
have no moving parts.
    Further into the future, high resolution observational 
data, including data from modern radars, can be used in 
sophisticated numerical weather prediction models, which will 
help make the leap from warning on observation to warning on 
forecast. This is where we would like to be in the 2020 
timeframe, allowing us to push tornado warning lead time beyond 
30 minutes.
    In conclusion, Mr. Chairman, NOAA has made tremendous gains 
in providing warnings to help protect the lives of U.S. 
citizens from being able to detect and warn for most tornadoes, 
now with an average lead time of 13 minutes to getting the word 
to people about what to do when they hear a tornado warning, 
either from the media or directly from NOAA, by internet or 
NOAA Weather Radio All Hazards. We can continue to improve by 
taking advantage of emerging technologies in radar detection 
and numerical prediction of storm-scale weather events. Thank 
you for inviting me here today, and I'll be happy to answer any 
questions.
    [The prepared statement of Mr. McCarthy follows:]

  Prepared Statement of Dennis McCarthy, Director, Office of Climate, 
      Water, and Weather Services, National Weather Service, NOAA

Introduction
    Mr. Chairman and Members of the Committee, I am Dennis McCarthy, 
Director of the National Weather Service Office of Climate, Water, and 
Weather Services, of the National Oceanic and Atmospheric 
Administration (NOAA) within the Department of Commerce. Thank you for 
the opportunity to appear before you today to discuss NOAA's severe 
weather programs, specifically tornadoes.
    In an average year, there are 1,300 tornadoes resulting in 58 
deaths, 1,500 injuries, and $1.1 billion in property damage. Floods 
account for $5.2 billion in damage annually and average over 80 deaths 
per year; lightning accounts for an additional 53 fatalities each year. 
Thunderstorm complexes can generate tornadoes, lightning, flash floods, 
extreme wind, and hail. The challenge to forecasting severe weather and 
any associated warnings is to determine which thunderstorm complexes 
will produce which combination of threats.
    The highest frequency of tornado occurrence in the world is in the 
Central Plains of the United States, east of the Rocky Mountains and 
west of the Appalachian Mountains. While tornadoes typically occur 
during the spring and summer in late afternoon and early evening, they 
have been known to occur at any hour, on any day of the year, in every 
state in the United States.

Brief History of Tornado Forecasting
    The National Weather Service (NWS) Tornado and Severe Thunderstorm 
Watch and Warning program can be traced back to two tornadoes that 
struck Tinker Air Force Base, Oklahoma, in March of 1948. The first 
tornado (March 20) was not forecasted. At the strong urging of Major 
General Fred Borum, who was in charge of the base, two Air Force 
meteorologists, Major Ernest Fawbush and Captain Robert Miller, studied 
weather charts from previous tornado outbreaks looking for similarities 
that could indicate tornado potential. On the morning of March 25, 
1948, the weather charts were very similar to those that occurred with 
the first tornado. This similarity was reported back to Major General 
Borum, and a tornado forecast was issued. That evening, the second 
tornado within one week struck Tinker Air Force Base. After this 
success, weather forecasters, both civilian and military, started to 
seriously explore tornado forecasting. The first tornado forecast was 
issued by the then Weather Bureau in 1952. During this same period, 
other research scientists were actively exploring the use of radar to 
identify on-going storms that could potentially produce tornadoes, and 
pioneering work was being done by the Illinois Water Survey and Texas 
A&M University.
    In 1956, Congress appropriated funds to develop radar for 
meteorological purposes. A network of radars was installed to provide 
coverage for most of tornado alley and the hurricane prone Southeastern 
United States in early 1959 and 1960. The National Severe Storms 
Research Project, in Norman, Oklahoma, expanded its mission to include 
radar techniques related to severe thunderstorm warnings. In 1964, a 
merger of the radar and tornado research programs created the National 
Severe Storms Laboratory.
    Because of its dependence on rapid communication of weather data 
from all over the country, the forecasting of tornado potential 
remained with the National Severe Storms Forecast Center in Kansas 
City. Similarly, because providing alerts for existing storms required 
immediate access to radar data, local radar offices issued these 
products.
    The 1965 Palm Sunday Tornado Outbreak took 266 lives, even though 
tornado forecasts and alerts had been issued. The National Weather 
Service conducted an assessment of its products and services following 
the outbreak and made several significant recommendations including:

  <bullet> The National Weather Service began to differentiate tornado 
        forecasts from typical weather forecasts by using the names 
        Tornado Watch and Tornado Warning.

  <bullet> The National Weather Service started to hold preparedness 
        meetings in collaboration with Federal, State, and local 
        government officials and news disseminators. Discussions at 
        these meetings included the development of simple tornado 
        safety rules.

  <bullet> The National Weather Service committed itself to completing 
        radar coverage east of the Rocky Mountains.

    With these changes, the present watch and warning system was 
completed. However, tornado and severe thunderstorm meteorology was 
still in its infancy and we have made significant progress since then.
Key Research Leads to Significant Improvements in Operations
    In a three-year period from 1976 to 1979, statistics indicated less 
than one out of three tornadoes occurred in a tornado watch area, and 
only one out of five tornadoes occurred in a tornado warning area. Also 
during that time, over 80 percent of tornado warnings were based on 
human spotter reports, meaning that there was virtually no lead time 
between when the warning was issued and when the tornado struck.
    In 1976, a small group at the National Severe Storms Forecast 
Center (NSSFC) began developing new analyses and display techniques for 
meteorological data. These researchers worked with the National 
Aeronautics and Space Administration (NASA) and NOAA's National 
Environmental Satellite, Data, and Information Service to develop a 
computer system that allowed forecasters to collect data directly from 
the weather satellites to make short-range forecasts. In addition, the 
NSSFC research forecasters collaborated with scientists at the National 
Severe Storms Laboratory to develop new methods of interpreting 
conventional radar data and use it to issue warnings ahead of storms.
    These efforts led to immediate improvements in our ability to issue 
accurate tornado watches and warnings. By the late 1980s, lead time for 
tornado warnings had increased from zero to over 5 minutes. Tornado 
warnings were issued for about one third of all tornadoes (compared to 
only one fifth in the late 1970s), and tornado watches were issued 
before about half of the tornadoes. Most importantly, the public was 
becoming more aware of tornado warnings, and the sentiment ``the 
tornado struck without warning'' was being uttered less and less.
    While our scientific advances in the 1980s resulted in a marked 
improvement in tornado forecasting, the American public deserved more. 
In the late 1970s, a collaborative program had been established among 
NOAA, the U.S. Air Force (USAF), and the Federal Aviation 
Administration (FAA) to begin evaluating the value of Doppler radar for 
tornado detection. Tests were conducted in the Oklahoma City Weather 
Service Forecast Office. These tests proved Doppler radar could 
significantly improve tornado lead times and the detection of other 
measures essential for forecasting tornado warnings. A program to 
replace the 30-year-old weather radars with NEXRAD Doppler weather 
radars (the WSR-88D) was incorporated into NOAA's plan for National 
Weather Service Modernization. These radars, coupled with specially 
trained meteorologists in local National Weather Service Forecast 
Offices, had an immediate, dramatic impact on tornado warning skill. 
Following the nationwide installation of the NEXRAD network in the 
1990s, tornado lead times almost doubled from 5.3 to 9.5 minutes. In 
addition, the probability of detecting a tornado increased from 35 to 
60 percent. By 2004, tornado lead times averaged just over 13 minutes, 
and the probability of detection rose to 75 percent. More importantly, 
expected tornado deaths and personal injuries were reduced by 45 
percent and 40 percent, respectively.
    Similar research advances have improved long-range forecasts of 
tornadoes. In 1995, a National Science Foundation sponsored research 
project involving NOAA and several universities explored the causes of 
rotation in thunderstorms. This was a collaborative effort between 
research and operations with tornado forecasters from the Storm 
Prediction Center (formerly the National Severe Storms Forecast Center) 
and local warning forecasters from several NWS Weather Forecast Offices 
participating. This collaboration led to significant improvements in 
forecasting strong and violent tornadoes. While only 15 percent of all 
tornadoes are rated F2 or stronger on the six category Fujita Intensity 
Scale, they produce more than 92 percent of U.S. tornado fatalities.
    Underlying these improved performance measures is the added benefit 
of increased data and expertise sharing by the National Weather Service 
with its partners in the media and private sectors. The Doppler radar 
data sets and improved computer and communication technologies have 
allowed broadcast meteorologists and others to better understand and 
communicate severe weather threats to citizens. In addition, the 
expansion of NOAA Weather Radio/All-Hazards remains a vital component 
of the National Weather Service's ability to communicate weather and 
non-weather hazard information. There are currently over 900 radio 
transmitters across the U.S., and weather radio is now a key vehicle 
for Federal, State and local public safety agencies to disseminate 
critical safety information on a variety of hazards, including man-made 
and natural disasters.
    The success of the close collaboration between operational 
forecasters and research scientists, coupled with the advent of new 
communication systems, led to a move of the Storm Prediction Center 
from Kansas City to Norman, Oklahoma, in 1996 to collocate with the 
National Severe Storms Laboratory. This move spurred NOAA to establish 
the Hazardous Weather Testbed, in which NWS forecasters and NOAA 
research scientists collaboratively test, develop, and operationally 
implement new forecast and warning techniques and technology on a 
regular basis.
    Research conducted at the Hazardous Weather Testbed has led to 
dramatic improvements in the quality of severe thunderstorm services 
provided by the Storm Prediction Center. The length of severe 
thunderstorm forecasts has been extended from 2-3 days, and forecasts 
now provide specific probabilities for the occurrence of tornadoes, 
large hail, and damaging thunderstorm winds. Experimental products 
currently being tested at the Storm Prediction Center include severe 
weather forecasts out to eight days, and additional forecast details in 
tornado and severe storm watches such as probabilities for each type of 
severe weather and the anticipated degree of severity. In addition, 
trials are being conducted that break down the daily outlooks into 
shorter time intervals that are of great interest to the aviation 
community.
    The 122 NWS Forecast Offices located throughout the U.S. are 
experimenting with improvements to the tornado and severe thunderstorm 
warning process. The county currently issues these warnings, however, a 
real threat often exists for only a portion of a given county. A number 
of NWS Forecast Offices are experimenting with a ``warning-by-polygon'' 
method. In this method, the polygons are derived by assessing the 
threat from the latest radar observation and modeling a projected path 
for the most threatening portion of the storm. The polygons can easily 
be incorporated into geospatial display technology for satellite-based 
or other systems. This method would allow local emergency managers to 
sound sirens in the high threat areas of the county only.

Strategies for the Future
    The NOAA Office of Oceanic and Atmospheric Research works in 
partnership with the National Weather Service to substantially improve 
the lead times and accuracy of tornado and severe storm watches and 
warnings. These efforts can be classified as short (0 to 5 years) and 
long term (5 plus years).

Short Term Efforts
    The three agencies involved in NEXRAD--NOAA, the FAA, and the 
USAF--plan to add dual polarization capability to the radar system in 
the FY 2008 to FY 2012 timeframe. Dual polarization will provide 
information on the size and shape of the precipitation particles in 
clouds. Snow can be distinguished from rain, hail size can be 
estimated, and most importantly, rainfall amounts can be accurately 
obtained. This will lead to improvements in flash flood warnings and 
forecasts, as well as enhanced warnings for hail. The dual polarization 
radar data will be ``cleaner,'' which should better identify precursors 
to tornadoes and the tornadoes themselves even before they descend to 
the ground. Dual polarization data also will allow for unique detection 
of debris lofted by tornadoes, giving additional valuable information 
on likely tornado intensity. Other improvements to the current network 
of weather radars include more rapid and enhanced sampling of the storm 
environment, and inclusion of FAA weather radars. NOAA's Warning 
Decision Support System--Integrated Information (WDSS-II) is the second 
generation of a suite of algorithms and displays for severe weather 
analysis, warnings and forecasting incorporating observational data 
from multiple sources. WDSS-II uses sophisticated artificial 
intelligence-based science to analyze storms for hail, wind, and 
tornado potential. The idea behind WDSS-II is to provide the forecaster 
with critical information that is easy to understand, resulting in a 
timely decision in the tornado and severe storm warning process. Tests 
in NWS Forecast Offices indicate WDSS-II will increase lead times for 
tornadoes and severe thunderstorms by 2 to 3 minutes and reduce the 
false alarm rate.
    This past spring, NOAA's Storm Prediction Center and National 
Severe Storms Laboratory worked closely with the Norman Forecast 
Office, and partnered with three external organizations to generate a 
unique collection of three daily experimental very high-resolution 
numerical weather prediction models. The predictions are made from 
several different versions of the Weather Research and Forecasting 
(WRF) model, an advanced weather prediction system being designed for 
use by research scientists and forecasters in the United States. One of 
the purposes of this Hazardous Weather Testbed exercise is to extend 
the lead time and accuracy of tornado and severe thunderstorm watches 
issued by the Storm Prediction Center. Preliminary indications are that 
these very high-resolution numerical weather prediction models are 
quite useful in predicting rotating, severe thunderstorm complexes.

Long Term Efforts
    NEXRAD Doppler radar is the key observation tool used by 
forecasters to warn the public of tornadoes and severe thunderstorms. 
The NEXRAD network is near the midpoint in its designed lifecycle and 
NOAA is already exploring new technologies for a major upgrade or 
eventual replacement. One likely candidate technology is phased array 
radar (PAR) with its electronically scanning antenna. Phased arrays 
work by forming and steering radar beams electronically, and they are 
very fast and agile compared to the mechanical, rotating dish antenna 
radars such as NEXRAD. The military has employed phased array radars 
for over 30 years in tactical systems.
    NOAA is partnering with the U.S. Navy, the FAA, the University of 
Oklahoma, and several private companies to explore the capability of 
PAR for weather surveillance. The Navy has loaned NOAA a battle spare 
PAR antenna for testing at NSSL in Norman, Oklahoma. Properly 
configured, a PAR system can complete a volume scan of the surrounding 
atmosphere in less than one minute. It currently takes a NEXRAD 4.1 to 
6 minutes to perform a similar scan. This faster scan rate can improve 
average tornado lead times by approximately 4 minutes. Other features 
of PAR could lead to improved detection of tornado and severe weather 
precursors and provide high-quality data for assimilation into 
numerical weather prediction models.
    In the past, PAR systems have been deemed too costly for civilian 
use. Advances in parallel technologies, such as cellular telephones and 
wireless technologies, as well as breakthroughs in materials science, 
may reduce the cost of a PAR system to levels comparable with 
mechanical, rotating dish antenna radar. In addition, a PAR system can 
be designed with four fixed antennae resulting in a radar with no 
moving parts, which is therefore less expensive to operate. Such a PAR 
system may be able to perform multiple functions, thus satisfying the 
needs of several agencies. For example, a PAR could be designed to 
track aircraft (FAA), perform weather surveillance (NOAA, FAA), and 
scan for non-cooperative aircraft (Department of Homeland Security), 
all at the same time. Several agencies (NOAA, FAA, DHS, NASA, and the 
Department of Defense) are working together under the auspices of the 
Office of the Federal Coordinator for Meteorology to assess PAR 
capability, develop a multi-agency research and development plan, and 
to examine costs.
    The potential exists to make significant long-term improvements to 
tornado and severe storm performance metrics. Presently, warnings are 
based on detecting certain precursors to tornado formation. Tornado 
watches and forecasts from several hours to several days are based, in 
large part, on numerical weather prediction models run at NOAA's 
National Centers for Environmental Prediction in Camp Springs, 
Maryland. The current upper limit on tornado lead times (based solely 
on detection) is about 20 minutes, perhaps 30 minutes for very strong 
tornadoes. Crossing this threshold will require reliance on forecasts 
from very high-resolution, detailed numerical weather prediction models 
capable of predicting the level of cloud formation. The warning 
paradigm must shift from ``warn on detection'' to include ``warn on 
forecast.''
    Very high resolution, cloud resolving numerical models exist in the 
research community to better understand storm science and cloud 
processes. Some limited experimentation with forecasting applications 
has produced mixed results. One approach being explored is to run many 
different models and combine them into an ``ensemble'' forecast that 
yields probabilities of high consequence events occurring. Other 
improvements will come from more detailed observations in space and 
time (dual polarization, PAR, surface networks, and next generation 
satellite data), new science, faster and higher capacity computing, and 
improved numerical techniques. Improvements in forecast skill in the 
0.5 to 12-hour range has the potential to improve tornado and severe 
storm watches and warnings, improve forecasts of heavy precipitation, 
contribute to better routing of aircraft enroute and at airports, and 
to assist local emergency managers in protecting life and property in 
their area of responsibility.
    Over the past 50 years, NOAA has made tremendous gains in providing 
warnings to help protect the lives of U.S. citizens--from being able to 
detect and warn for most tornadoes, now with an average lead time of 13 
minutes, to getting the word to people about what to do when they hear 
a tornado warning, either from the media or directly from NOAA via 
Internet or NOAA Weather Radio/All-Hazards. We can continue to improve 
by taking advantage of improved scientific understanding and emerging 
technologies to upgrade and refresh tornado and severe weather forecast 
products and information. The trend is clearly toward providing more 
detail in location and time coupled with probabilistic information 
allowing customers to better assess their particular risk prior to 
taking appropriate action. Ongoing NOAA-led efforts in radar 
enhancement (dual polarization and phased array) and improvements in 
the numerical prediction of storm scale weather events hold particular 
promise.
    We envision a future in which the National Weather Service issues 
warnings at least 30 to 45 minutes before tornadic thunderstorms 
develop. Storm Prediction Center Watches will run from about an hour in 
the future out to 12 hours, and extended range forecasts are valid out 
to several weeks. These forecasts will allow Emergency Managers and 
Homeland Security to plan for severe thunderstorms and tornadoes far 
enough in advance to pre-position resources before a storm. Even more 
dramatic will be the economic impact of improved severe thunderstorm 
forecasts. For example, energy companies can configure their grids to 
ensure continuous power flow in regions impacted by storms, the 
transportation sector can reroute trains, trucks and airplanes away 
from areas that will experience significant thunderstorms, and local 
emergency managers can better alert the public, saving lives and 
mitigating property damage.

    Senator DeMint. Thank you. Dr. Sallenger?

            STATEMENT OF ASBURY H. SALLENGER, JR., 
 OCEANOGRAPHER, U.S. GEOLOGICAL SURVEY CENTER FOR COASTAL AND 
                       WATERSHED STUDIES

    Dr. Sallenger. Mr. Chairman and Members of the 
Subcommittee, thank you for the opportunity to speak to you on 
behalf of the U.S. Geological Survey on coastal change impact 
from extreme storms.
    Each year, natural hazards in the United States, such as 
earthquakes, fires, floods, hurricanes, landslides and 
volcanoes result in hundreds of lives lost and cost billions of 
dollars in disaster aid, disrupted commerce and destroyed 
public and private properties.
    At USGS it is our goal to provide scientific research and 
analysis to help citizens, emergency managers and policymakers 
decide how to react to each hazard, and how to safeguard 
society. In regard to hurricanes, we improve understanding of 
coastal erosion and deposition that can destroy infrastructure 
and permanently change the coastal landscape. There are two 
major objectives.
    The first is to improve predictive capabilities, so that as 
a hurricane approaches, the United States assessment can be 
made on how the threatened coast will change at landfall. The 
second is to provide the knowledge to assess vulnerability of 
our coastlines to extreme storms so that buildings and 
infrastructure can be sited away from hazardous areas.
    For landfalling hurricanes in 2004, we were able to make 
significant advances toward reaching these objectives. In a 
cooperative effort between USGS, NASA and U.S. Army Corps of 
Engineers, the impact zones of all four storms were surveyed 
with the airborne lidar, a laser mapping system, both before 
and after each landfall, to detect the patterns of erosion and 
deposition that resulted from the storms. The most extensive 
coastal change occurred during Hurricane Ivan on the Alabama 
and Florida panhandle coast, where the shoreline retreated 40 
feet during the storm. Storm surge completely inundated low-
lying barrier islands, its strong currents flowing across the 
islands carved new inlets. Where sand dunes were well-
developed, they eroded landward, and in places underlying five 
story buildings collapsed, some of the largest buildings to 
fall during the hurricane in U.S. history. Forty-eight hours 
prior to Ivan's landfall, the USGS posted on its extreme storm 
website an experimental product that showed the vulnerability 
of the threatened coast to change. These vulnerability 
assessments were based on a ratio of worst-case storm surge, to 
our high resolution coastal elevations, acquired with airborne 
lidar, and were consistent with our subsequent measurements of 
what actually happened.
    As our research progresses, we hope to be able to improve 
these assessments, for example, by identifying the specific 
locations along the U.S. barrier island coast, subject to 
breaching by waves and surge. Such breaching can sever 
evacuation routes, as occurred on the North Carolina outer 
banks in Hurricane Isabel in 2003. The unusual failures of the 
large ocean-front buildings during Hurricane Ivan may be a 
warning about the future. Ocean front communities in the 
Southeast U.S. have not been severely tested by hurricanes 
until very recently.
    Between 1966 and 1990, when Southeast coastal developments 
grew dense, only two major hurricanes made landfall along the 
East Coast, or the peninsula of Florida. Most developments 
survived this unscathed. However, recent climate research on 
decadal scale changes in hurricane activity suggests that the 
Atlantic Basin has re-entered an active hurricane period 
similar to the 1941 to 1965, when there were 17 major 
hurricanes that made landfall in the United States or along the 
East Coast and the peninsula of Florida. This active period may 
persist for decades, hence the loss of multi-story buildings 
during Hurricane Ivan may occur more frequently in the future. 
USGS research is focused on predicting coastal areas that are 
vulnerable to severe erosion, so that new buildings like those 
that fell during Ivan can be sited away from hazardous areas. 
During the present hurricane season, we'll be extending our 
results from the 2004 hurricanes by using improved models and 
by testing them with coastal change data for any major 
landfalling hurricane.
    Mr. Chairman, thank you for the opportunity to appear 
before you today, and I'm happy to answer any questions that 
you and the Members of the Subcommittee may have. I might also 
note that in your packets I understand you have some before-
and-after photographs of at least one of these buildings that 
went down.
    [The prepared statement of Dr. Sallenger follows:]

  Prepared Statement of Asbury H. Sallenger, Jr., Oceanographer, U.S. 
       Geological Survey Center for Coastal and Watershed Studies

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to speak with you on behalf of the U.S. Geological Survey 
(USGS) on inland flooding and coastal-change impacts of extreme storms. 
Each year, natural hazards in the United States such as earthquakes, 
fires, floods, hurricanes, landslides, and volcanoes result in hundreds 
of lives lost and cost billions of dollars in disaster aid, disrupted 
commerce and destroyed public and private properties. At USGS, it is 
our goal to provide scientific research and analysis to help citizens, 
emergency managers, and policy makers decide how to react to each 
hazard and how to safeguard society. By collecting long-term data and 
information assessing past and present hazards events and by providing 
continuous monitoring and data collection, we hope to arrive at the 
place where we are able to predict these natural events and mitigate 
their potential impacts, providing precious time to save lives and 
property. By conducting research on coastal change that occurs during 
extreme storms, and by improving understanding of erosion and 
deposition that can destroy infrastructure and permanently change the 
coastal landscape, USGS will assist in efforts to reduce the impact 
these severe storms have on lives and communities.
    There are two major objectives of this USGS research effort. The 
first is to improve predictive capabilities so that, as a hurricane 
approaches the United States, assessments can be made of impacts to the 
threatened coastal setting prior to landfall. The second major 
objective is to provide the information and knowledge required to 
assess the changing vulnerability of our coastline to hurricanes for 
longer-term hazard planning and mitigation so that new buildings and 
infrastructure, particularly those being rebuilt following a storm 
disaster, can be sited away from hazardous areas. The 2004 Atlantic 
hurricane season was one of the busiest and most destructive in 
history. For example, Hurricane Ivan caused severe beach and dune 
erosion that undermined five-story oceanfront condominium towers, some 
of the largest buildings to fail during a hurricane in United States 
history. Today, after giving an overview of the USGS research program 
on severe storms, I will focus on lessons learned from the coastal 
change impacts observed last year.

Research Program on Extreme Storms
    As part of USGS National Assessment of Coastal Change Hazards, 
impacts of extreme storms have been intensively investigated since the 
1997-98 El Nino when severe winter extratropical storms ravaged much of 
the U.S. west coast, causing extensive erosion of beaches and sea 
cliffs and resulting in loss of property. The USGS worked cooperatively 
with National Aeronautic and Space Administration (NASA) and National 
Oceanic and Atmospheric Administration (NOAA) to acquire airborne lidar 
surveys of the coast both before and after the El Nino. These data were 
used to test models of the interaction between storms and coasts. Since 
the 1997-98 El Nino, USGS has continued to work with NASA, focusing 
primarily on hurricane impacts in the southeast U.S., again using 
airborne lidar to survey the coast before and after storm impact. 
Airborne lidar survey systems utilize the Global Positioning System 
(GPS) and a laser mounted in an aircraft to measure ground topography. 
If the water is clear enough, some lidar systems can penetrate the 
ocean and measure shallow seafloor bathymetry. The before- and after-
storm surveys gathered as part of USGS research are compared to detect 
changes in the elevation and configuration of the ground, changes that 
occur during a storm due to erosion and deposition.
    These data are used to test and validate predictive models that can 
forecast coastal change prior to hurricane landfall. The data are also 
used to develop a quantitative means to assess the vulnerability of 
U.S. coasts to future extreme storms. Currently, USGS is developing the 
means to assess:
    The location of potential breaches that sever barrier islands and 
evacuation routes during hurricanes. Most of the East and Gulf of 
Mexico mainland coasts of the United States are protected from the open 
ocean by a nearly continuous string of barrier islands. These long, 
thin strips of sand are, in places, low-lying (less than 9 feet in 
elevation) and subject to being inundated and cut during extreme 
storms. In fact, most of the present inlets through barrier islands in 
the southeast United States, which allow boats and ships to transit 
between ocean and mainland ports, were cut naturally during hurricanes. 
Most recently, breaches severed barrier islands during Hurricane Isabel 
on the North Carolina coast in 2003, on the southwest coast of Florida 
during Hurricane Charley in 2004, and during Hurricane Ivan on the 
Alabama and Florida panhandle coasts in 2004. Results of USGS research 
indicate that these catastrophic island breaching events occur where 
storm processes intersect with low-lying topography. USGS research also 
suggests that the underlying geology may contribute to the 
vulnerability of barrier islands to inlet formation.
    Extreme beach and dune erosion that lowers the elevation of barrier 
islands, making the islands, and the back bays they shelter, more 
suceptible to inundation by storm surge. During extreme storms, wind 
can push water against the coast, raising sea level in a storm surge. 
This allows waves to attack beaches and dunes that are normally beyond 
their reach. During Hurricane Ivan, Santa Rosa Island, offshore of 
Pensacola, Florida, was reduced in elevation an average of 
approximately 3 feet; however, in places, the reduction was as much as 
eight feet where new breaches opened. This reduction in elevation 
allows more water to be driven across the island during a severe storm, 
raising the storm surge in the back bays higher than would have been 
possible had the dunes remained intact. Thus, up-to-date and accurate 
information of coastal elevation, and understanding of the coastal 
response to storm processes, is critical to providing accurate 
forecasts of hurricane impacts.
    The 2004 Hurricanes: Charley, Frances, Ivan and Jeanne. In a 
cooperative effort between USGS, NASA, and U.S. Army Corps of 
Engineers, the impact zones of the four Atlantic hurricanes that made 
landfall in the United States in 2004 were surveyed with airborne lidar 
and photography both before and after landfall of each storm. Initial 
results for each hurricane can be found on the USGS World Wide Web site 
http://coastal.er.usgs.gov/hurricanes. Pre-storm surveys were combined 
with models of storm processes and coastal response to assess 
vulnerability of the threatened coast prior to landfall. After 
landfall, pre- and post-storm surveys were compared to quantify change 
and showed that coastal response was unique for each storm, depending 
on characteristics of both the storm and the shoreline setting 
impacted.
    For example, the swath of hurricane-force winds associated with 
Hurricane Charley was narrow. Major coastal-change impacts were limited 
to several tens of miles of shoreline near landfall, where a breach, 
1,500 feet wide, opened through North Captiva Island, Florida. In 
contrast, Hurricane Frances was a larger, weaker storm that caused 
moderate coastal erosion extending for nearly 100 miles along the 
Florida south-central east coast. However, Hurricane Frances' greatest 
legacy may have been in making the coastline more vulnerable to erosion 
from Hurricane Jeanne, which followed the same storm track several 
weeks later. Surviving structures left exposed on the brink of eroded 
dunes following Hurricane Frances in Vero Beach and Floraton, Florida, 
were later destroyed during Hurricane Jeanne.
    The most extensive coastal change observed during the 2004 Atlantic 
hurricane season occurred during Hurricane Ivan on the Alabama and 
Florida Panhandle coasts. On average, the shoreline retreated 40 feet 
during the storm. In Gulf Shores, Alabama, where the storm's strongest 
winds made landfall, the relatively low-lying barrier islands were 
completely inundated by storm surge. The sea-level difference between 
the Gulf of Mexico and back bays drove a strong landward current that 
transported sand across the island and opened a new inlet. In contrast, 
several miles to the east in Orange Beach, Alabama, where land 
elevations were higher, the response was dune erosion. In places, the 
vertical scour associated with dune retreat approached nine feet and 
undermined structures including several five-story condominium towers 
that had been built on top of the dunes. These are some of the largest 
buildings to be destroyed by hurricane impact in United States history.

Assessments of Storm Impacts Prior to Hurricane Landfall
    Forty-eight hours prior to Hurricane Ivan's landfall, the USGS 
posted on its extreme-storm website an experimental product that showed 
the vulnerability of the threatened coast to change. This assessment 
was based on the difference between worst-case storm-surge elevations, 
calculated by NOAA using computer models, and high-resolution coastal 
elevations, measured with airborne laser mapping. For each location 
along the coast, the posted maps showed where Ivan's worst-case storm 
surge would exceed coastal elevations and submerge barrier islands as 
if they were shoals. At these locations, water level differences would 
drive strong currents across the islands, changing their form and 
undermining buildings and infrastructure. The coastal change during 
Hurricane Ivan measured with airborne lidar was later found to be 
consistent with USGS assessments of coastal vulnerability made prior to 
the storm's landfall.

The Future
    The unusual failures of large, oceanfront buildings during 
Hurricane Ivan may be because southeast U.S. coastal communities have 
not been severely tested by hurricane-induced erosion until recently. 
Between 1966 and 1990, when southeast coastal developments grew dense, 
only two major hurricanes made landfall along the east coast or the 
peninsula of Florida--most developments survived unscathed. However, 
recent research on decadal scale changes in hurricane activity suggests 
that the Atlantic Basin has re-entered an active hurricane period 
similar to that of the period 1941-1965 when seventeen major hurricanes 
made U.S. landfall. It is likely that this active period will persist 
for decades. Hence, the loss of multi-story buildings during Hurricane 
Ivan may be a warning of what is to come along our hurricane threatened 
coasts.
    The USGS, working with our partners, will continue to develop 
extreme storm vulnerability assessment methodologies and provide these 
assessments of coastal change to user agencies. Several weeks ago when 
Tropical Storm Arlene threatened the Alabama and Florida panhandle 
coasts--the same area where Hurricane Ivan made landfall nine months 
before--USGS provided NOAA storm surge modelers with assessments of 
dune erosion within the forecast impact zone. The modelers were 
concerned that barrier island elevations had been lowered during 
Hurricane Ivan, which would allow more water to be driven across the 
islands, resulting in higher surge in estuaries than their models would 
account for. The USGS provided dune erosion data and assessments that 
were incorporated into NOAA storm-surge models and were used to help 
forecast potential flooding from Tropical Storm Arlene.
    Ongoing data collection efforts, combined with existing models, 
provide the basis for a collaborative effort with other Federal 
partners, such as National Weather Service (NWS), to assess the likely 
impacts of coastal storms. Both pre-storm assessments of dune and beach 
erosion and post-storm damage assessments, provided in a timely manner, 
support the efforts of Federal and local emergency planners and 
responders. These activities are also an integral part of persistent 
research efforts to better understand and assess the vulnerability of 
U.S. shorelines to coastal change impacts from extreme storms. 
Integration of scientific information and coastal change models 
developed by USGS with the meteorological models of impending storm 
processes from NWS will support more timely and accurate forecasts of 
the location and type of coastal response to severe storm events.

Inland Flooding From Excessive Rainfall
    As population and development continue to increase in coastal 
areas, more people and property are vulnerable to hurricane threat. 
However, coastal residents and visitors are not the only ones 
vulnerable to the ravages of hurricanes and extreme storms. Hurricane 
winds and waves impacting the coastal zone are often accompanied by 
extreme rainfall that can contribute to local and regional flooding of 
coastal and inland areas. Flooding is the most frequent natural 
disaster. During the 20th century, floods arising from extreme storms, 
both tropical and extra-tropical, were the worst natural disaster in 
the United States in terms of number of lives lost and property 
damaged. Flooding from extreme storms can occur at any time of the 
year, in any part of the country, and at any time of the day. Property 
damage, including inundation by sediment-laden water, demolished 
buildings, and erosion that undermines bridge foundations and footings 
leading to the collapse of structures, results in approximately $5 
billion in losses per year.
    Hurricanes and tropical storms can be especially dangerous and 
destructive as they move inland from coastal areas. For example, floods 
from remnants of Hurricane Camille in 1969 killed hundreds of people 
throughout Appalachia. In 1999, eastern North Carolina endured record 
rainfall and two months of continuous flooding from Hurricanes Dennis, 
Floyd, and Irene. Notable, the 2004 Atlantic hurricane season was the 
most costly on record--$42 billion. Widespread rainfall amounts over 6 
inches caused extensive flooding. In Florida, USGS field crews obtained 
some of the highest flow measurements ever recorded. This flooding was 
compounded by the remnants of Hurricane Ivan less than 2 weeks later.
    The USGS, in cooperation with NWS River Forecast Centers and 
others, is making significant progress in development of new tools and 
techniques to address flood risk. The following are examples of USGS 
research and modeling activities relative to inland flooding:

  <bullet> Prioritizing Streamgaging Network investments and Improved 
        Streamflow Information Delivery. The USGS managed streamgage 
        network includes 3,200 gages that support NWS streamflow 
        forecasts and flood predictions to calibrate their streamflow 
        forecast models and make flood predictions. The USGS is working 
        to improve delivery of streamgage information to meet this and 
        other national needs for streamflow information. As part of 
        that effort, USGS is installing new high data rate transmitters 
        to improve real-time data access, flood-hardening streamgages 
        critical to the National Weather Service for flood predictions, 
        and building a robust data storage and processing system to 
        ensure reliable and timely streamflow information delivery to 
        users of the information.

  <bullet> Development of a real-time flood inundation mapping 
        capability using forecasts from the NWS River Forecast Centers. 
        Emergency managers need to know what is (or shortly will be) 
        under water when a flood is occurring. Inundation maps help 
        emergency managers plan evacuation routes, deploy critical 
        resources, understand the magnitude of events, and, in general, 
        respond quickly to save lives and property. In creating real-
        time inundation maps, forecast flood hydrographs are routed 
        through lidar-derived elevation models of reaches of a river 
        with multi-dimensional flow models that allow predictions of 
        the timing, depth, velocity, and impact of flood waters for any 
        location in the mapped floodplain. These inundation forecast 
        maps can be posted on the worldwide web hours to days prior to 
        the arrival of the flood. Near-real-time simulation and 
        internet-based delivery of forecast-flood inundation maps using 
        two-dimensional hydraulic modeling has been developed through a 
        pilot study of the Snoqualmie River, Washington (see USGS 
        Water-Resources Investigations Report 02-4251, 36p.)

  <bullet> Development of a map-based Web application, ``StreamStats,'' 
        to obtain streamflow and flood statistics. ``StreamStats'' 
        provides streamflow information for all locations in the 
        Nation, and specifically for ungaged sites, by using 
        statistical models and established hydrological relationships. 
        This application results in major cost savings by reducing the 
        time needed to obtain streamflow estimates for a site from an 
        average of about a day to only a few minutes. ``StreamStats'' 
        is currently available for 6 states. By the end of Fiscal Year 
        2005, information from 12 states will be included in 
        ``StreamStats.''

  <bullet> Development of new technologies to measure flood water 
        levels that heretofore were too dangerous or practically 
        impossible to measure. Accurate determination of the magnitude 
        of floods is essential for establishment of flood-frequency 
        relationships, required for long-term hazard assessment and 
        design of critical infrastructure. These technologies include 
        hydroacoustic current profilers and totally non-contact methods 
        to measure river discharge from the ground or the air (see 
        http://or.water.usgs.gov/hydro21/index.shtml). These 
        technologies keep personnel out of high flowing streams and 
        increase the margin of safety when taking streamflow 
        measurements in hazardous conditions.

    USGS will continue to work with partners at the Federal, State, and 
local level to assist in efforts to reduce the impact that severe 
storms have on lives and communities. Natural hazards, such as 
hurricanes and inland flooding, will always be with us and may be 
difficult to predict. With USGS science, however, we are striving to 
prevent these natural hazards from becoming natural disasters. Our 
efforts in hazards monitoring and long-term data and information 
collection from past and present hazard events is not simply a 
scientific research endeavor--it is a matter of public safety.
    Mr. Chairman, thank you for the opportunity to appear before you 
today. I am happy to answer any questions that you and Members of the 
Subcommittee may have.

    Senator DeMint. Thank you, panel, I would just ask a couple 
of quick questions and then turn to the Ranking Member.
    Mr. Mayfield, on the Hurricane Center you've done some 
amazing things, I know you're working hard to improve forecasts 
and get more products out to the public. My concern is that 
even if the Center could produce perfect forecasts 10 days out, 
it still might not make a difference for some people. What I'm 
saying is that at the end of the day, some of this comes down 
to personal responsibility to make sure you have a disaster 
plan, you don't make foolish decisions like trying to cross a 
flooded bridge. You work on these issues day to day--can you 
comment on what you believe families need to do to be 
protected?
    Mr. Mayfield. Absolutely, Mr. Chairman, and you really hit 
the nail on the head here. I learned a long time ago that it 
really doesn't matter if you even make a perfect forecast, if 
you don't get people to respond, it's all for nothing. As you 
have accurately stated here, it really comes down to that 
individual taking that personal responsibility to develop their 
own hurricane plan, and make no mistake about it--the battle 
against the hurricane is won outside the hurricane season--you 
can't afford to wait for a hurricane to be knocking at your 
door before you develop that plan. People need to know in 
advance, and I know very well now that the National Hurricane 
Center can't do this alone.
    I think one good example of how we are addressing this--
there is a public/private partnership called the National 
Hurricane Survival Initiative. We have gotten together with the 
National Emergency Management Association, the Florida Division 
of Emergency Management, the Salvation Army and some private 
sector folks, and you'll be seeing, this coming hurricane 
season, several public service announcements on television 
stations up and down the coastline--they also did a survey, a 
Mason-Dixon poll that was released in May, and I guess the 
really disturbing thing to me in spite of all of this outreach 
and all of this education we've done for so long, this poll 
from Texas to Maine told us that 47 percent of people did not 
have a hurricane plan, and that is not acceptable.
    Now, they just released a new poll in Florida alone, in 
fact, I just got the results last Friday, and all but 18 
percent of the people in Florida have a hurricane plan--that is 
understandable after the season we had last year--but you don't 
want to wait for a hurricane to come and cause all of this 
damage before you get prepared. In fact, there's some very 
simple things to do, in fact, we have some excellent ideas on 
our website. The number one thing to do is when anybody 
develops a hurricane plan, is to determine if you're in a 
hurricane storm surge evacuation zone or not, if you are, you 
need to know exactly where you're going to go to seek safe 
shelter, even if you're out of that storm surge evacuation 
zone, you still need to have the hurricane plan, the storm 
shutters, the drinking water, the batteries, flashlights and 
batteries, the most important thing is to have that plan done 
now before the hurricane comes.
    Senator DeMint. Is that information on your website? If I 
lived in a particular area, I could go find out exactly where 
the storm surge was, which bridge I should take on the way out?
    Mr. Mayfield. That varies with the state. You can do that 
in some states, you can in Florida, I'm not sure that everybody 
does that yet.
    Senator DeMint. Who's responsible for making sure that's on 
the website?
    Mr. Mayfield. Well, I would think that probably the local 
community. Of all the studies I'm familiar with, they are very 
consistent in saying that people, most people, respond really 
to what local officials tell them to do. And so it is really 
important that people listen and heed the advice of the local 
officials. And so my vision would be for each local community 
to have the storm surge zones depicted and most importantly, 
the shelters depicted.
    Senator DeMint. If someone went to your website, they 
couldn't get information as to where to go to find out that 
information?
    Mr. Mayfield. Not on a community-by-community basis, there 
are so many communities out there from Texas to Maine, plus the 
Caribbean that that would be a little overwhelming for us to 
do.
    Senator DeMint. You can tell them they should have a 
hurricane plan, but they can't get the specifics from you?
    Mr. Mayfield. But we do work very, very closely with all of 
the emergency management, we talked about training, and in 
fact, Mr. Chairman, we actually made a very conscious decision 
years ago--I really think that if I had time to sit down over a 
cup of coffee with the 50 some-odd million people living in 
coastal communities and talk to them about hurricanes and the 
hazards of the hurricanes and the uncertainties in forecasting, 
I'm sure I could convince people to develop their own hurricane 
plan--I can't do that, so we made a conscious decision to work 
with these emergency managers from the local communities.
    Senator DeMint. Right now, as far as you know, NOAA doesn't 
have a link with state departments of transportation about 
evacuation routes so people have to figure out separately to go 
to another site.
    Mr. Mayfield. That is correct, Mr. Chairman, we don't do 
that for the entire coastline, I would guess that most 
communities do have something like that on a local website.
    Senator DeMint. Thank you, Mr. Mayfield, just a quick 
question for Mr. McCarthy, and then I'll turn to my Ranking 
Member here.
    You mentioned that the phased array radar is the next 
generation, it could add as much as 4 minutes to lead time--
could you give us some idea how much this costs as compared to 
Doppler? And do you think there is a cost-benefit relationship?
    Mr. McCarthy. Well, the big benefit would be in the ongoing 
operation and maintenance, exactly what it costs to deploy. It 
is a little down the road yet, and there is a group that is 
actually exploring what the cost would be, because you know how 
technology is, things generally, the price kind of comes down. 
This is a system that we're actually integrating from the Navy, 
it is a system that the Navy has been using for some time, and 
so the first system that we have for testing and development 
that is in Norman, Oklahoma, actually came from the Navy, so 
now the National Severe Storms Lab in Norman, Oklahoma is using 
that system to adapt it to weather applications, especially 
storm detection, so as they figure out what it will take to 
develop a network of those for weather applications, and as the 
group who is looking into what it will take to actually do 
that, they can develop the unit cost, which isn't quite there 
yet, I'm fairly certain that later this year we can get that 
information to you.
    Senator DeMint. Very interesting, thank you.
    Senator Nelson?
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Mr. McCarthy, the testimony that was submitted to the 
Committee suggests that the area of responsibility assigned to 
any particular service office may be quite large, and 
expectations may be greater than the reality of being able to 
serve, and in your own written testimony, you suggested that 
issuing tornado warnings by county itself may be too broad. 
What effort is the Weather Service making to try and correct 
these two areas that need to be dealt with?
    Mr. McCarthy. Well, actually sir, our areas of 
responsibility as we've referred to it, like the Valley office 
that you visited, we did, when we did our modernization and 
restructuring in the 1990s, we looked at the area of 
responsibility and feel pretty comfortable that those areas 
work out pretty well with the radar coverage that we have. A 
lot of offices have their own radar, and then they have access 
to their neighbor's radars now through the work stations that 
we use. And it's a pretty good, pretty well-oiled operation. 
What we're talking about with the counties, and this gets a 
little bit into the false alarm rate issue, currently in some 
areas, you know in Nebraska you have some--well, we all have 
interestingly shaped counties that have to do with rivers and 
things like that for boundaries--some of the counties 
geographically are a little bit large, we have issued, 
ordinarily we issue county-based warnings, and there's reasons 
for that, partly because of the emergency management network 
that is out there, and partly because when we issue a warning, 
we use the codes that are assigned for each county for 
automated distribution, it is called a FIPS code, which I think 
is Federal Information Processing System, but what we're trying 
to do now with GIS technology, is we're trying to narrow the 
area that we warn for, we have a good idea from our radars, 
obviously, where the storm is and where it's going. And 
actually, when we outline the warned area, we actually do it on 
our computer screen, and we outline this area and when we do 
that, the computer can take over and assign latitude and 
longitude points. Lots of people can use that polygon, as we 
call it, to actually transmit that as the warned area.
    We have private sector partners now that are actually using 
that polygon area, so we can limit the geographic area that the 
warning is issued for, and we have a really great experiment 
going on out in parts of the Midwest, parts of Tornado Alley, 
along those lines this severe weather season, and its been very 
successful.
    Senator Ben Nelson. Well, certainly to the extent you can 
get them more narrowly focused for warning, the better the 
warning is going to be, and more people will be well-served by 
fewer false alarms and more credibility.
    Now I want to ask you a couple of issues on the budget--
there was a bunch of downsizing that occurred in the 1990s, 
many of the Weather Service offices, and now the House recently 
proposed a cut of 7.6 percent in your budget, which would come 
on top of the $37 million cut that the MWS received between 
Fiscal Year 2004 and 2005. If enacted, how would these cuts--if 
you project them through your operation--how would they affect 
your ability to continue to do what you're doing, as well as 
what you would like to do?
    Mr. McCarthy. Well, you know, sir----
    Senator Ben Nelson. I'm sure the answer is, it's not going 
to improve, but maybe you can give us some idea of what kind of 
cutting or what kind of reductions you may be faced with.
    Mr. McCarthy. Actually, when we did our modernization back 
in the 1990s, the offices that we phased out, there was 
actually a pretty strong scientific and technology reason. We 
had as many field offices as we had in the past because we were 
kind of tied to manual observations. Our systems that were used 
for observing certainly weren't what they are today, so we are 
able to do a better job with modern technology, such as the 
NEXRAD radar, and as was mentioned in opening statements about 
how long it took to generate a tornado warning back in those 
days, in the teletype era, before we moved into computer 
technology----
    Senator Ben Nelson. Are you going to be able to tell me the 
increasing technology in the next several weeks, or months or 
years will help you overcome a 7.6 percent reduction, as well 
as the other? If you're able to tell me that, I'm not looking 
to put money where we don't need to.
    Mr. McCarthy. Well, we certainly, basically, sir, we do the 
best we can with the budget that we're given, and we feel we do 
very well with that. Sometimes we have to defer some things, 
and sometimes there are things we would like to do that we 
maybe have to do next year or the year after, but what we do 
focus on more than anything is tornado warnings, the impacts 
from hazardous events, we will always do that, that is our 
highest priority.
    Senator Ben Nelson. Well, living in Tornado Alley, I want 
you to be as accurate as you can possibly be, with the greatest 
technology that's available, and I want to make sure that those 
cuts don't impair your ability to do that, because I spend a 
fair amount of time out there, and if I didn't care about my 
constituents, I certainly care about my family and myself, and 
so I hope that you're able to continue the progress that you've 
made in spite of cuts, and not be impaired because of it.
    Mr. McCarthy. Well, I can tell you for certain that every 
National Weather Service forecaster, as I told people in a 
community where we did close an office during the 
modernization, that I put the same effort into their community 
that I put into the community where I live.
    Senator Ben Nelson. Well, that's fair enough. Thank you, 
Mr. Chairman, thank you, Mr. McCarthy.
    Senator DeMint. Thank you, Senator.
    Senator Vitter?
    Senator Vitter. Thank you, Mr. Chairman.
    Mr. Mayfield, your written testimony refers to the 
inability to provide enough time to evacuate New Orleans and 
Key West, specifically, from a hurricane. Could you tell us 
why. What is unique in those two cities, those two geographic 
areas, such that there is that relatively unique inability to 
fully evacuate?
    Mr. Mayfield. Senator Vitter, those are two of the areas 
that we have the most concern with anywhere in the Gulf of 
Mexico, in fact, the number one area of greatest concern for 
the Gulf is Southeast Louisiana, the Florida Keys is a very 
close second there. They are so vulnerable, the areas, I think 
that the greatest loss of life will occur in one of those areas 
due to the storm surge flooding as you've described in your 
graphics behind you here. It's really difficult to get people 
to understand the power of the storm surge, and the cubic yard 
of water weighs about 1,700 pounds, it's nearly incompressible, 
on top of the storm surge, you have the very dangerous waves. I 
like to tell people that it doesn't matter how well built your 
house is, if you're in the low-lying area, I mean, to make it 
real simple, if you're six feet tall and have ten or twenty 
feet of storm surge, you have a problem. I like to say you need 
to make friends in high places.
    One of the problems is that in Southeast Louisiana and in 
the Florida Keys, there are no high places. The city of New 
Orleans is below sea level, for the most part. It's a real 
concern to give people enough time to evacuate to higher 
terrain, which is what they have to do, or they will drown from 
the storm surge.
    Senator Vitter. So, is the biggest factor the terrain? What 
about infrastructure in terms of getting out?
    Mr. Mayfield. It is not just about the forecasting, it's 
about the land use, and the building codes and the education, 
just having so many people that you have to evacuate out to 
higher ground. I've flown all around the Louisiana Coast and 
around Lake Pontchartrain with emergency managers as recently 
as about a year and a half ago, and I've seen the 
vulnerabilities, and they were pointing out to me islands that 
they used to go and picnic on that are now under water, and you 
have a very unique problem there in Southeastern Louisiana with 
the subsidence, it needs some attention, and again, it is not 
all about the meteorology there, we need to make sure people 
have a plan and I know people are working very hard on that. 
The emergency managers are doing the best they can, and it 
still comes down to that individual taking that personal 
responsibility, and making sure that they do the right thing, 
and in addition, a unique problem there in Southeastern 
Louisiana you have, I believe the last numbers I heard, 125,000 
people without transportation in the New Orleans area. So, the 
emergency manager would be the best to answer that question, 
but I know they do have plans to bus them out and use other 
means of transportation to get them out of harms' way.
    Senator Vitter. In light of all of that, what should 
planners and others in that area do, first and foremost to 
improve the evacuation picture; and specifically, how 
significant and useful a role do you think vertical evacuation 
into taller buildings, which is the only high ground we have, 
man-made high ground, how useful or significant could that be?
    Mr. Mayfield. Everywhere I go I ask emergency managers what 
they're going to do with these high-rises, and you can go 
almost anywhere now, and see the development of the coastline, 
and when I ask them are they going to evacuate people from the 
many coastal areas, people living in these high rises, they 
always tell me yes, because they know in a major hurricane, 
they will know the power will be out, they will know the water 
systems will be inoperable, they don't want--there is no way 
they can take care of all these tens of thousands of people 
stuck in these high rises. I think that it would be, well it 
would be fairer to critique me here and say that this is not my 
area of expertise, I should stick to meteorology, but the truth 
is you have to care about these things, and in my opinion, and 
this is my personal opinion, there are some areas, like the New 
Orleans area, where the vertical--we like to call it vertical 
refuge--if you can't get people evacuated out, I don't believe 
you're going to have any other option other than to consider 
vertical evacuation, vertical refuge of last resort.
    Senator Vitter. Let me switch gears for just a minute, but 
it is in terms of your work at NOAA.
    One of your NOAA colleagues, Chris Lansy, had a difference 
of opinion with participants on the inter-governmental panel on 
climate change, which resulted in Chris Lansy resigning from 
the panel. The dispute apparently involved allegations that 
recent hurricanes were somehow attributable to climate change. 
Can you speak to that point?
    Mr. Mayfield. I will do my best on that, I can't speak for 
Chris, but I know he is a first-class scientist, and my 
understanding of the issue there--and I totally agree with 
him--that the natural variability is far more important than 
the climate change that may or may not be going on related to 
hurricanes. The studies that I'm aware of on the climate change 
and the hurricane correlations, we don't really think the areas 
will change where the hurricanes form, we don't think that the 
numbers will change. There is one study from the Geo-physical 
Fluid Dynamics Lab in NOAA that says there could be an increase 
in intensity and rainfall by about 5 percent in about 80 years. 
The natural variability is so much larger than that in the 
active periods that we're in now, we average three and a half 
major hurricanes per year, those are the category three, four 
and five hurricanes on our Saffir-Simpson Scale, and the 
inactive periods, we only have one and a half major hurricanes, 
so you can go back for decades and see this natural 
variability.
    I think that what we're doing now will serve us very well 
in improving the intensity of forecasting through numerical 
weather prediction, that will help us now and in the future. 
What really counts is where the hurricanes hit and how strong 
they are at landfall.
    Senator Vitter. So, just to be clear on what happened, and 
I don't want to put words in your mouth, but he resigned from 
the project because there was a push to make more of a causal 
connection than he was comfortable with.
    Mr. Mayfield. Senator, that's my understanding. And it was 
over the issue of the natural variability versus the climate 
change. By the way, there is no increase to the number of 
hurricanes on a global basis and I would think that no one 
should take one year and try to link that to climate change 
anyway.
    Senator Vitter. Thank you, thank you, Mr. Chairman.
    Senator DeMint. Well, I want to thank the panel, this has 
been very helpful, I can assure you we're going to take all the 
information and do everything we can to assist you in your 
work. I will dismiss you and ask the second panel to take their 
seats so we can move along before the next vote.
    Good afternoon, I want to thank this panel for being 
patient, I know you've had to wait a long time, and I think 
we're getting ready to lose one of our Senators here, and I 
wanted to make sure that Senator Vitter had an opportunity to 
introduce Dr. Mark Levitan.
    Senator if you would like to do that, then I will handle 
some of the other introductions.
    Senator Vitter. Thank you very much, Mr. Chairman. Mr. 
Chairman, Senator Nelson, I would like to introduce both of you 
to Mark Levitan. Not only is Mark the Director of the top 
hurricane center in the country, but he has an extensive 
background on the effect of storm winds, hurricane shelters, 
and evacuation and all of those issues. His work and that of 
the Center have been a great resource for my office, and I'm 
sure his testimony today will be very helpful to the 
Subcommittee. He is Director of the Louisiana State University 
Hurricane Center.
    Mark, thank you for being here.
    Senator DeMint. Thank you, Senator. And I think Senator 
Nelson also has a guest he would like to introduce.
    Senator Ben Nelson. Well, thank you, Mr. Chairman, and 
we're very happy to have Doug Ahlberg here today from Lincoln, 
Nebraska. He is the Director of the Lincoln-Lancaster County 
Department of Emergency Management, he was previously a captain 
of the Lincoln Police Department, retiring after 36 years in 
law enforcement, and became Director of the Lincoln-Lancaster 
County Department of Emergency Management in 1999. He is here 
today to share his expertise as someone who deals with severe 
weather and its aftermath on the local level, which I still 
believe will add a valuable perspective on this discussion on 
severe weather forecasting.
    He has had a fairly recent and very vivid experience with 
severe weather that he will be able to share with us, having 
witnessed the aftermath of that tornado myself, I can attest to 
what a devastating tornado that was, it virtually destroyed an 
entire small town in Nebraska last summer. He made this 
disaster manageable because of his hard work, organization and 
dedication to helping the affected communities recover as 
quickly as possible. Everyone in Nebraska appreciates his 
efforts to keep our citizens safe. I might add that we have on 
more than one occasion hunted in Rushville County in Nebraska 
on the Don Forney ranch, and if Don is watching today and 
doesn't have anything else to do, we will both send him our 
regards.
    Good to have you here, I appreciate it.
    Senator DeMint. Thank you, Senator, we also have Dr. Tim 
Reinhold. Dr. Reinhold is Vice-President for Engineering at the 
Institute for Business and Home Safety, and is appearing on 
behalf of the insurance industry. He is going to discuss the 
role the industry plays in reducing businesses and homes 
exposure to severe storms, and finally appearing before the 
Committee is Mr. Bill Walsh.
    Mr. Walsh's official title is Director of Meteorology and 
Chief Meterologist for WCSC in Charleston. Really, he's known 
as the go-to guy in the Low Country when there is a severe 
storm. During his 19 years as a broadcast meteorologist in 
Charleston, he has seen the worst that Mother Nature has to 
offer, and the best that our neighbors have to give. When power 
was out for weeks after Hugo, it was Bill Walsh who was getting 
the word out to our communities on what they needed to do to 
recover. I'm confident he is going to provide important, 
helpful testimony, and with that, we will begin with you, Mr. 
Walsh, and as we said before, these lights will give you an 
indication of when you're running out of time, and I think it's 
about 5 minutes.

    STATEMENT OF BILL WALSH, DIRECTOR OF METEOROLOGY/CHIEF 
                METEOROLOGIST, WCSC LIVE 5 NEWS

    Mr. Walsh. Thank you, Mr. Chairman, very much and Members 
of the Subcommittee for inviting us up to talk here today about 
prevention and prediction, particularly when it comes to 
hurricanes, and in my view, the media--I've been a broadcast 
meteorologist in Charleston, South Carolina for 19 years this 
summer, and have guided our residents through many hurricanes, 
including one of the bellwethers, Hurricane Hugo in 1989, which 
we talked about with the 22 feet of storm surge water, in 
McClellanville, 135 mile per hour winds. Other noted storms 
include Hurricane Floyd in 1999, where hundreds of thousands 
were caught in a traffic jam that some called the 15 hour drive 
to nowhere, or the ``Floyd Fiasco.'' And then there was last 
year, four hurricanes, three majors struck Florida, billions of 
dollars in damage and mass evacuations, South Carolina was also 
affected by those storms, with tornado damage in one storm, 
Charlie actually making a second landfall just up the road from 
our television station. So the threat is there, and always will 
be.
    I want to talk today about three things--lessons learned 
from past storms and disasters, getting the word out, and the 
partnership between the media and the National Weather Service, 
and recommendations on what strategies are working to protect 
our citizens from Mother Nature's wrath.
    First, lessons learned. We spent over 60 hours covering 
Hurricane Hugo's approach to South Carolina, but had no idea 
how long our coverage would have to last after the storm with 
no power for up to 3 weeks in some places, television and radio 
were the voices in the darkness. All of the stations in 
Charleston, ours included, dedicated 2 weeks plus of continuous 
coverage, commercial-free, for the aftermath of this giant, 
giant storm. Our simulcast on radio was key to that information 
flow. When people had no television, battery-powered radio was 
how people got their news. Radio was and is our partner when it 
comes to this kind of disaster, because the size of our news 
department and the power of the radio station are able, and 
were able at that time to bring people to the news they needed.
    We learned that storm coverage is critical as a storm 
approaches for saving lives, but it is just as vital after a 
storm strikes, sometimes for weeks, to deliver needed 
information to the public from local, state and national 
officials. Hurricane Floyd also taught us a lesson, not only to 
South Carolina, but everyone in the Southeast Coast of our 
Nation. Evacuations are complex, and they take good planning 
and logistics. That evacuation was a disaster in itself because 
of a failed plan and poor execution, people in our state sat on 
our highways for literally 10 to 15 hours with no place to 
exit, no place to rest and were left with a bad taste in their 
mouths for the failure. From that, though our state learned and 
listened. Our new Governor, Mark Sanford, himself a coastal 
resident, brought together a team of people, including local 
officials, highway patrol officials, DOT officials, along with 
members of the media, including myself, to create a plan that 
would get people safely away from the coast, and invest in 
preparation. This new plan includes partnerships with local 
governments and the media, it includes video feeds of our 
states' most primary and secondary roads, car counters that 
measure traffic flow are also active and will be available on 
the web for citizens to actually look at the busy spots. One of 
the most important pieces of this new plan is the lane reversal 
operation which was drilled and actually tested before 
hurricane season, and actually put into effect last year for 
Hurricane Charlie. Also, small things, sometimes it is the 
small things, but small things like keeping the exits open for 
people to take rests or an alternate course, and pre-deployed 
road message signs for traffic updates, along with roadside 
port-a-potties for emergencies.
    Information flow to the people is key to making all of this 
work and this partnership, which it is, with the state's media 
outlets gives officials a vehicle to get the word out. Floyd 
was a critical lesson learned, but from it, we now have new 
leadership and a plan that has been proven to work, and it 
worked last year. As a member of the Air Force Reserve, we 
always talk about readiness, and this crosses over to storm 
preparation and planning at all levels--national, state and 
local. Another lesson was in the slow FEMA response to 
Hurricane Hugo back in 1989. From that, though, FEMA has 
undergone many changes, and now it is a fast responder to 
people who may be left with nothing but their lives.
    Second, getting the word out today, I'm very happy to 
report to you that there's no better relationship, in my 
opinion, between the media, and the fabulous people at the 
National Weather Service. The partnership between our voices 
carries to the citizen a word of warning when severe weather 
and hurricanes are going to strike. There's no place on the 
planet that has a better warning system for people to prepare 
and get ready for a possible disaster from weather. The Weather 
Service Forecast Offices, the National Hurricane Center and the 
Storm Prediction Center are vital to our national effort to 
defend against these killer storms. The media is also vital to 
get that message out and does so 24 hours a day and 7 days a 
week. We in the media spend millions of dollars every year on 
technology to protect our people and show them when danger is 
there. That technology includes computer models, Doppler radar 
systems, also owned by local media, instant crawl text systems, 
and so on. There's been some talk lately about fines levied by 
the FCC for stations that did not have closed captioning for 
the hearing impaired during severe weather events. It must be 
noted, however, that stations make a huge effort and investment 
in equipment to inform the public, severe weather happens in an 
instant and television response, along with the National 
Weather Service with the warnings and graphics to show where 
the danger is. We're responsible to all of our viewers, 
including the hearing impaired, and it should be recognized 
that while closed captioning is a wonderful tool we all use 
every single day, the FCC should also note that the full screen 
graphics and the maps, along with the crawling text at the 
bottom of the screen, is clearly another source for those 
viewers to read the information and see where the danger is, 
when a closed caption may be unavailable for technical or other 
logistical reasons.
    Finally, strategies that work are rather simple--good 
planning, good dedicated people at all levels of government and 
media, as well as a citizen ready to act when the word is 
given. We in the media are responsible for getting the word 
out, our partnership with the Weather Service and state 
officials is just that--a partnership. We together have seen 
what works and what doesn't work. We in television forecast the 
weather and we inform the people with the best technology to 
back us up, and a strong partnership with the National Weather 
Service, together people are well-informed, and lives are 
saved.
    Thank you so much, I'll take questions as needed.
    [The prepared statement of Mr. Walsh follows:]

    Prepared Statement of Bill Walsh, Director of Meteorology/Chief 
                    Meteorologist, WCSC Live 5 News

    First, thank you very much for inviting me to come up and talk 
about disaster prevention and prediction, in particular, when it comes 
to hurricanes.
    I've been a broadcast meteorologist in Charleston, South Carolina 
for 19 years this summer and have guided our residents through many 
hurricanes including one of the bellwethers, Hurricane Hugo in 1989 
with 22 feet of storm surge water and 135 mph winds. Other noted storms 
include Hurricane Floyd in 1999 where hundreds of thousands were caught 
in a traffic jam that some call the ``Fifteen Hour Drive To Nowhere . . 
. or The Floyd Fiasco.''
    Then there was last year. Four MAJOR hurricanes strike Florida, 
billions of dollars in damage and mass evacuations. South Carolina was 
also affected by those storms with tornado damage and one, Charlie, 
actually making a second landfall just up the road from our TV station.
    So, the threat is there and will always be. I'm going to talk today 
about three things. Lessons learned from past storms and disasters, 
Getting the word out and the partnership between media and the national 
Weather Service, and recommendations on what strategies are working to 
protect our citizens from mother nature's wrath. Lessons Learned:
    We spent over 60 hours covering Hurricane Hugo's approach to South 
Carolina, but had no idea how long our coverage would have to last 
after the storm. With no power for up to three weeks in some places, 
television and radio were the voices in the darkness.
    All the stations in Charleston, ours included, dedicated two weeks 
of continuous coverage to the aftermath of this giant storm.
    Our simulcast on radio was the key to that information flow. When 
people had no television, battery powered radio was how people got 
their news. Radio was and is our partner and with the size of our news 
staff and power of the radio station, we were able to bring the people 
the news they needed.
    We learned that storm coverage is critical as a storm approaches 
for saving lives and that it is just as vital after a storm, sometimes 
for weeks, to deliver needed information for the public from local, 
state and national officials.
    Hurricane Floyd also taught a tough lesson to everyone along the 
Southeast coast of our state and Nation. Evacuations are complex and 
take good planning and good logistics.
    That evacuation was a disaster in itself because of a failed plan 
and poor execution. People in our state sat on highways for literally 
10 to 15 hours with no way to exit, no place to rest and were left with 
a bad taste in their mouths for this failure.
    From that though, our state learned and listened. Our new Governor, 
Mark Sanford, himself a coastal resident, brought together a team of 
people including highway patrol officials, DOT officials, along with 
members of the media including myself to create a plan that would get 
people safely away from the coast and invest in preparation.
    This new plan includes partnerships with local governments and the 
media. It includes video feeds of our state's most primary and 
secondary roads. Car counters that measure the traffic flows are also 
active and will be available on the web for citizens to actually look 
at the busy spots. One of the most important pieces to this new plan is 
the lane reversal operation which was drilled and tested before 
hurricane season and actually put into effect last year for Hurricane 
Charlie. Also, small things like keeping exits open for people to take 
rests or alter their course and predeployed road message signs for 
traffic updates along with port-a-potties for emergencies.
    Information flow to the people is key to making all this work and 
the partnership with the state's media outlets gives officials a 
vehicle to get the word out.
    FLOYD was a critical lesson learned, but from it we now have new 
leadership and a plan that has been proven to work.
    As a member of the Air Force Reserve, we always talk about 
readiness and this crosses over into storm preparation and planning at 
all levels; national, state and local.
    Another lesson was the slow FEMA response to Hurricane Hugo. From 
that, FEMA has undergone many changes, but now is a fast responder to 
people that may be left with nothing but their lives.
Getting the Word Out
    Today I'm happy to report to you that there is no better 
relationship, in my opinion, between the media and the fabulous people 
at the National Weather Service.
    The partnership between our voices carries to the citizen the word 
of warning when severe weather and hurricanes are going to strike.
    There is no place on the planet that has a better warning system 
for people to prepare and get ready for a possible weather disaster.
    The Weather Service forecast offices, National Hurricane Center and 
the Storm Prediction Center are vital to our Nation's efforts to defend 
against killer storms.
    The media is vital to get that message out and does so, 24 hours a 
day. We in the media spend millions of dollars every year on technology 
to protect people and show them when danger is there. That technology 
includes computer models, Doppler radar systems, and instant crawl text 
systems and so on.
    There has been some talk lately about fines levied by the FCC for 
stations that did not have closed captioning for the hearing impaired 
during severe weather events.
    It must be noted, however, that stations make a huge effort and 
investment in equipment to inform the public. Severe weather happens in 
an instant and television responds along with the national Weather 
Service with the warnings and the graphics to show where the danger is.
    We are responsible to all our viewers, including the hearing 
impaired. It should be recognized that while closed captioning is a 
wonderful tool we all use, the FCC should also note that the full 
screen graphics and maps along with the crawling text at the bottom of 
the screen, is clearly another source for those viewers to read the 
information and see where the danger is when a closed caption may be 
unavailable because of technical or other reasons.
    Finally, strategies that work are rather simple. Good planning, 
good dedicated people at all levels of government and media as well as 
a citizen ready to act when the word is given.
    We in the media are responsible for getting the word out. Our 
partnership with the Weather Service and state officials is just that . 
. . a partnership. Together we have seen what works and what doesn't 
work.
    We in television weather focus on informing the public with the 
best technology to back us up and a strong partnership with our friends 
at the National Weather Service.
    Together people are well informed and lives are saved.

    Senator DeMint. Thank you, Mr. Walsh, Dr. Levitan?

  STATEMENT OF DR. MARC L. LEVITAN, DIRECTOR, LOUISIANA STATE 
  UNIVERSITY HURRICANE CENTER/CHARLES P. SIESS, JR. ASSOCIATE 
        PROFESSOR OF CIVIL AND ENVIRONMENTAL ENGINEERING

    Dr. Levitan. Yes, good afternoon, and thank you for the 
opportunity to address the Subcommittee. I'm appearing today on 
behalf of Louisiana State University Hurricane Center, the 
American Association for Wind Engineering, American Society of 
Civil Engineers, and the Wind Hazard Reduction Coalition.
    I was invited to provide testimony on three major areas. 
The role of the engineering research community in influencing 
building codes, the increasing exposure of coastal communities 
to hurricanes, and the impact of a major hurricane on the 
petrochemical facilities.
    With regard to the role of engineering research, and 
influencing building codes, first and foremost we know that 
properly adopted and enforced building codes are very effective 
tools to reducing the hurricane damage. Studies underway and 
recently completed, even this past year from Florida, some 
conducted by my colleague Dr. Reinhold show that those building 
code changes are very effective. Also, there are some studies 
conducted by the LSU Hurricane Center that showed that in 
Florida, hurricane shelters that were built to the Florida 
Hurricane Shelter Enhanced Hurricane Protection Area Standard 
perform much better than other shelters that were not built to 
those standards. So, as an example of how engineering research 
gets into building codes and standards, let's consider the 
problem of wind-borne debris, and why is this important? 
Because wind-borne debris is one of the primary mechanisms by 
which windows and doors are broken out, and not only is it 
important to keep the windows and doors in place to keep the 
wind and debris out of the building or out of the home, but 
keeping the windows and doors in place also helps keep the roof 
on the structure by avoiding what we call the internal 
pressurization.
    Several new research studies have been conducted in the 
past 2 years on the aerodynamics and trajectories of wind-borne 
debris, some of that work at LSU, sponsored by the Louisiana 
Sea Grant College Program. This research included wind tunnel 
studies, storm damage analysis after some of these storms and 
computational studies, and all of these studies seem to show 
results that the debris accelerates faster than had been 
previously thought. So when the roof of the neighbor's house 
starts coming apart, and the two by fours and the sheets of 
plywood are starting to come off, that those accelerate and 
they pick up speed much more rapidly than previously thought.
    Now, why is that important? Because that goes to what are 
the appropriate test standards that we use for debris impact--
windows, doors and shutter systems--so that information now is 
being translated into the building codes and standards. The 
first one at the moment, we're developing a national standard 
for the design and construction of storm shelters, which 
addresses tornado shelters, hurricane shelters, shelters that 
you would put inside of a residence, as well as community 
shelters, so improving, having the better knowledge of how fast 
and far that debris will fly will help us improve the test 
standards and help improve the safety and survivability of 
those types of structures.
    On a broader scale, the American Society of Civil Engineers 
produces a national standard which is used for wind loads on 
buildings called the ASCE-7. This standard is updated every few 
years to reflect new research, as well as address lessons 
learned from previous wind storms, but one of the major 
problems with this is the lack of funding for the applied 
research necessary to take some of the work done in the 
laboratory and convert that into codes, standards and improved 
design and construction practices. With regard to the question 
of increasing the exposure of coastal communities to 
hurricanes, as the coastal populations boom and development is 
booming in the hurricane coast, particularly in the Southeast 
United States where populations are growing much faster than 
the evacuation capacity of the major transportation networks. 
So what that means is people will be required to seek shelter 
locally either in their own homes, the neighbors homes, 
businesses or local shelters, and so how do those people know? 
We have to be able to provide through building codes and other 
methods, safe places for those people to stay during the storm.
    Another important question for the emergency management 
community to answer is how do those people know if the building 
that they're in is any safer or not? During Hurricane Lilly, I 
live in Ascension Parish southeast of Baton Rouge, and 
Hurricane Lilly, the category four storm coming in, the message 
that came over the emergency broadcast system was, ``If you 
live in Ascension Parish and if you don't feel safe in your own 
home, please go to the public shelter that we opened.'' Well, 
how does the homeowner know if he should feel safe or not in 
his own home? The engineering community needs to do a better 
job and the Weather Service communities needs to refine some of 
those messages, perhaps, to give the homeowners and residents 
more information about where they may be safest to stay.
    We also desperately need to work on plans of last resort 
for when things go wrong. A couple of quick examples during 
Hurricane Isadore in 2002, rainfall flooding as the storm was 
still over Mexico, rainfall flooding choked off Interstate 10 
westbound, the single most important evacuation route out of 
New Orleans, that was 3 days before the storm made landfall. 
From Hurricane Lilly, which was approaching Louisiana 1 week 
later, the storm rapidly intensified to a Category IV storm and 
potentially it looked like it was starting to move further 
east, and at that time, during that night, we were trying to 
work with the state to develop some last resort refuge plans of 
what buildings could we use for a vertical refuge, and that's 
obviously too late to be doing that. We desperately need to 
work and there needs to become a standard part of the emergency 
planning system is what to do when things go wrong, and have a 
plan of last resort.
    The last issue is addressing the impact of a major 
hurricane on petrochemical facilities and I'm afraid that we 
don't have much in the way of answers for that, mostly 
questions. Partly the answer is, the effects on the 
petrochemical industry are going to be very uncertain, but 
generally much larger than is understood in the industry and 
engineering communities. As we know from some recent 
hurricanes, Hurricane Hugo, that devastated a major refinery in 
St. Croix, and Hurricane Georges in 1998, that devastated one 
in Mississippi, we know that hurricanes, major hurricanes do 
have the potential to significantly impact petrochemical 
facilities.
    In summary, I think we need to do a better job, 
particularly in the engineering community of working more 
closely with emergency management and meteorological 
communities in collaboration, particularly in the hurricane 
preparedness and response, which oftentimes has primarily been 
the role of the emergency management community, and second, we 
need to do a better job of taking the research from the 
laboratory and getting it out into practice, and the major 
problem and the major problems there is the lack of funding for 
the applied type research to be able to do that, and this is 
one area where the National Windstorm Hazard Reduction Program 
authorized last year would help provide some funding to be able 
to give those answers. Thank you.
    [The prepared statement of Dr. Levitan follows:]

 Prepared Statement of Dr. Marc L. Levitan, Director, Louisiana State 
 University Hurricane Center/Charles P. Siess, Jr. Associate Professor 
                 of Civil and Environmental Engineering

    Good morning and thank you for the opportunity to testify. I am Dr. 
Marc Levitan, I am the Director of the Louisiana State University 
Hurricane Center and the Charles P. Siess Professor of Civil and 
Environmental Engineering at Louisiana State University. I am also the 
elected President of the American Association for Wind Engineering and 
a member of the American Society of Civil Engineers.
    I am appearing today on behalf of the Louisiana State University 
Hurricane Center, the American Association for Wind Engineering, the 
American Society of Civil Engineers and the Wind Hazards Reduction 
Coalition.
    The Louisiana State University Hurricane Center. Louisiana State 
University is the flagship institution of the state, classified by the 
Carnegie Foundation as a Doctoral/Research-Extensive University. The 
university has a long history of research in hurricanes, coastal 
sciences and engineering. The LSU Hurricane Center was founded and 
approved by the Louisiana Board of Regents in the year 2000 to provide 
a focal point for this work, with a mission to advance the state-of-
knowledge of hurricanes and their impacts on the natural, built, and 
human environments; to stimulate interdisciplinary and collaborative 
research activities; to transfer new knowledge and technology to 
students and professionals in concerned disciplines; and to assist the 
state, the Nation, and the world in solving hurricane-related problems. 
Research efforts that have been translated into practice in support of 
emergency management agencies include: implementation of real-time 
storm surge modeling; improvements in hurricane evacuation planning and 
operations (particularly contraflow evacuations), and improvements in 
hurricane shelter analysis and design methods.
    The American Association for Wind Engineering (AAWE) was originally 
established as the Wind Engineering Research Council in 1966 to promote 
and disseminate technical information in the research community. In 
1983 the name was changed to American Association for Wind Engineering 
and incorporated as a nonprofit professional organization. The multi-
disciplinary field of wind engineering considers problems related to 
wind and associated water loads and penetrations for buildings and 
structures, societal impact of winds, hurricane and tornado risk 
assessment, cost-benefit analysis, codes and standards, dispersion of 
urban and industrial pollution, wind energy and urban aerodynamics.
    Founded in 1852, the American Society of Civil Engineers (ASCE) 
represents more than 125,000 civil engineers worldwide and is the 
Nation's oldest engineering society. ASCE members represent the 
profession most responsible for the Nation's built environment. Our 
members work in private practice, industry, government and academia. 
ASCE is an American National Standards Institute (ANSI)-approved 
standards developer and publisher of the Minimum Design Loads for 
Buildings and other Structures (ASCE-7), which is referenced in the 
Nation's major model building codes. As part of the ASCE-7 document, 
engineers are provided guidance in estimating the loads resulting from 
wind effects on structures. Thus, ASCE is at the forefront in the 
development of new information for engineers regarding wind and is in a 
unique position to comment on the status quo and our needs for the 
future.
    The Wind Hazard Reduction Coalition currently represents 23 
associations and companies which are committed to the creation of a 
National Wind Hazard Reduction Program (NWHRP) that would focus on 
significantly reducing loss of life and property damage in the years to 
come. The Coalition includes professional societies, research 
organizations, industry groups and individual companies with knowledge 
and experience in dealing with the impact of high winds.

Problems and Solutions
    All 50 states are vulnerable to the hazards of windstorms. Just 
last year, four hurricanes made landfall in Florida and caused severe 
damage. Losses from the 2004 hurricane season are estimated to exceed 
$40 billion to date and are still being counted. These storms resulted 
in 27 Federal disaster declarations covering 15 states, the Virgin 
Islands and Puerto Rico. In 1998, hurricanes, tornadoes and other wind 
related storms caused at least 186 fatalities and more than $5.5 
billion in damage. During the week of May 4-10, 2003, a record 384 
tornadoes occurred in 19 states, including Kansas, Missouri, Oklahoma 
and Tennessee resulting in 42 fatalities. On May 3, 1999, more than 70 
violent tornadoes struck from north Texas to the Northern Plains. 
Forty-one people died and more than 2,750 homes were damaged. In 1992, 
Hurricane Andrew resulted in $26.5 billion in losses and 61 fatalities, 
in 1989, Hurricane Hugo resulted in $7 billion in losses and 86 
fatalities and in 1999, Hurricane Floyd resulted in more than $6 
billion in losses and 56 deaths.
    One major effort currently underway to reduce the loss of life and 
injuries in hurricanes and tornadoes is the development of a national 
standard for storm shelters. The International Code Council (ICC) and 
National Storm Shelter Association (NSSA), with support from the 
Federal Emergency Management Agency (FEMA), are currently developing 
the ICC/NSSA Standard for the Design and Construction of Storm 
Shelters. The purpose of the standard is ``to establish minimum 
requirements to safeguard the public health, safety, and general 
welfare relative to the design, construction, installation, repair, 
operation and maintenance of storm shelters constructed for refuge from 
high winds associated with tornadoes and hurricanes.'' Scheduled to be 
completed next year, this consensus national standard has the potential 
to significantly improve shelter safety.
    In tornado-prone areas, the Storm Shelter Standard could be 
particularly helpful with regard to assuring a minimum level of 
performance for manufactured residential shelters, i.e., providing a 
basic consumer protection. The biggest immediate impact of the standard 
in hurricane-prone areas will likely be for community shelters. This is 
because the majority of buildings currently used as public hurricane 
shelters are inadequately constructed to resist an intense hurricane, 
placing the occupants at risk. This fact was demonstrated during the 
2004 hurricane season in Florida. Supported by the ICC and Louisiana 
Sea Grant--LSU Hurricane Center researchers spent time in the field 
after Hurricanes Charley and Ivan, investigating performance of 
hurricane shelters. Of the two dozen shelters surveyed, those built to 
Florida's Enhanced Hurricane Protection Area (EHPA) criteria 
outperformed shelters not built to those criteria. Damage to EHPA 
facilities was generally limited to minor water leakage. In other 
facilities, roof damage and water penetration serious enough to cause 
people to evacuate the shelter space was not uncommon.
    Publication of the standard alone will not improve shelter safety 
though; it is just the first step in the process. Unless it is adopted 
and enforced by jurisdictions having authority over building 
construction, or voluntary compliance with the standard is requested or 
agreed to by the facility owners, the standard will have little impact. 
Therefore, a significant awareness and education campaign will be 
needed. It must be addressed to architects, engineers, building 
officials, shelter owners (e.g., homeowners, school boards, city 
governments) and shelter operators (e.g., American Red Cross, emergency 
management agencies).
    One of the biggest challenges facing design of public hurricane 
shelters is that shelter operators are not the owners of the shelter 
facilities and are rarely involved in the planning and design process. 
When faced with tight budgets and many competing needs, spending 
additional construction dollars to harden the facility for use as a 
hurricane shelter is usually a low priority with the facility owner, 
even though the owner is often a public entity and tax dollars are 
funding the construction of the new school or municipal building. 
Unless able to obtain a mitigation grant from FEMA or perhaps a state 
agency, the local government or the school district generally has to 
bear the increased construction costs associated with constructing the 
facility for dual use as a shelter. This is an area where additional 
engineering research and technology transfer is crucial--improving 
cost-effectiveness of storm shelters.
    Another hurricane sheltering issue relates to getting the message 
out about who should be going to shelters and who should be advised to 
shelter in place. Emergency managers generally only order mandatory 
evacuations for areas subject to significant hurricane flooding. This 
is done in order to make sure there is sufficient transportation system 
capacity available for people in the most at-risk areas. As coastal 
population growth continues to outpace construction of new highway 
infrastructure--more and more people will not be able to evacuate and 
need to seek shelter in their own residences or other local facilities. 
The National Weather Service, National Hurricane Center and television 
media do a comparatively good job of informing the public about the 
hazards they can expect with the approaching storm, but what 
information do people have about the relative safety of their home or 
business or shelter, so that they can make an informed decision about 
where is the safest place? If they are under a voluntary or 
precautionary evacuation warning, should they leave or stay? This is an 
area where better coordination and collaboration between the 
engineering community, emergency management community, and meteorology 
community is desperately needed.
    Catastrophic hurricane planning is another area where much 
additional work and collaboration between the different professional 
communities is needed. Hurricane Georges in 1998 and Hurricane Ivan in 
2004 both had the potential to drown the city of New Orleans and much 
of the surrounding southeast Louisiana under 10-20 feet of water. 
Estimates are that only 50-60 percent of the residents evacuated for 
these storms, meaning over half a million people were at significant 
risk. Warned or not, if people have not evacuated and the water comes, 
there will be mass fatalities. Last year the Louisiana Office of 
Homeland Security and Emergency Preparedness and FEMA (and many other 
Federal and State agencies) conducted a week-long joint planning 
exercise on how to respond and recover from just such a scenario. This 
event helped produce the first catastrophic hurricane response plan, 
but it also raised more questions than it answered.
    Hurricane Lili in 2002 raised similar fears. As the Category 4 
hurricane approached the Louisiana coast on the evening of October 2, 
it appeared to begin moving farther east than had been predicted, into 
areas that had not been as well evacuated. Frantic preparations began 
to start identifying buildings to serve as refuges of last resort. 
Fortunately the storm returned to its more westerly track and rapidly 
lost strength before making landfall, and Louisiana dodged another 
bullet. This event highlighted the importance of plans of last resort--
for situations where a storm makes an unexpected turn close to shore or 
rapidly intensifies, as Hurricane Opal did in 1995 when it accelerated 
and explosively intensified overnight to unexpectedly threaten the 
Florida panhandle.
    Hurricanes also have impacts well beyond the regions where they 
make landfall. Price and availability of construction materials across 
the country are adversely affected by major storms such as Hurricane 
Andrew and the Hurricanes of 2004. Hurricane Ivan significantly 
disrupted offshore oil and gas production and transportation in the 
Gulf of Mexico, impacting energy prices nationwide. Fortunately, none 
of last years hurricanes impacted the onshore. This is another area of 
significant concern.
    A study of industry practices published in 1997 by ASCE found that 
the wind resistant design of onshore refineries and petrochemical 
plants varied tremendously due to the aerodynamic complexity of the 
types of structures involved and the lack of coverage of these types of 
structures in any building codes or standards. An unexplored aspect of 
this report is that many industrial plants do not understand how 
vulnerable their processing and storage facilities may be to extreme 
winds. Many plants specify a wind speed to which their facilities 
should be designed, but because of uncertainties in how the wind 
interacts with the complex structures, the actual wind the structure 
can resist might be much larger or smaller. In practical terms--the 
actual design strength may be more than one Saffir-Simpson Hurricane 
Category less than or greater than the intended design. In most cases 
the owners/operators of the facilities are unaware of this discrepancy, 
which is very important considering that decisions on whether to shut 
down a plant are generally based on the expected Hurricane Category at 
landfall. Additional study is needed to further define this problem, 
and cooperation with this industry and the preparedness/response 
community.
    The problems and solutions described so far are just a few examples 
of areas in which more work and closer coordination is needed between 
industry, government, and the engineering community. The United States 
currently sustains billions of dollars per year in property and 
economic loss due to windstorms. The Federal Government's focus has 
been one of response and recovery, not mitigation. While there will 
always be a need, a sustained focus on hazard mitigation can lessen the 
cost in life and property of these events.
    With the average annual damage from windstorms at more than $6 
billion, the current $5-10 million Federal investment in research to 
mitigate these impacts is inadequate. In contrast, the Federal 
Government invests over $100 million per year in reducing earthquake 
losses through the National Earthquake Hazards Reduction Program, a 
program that has lead to a significant reduction in the effects of 
earthquakes. A Federal investment in wind hazard reduction would pay 
similar or greater dividends in saved lives and decreased property 
damage.
    Near-surface winds are the most variable of all meteorological 
elements, making the prediction and control of their impacts all the 
more challenging. In the United States the mean annual wind speed is 8 
to 12 mph, but wind speeds of 50 mph occur frequently throughout the 
country, and nearly every area occasionally experiences winds of 70 mph 
or greater. In coastal areas of the East and Gulf coasts, tropical 
storms may bring wind speeds of well over 100 mph. In the middle of the 
country, wind speeds in tornadoes can be even higher.
    Unfortunately, reducing vulnerability to wind hazards is not just a 
question of developing the appropriate technical solution. Wind hazards 
are created by a variety of events with large uncertainties in the 
magnitudes and characteristics of the winds. The relevant government 
agencies and programs, as well as the construction industry are 
fragmented. Finally, implementation requires action by owners and the 
public, who may not consider hazard reduction a high priority. Solving 
wind vulnerability problems will require coordinated work in scientific 
research, technology development, education, technology transfer and 
public outreach.
    In 1993, the National Research Council (NRC) published a report 
entitled ``Wind and the Built Environment.'' The report included the 
recommendations of the Panel on the Assessment of Wind Engineering 
Issues in the United States. The panel recommended the establishment of 
a national program to reduce wind vulnerability. Such a program would 
include wind research that draws upon the expertise of both academia 
and industry and addresses both structural and nonstructural mitigation 
methods, an outreach program to educate state and local governments on 
the nature of the wind risks they face, a conscious effort to improve 
communication within the wind community and a commitment to 
international cooperation in wind-engineering.
    A 1999 NRC study concurred with that recommendation and 
specifically urged Congress to designate ``funds for a coordinated 
national wind-hazard reduction program that encourages partnerships 
between Federal, State and local governments, private industry, the 
research community, and other interested stakeholders.''
    In 2003, the Rand Corporation released a report entitled, 
``Assessing Federal Research and Development for Hazard Loss 
Reduction.'' Specific recommendations for a research and implementation 
program are contained in the report released by the American 
Association for Wind Engineering and the American Society of Civil 
Engineers entitled ``Wind Engineering Research and Outreach Plan to 
Reduce Losses Due to Wind Hazards.'' Both reports support programs 
which would encompass four focuses:

  <bullet> Understanding of Wind Hazards--developing a greater 
        understanding of severe winds, quantify wind loading on 
        buildings, structures and infrastructure and developing wind 
        hazards maps;

  <bullet> Assessing the Impact of Wind Hazards--assessing the 
        performance of buildings, structures and infrastructure under 
        severe winds, developing frameworks and tools for simulations 
        and computer modeling and developing tools for system level 
        modeling and loss assessment;

  <bullet> Reducing the Impact of Wind Hazards--developing retrofit 
        measures for existing buildings, structures and infrastructure, 
        developing innovative wind-resistant technologies for 
        buildings, structures and infrastructure and developing land 
        measures and cost effective construction practices consistent 
        with site-specific wind hazards; and

  <bullet> Enhancing Community Resilience, Education and Outreach--
        enhancing community resilience to wind hazards, effective 
        transfer to professionals of research findings and technology 
        and development of educational programs and public outreach 
        activities.

    From these reports and the efforts of a number of Senators and 
Members of Congress, as well as the Wind Hazards Reduction Caucus, the 
National Wind Storm Hazards Reduction Program was born. Created by 
Public Law 108-360, the legislation represents five years of work in 
which stake holders representing a broad cross-section of interests 
such as the research, technology transfer, design and construction, and 
financial communities; materials and systems suppliers; state, county, 
and local governments; the insurance industry, have participated in 
crafting this legislation. This bill represents a consensus of all 
those with an interest in the issue and a desire to see the benefits 
this legislation will generate.
    Among the potential research areas this program can explore are the 
numerous areas where we lack the knowledge to make informed judgments 
with respect to building siting and design. With data learned from 
research in the following areas, and others not yet foreseen, better 
knowledge and data will lead to cost-effective design and construction 
practices to mitigate the impacts of high winds.
    Boundary Layer Meteorology for Landfalling Storms--We know very 
little about the structure of the wind in a hurricane and how it 
changes as it passes over land. Research is needed to better understand 
the nature of boundary layer transitions, turbulence, rainfall, and 
decay rates as storms move inland. The design wind speed and gust 
factors used in all building codes and standards (including ASCE 7) are 
based on a set of assumptions that hurricane winds have similar 
properties to winds from other events, which we know to be untrue. This 
research can lead to significant improvements in wind-loading related 
portions of our building codes and standards.
    Rapid Damage Assessment using Remote Sensing for Improved Response 
and Recovery--The key to optimization of response and recovery 
operations is timely access to detailed information on the extent and 
intensity of damage throughout the effected areas. Very high resolution 
data can be obtained from commercial satellite-based remote sensing 
systems, which was previously unavailable except to intelligence and 
defense communities. Resolutions have improved to the point where data 
is available on individual buildings and vehicles. Development of 
computerized analysis tools that automate and map damage assessment 
estimates will significantly assist response and rescue and recovery 
operations.
    Improved Connections and Framing Systems for Light Frame 
Construction--Much of the structural damage which occurs in severe 
winds is to light frame one- and two-story construction. There has been 
relatively little improvement in wood and other light framing 
technology in the past 20 years. New cost-effective construction 
techniques could significantly reduce structural damage to low-rise 
buildings.
    Roof System Testing Procedures and Devices for Wind Resistance--No 
standardized testing procedures and devices exist to test roof cladding 
materials for resistance to extreme winds and debris. Development of 
these items is a necessary prerequisite for improved roofing 
performance (see next item).
    New Roofing Systems--Damage to roofing is perhaps the single most 
common source of wind damage. Even small failures can allow the wind 
and rain inside the building leading to significant interior and 
contents damage and possible structural failure. Development of new 
wind-resistant roofing materials and technologies could significantly 
reduce wind-induced damage.
    In-Residence Shelters for Hurricane Protection--In collaboration 
with the university research community, FEMA has conducted research and 
developed plans and guidelines for in-residence shelters for protection 
from tornadic winds. These designs provide near complete protection for 
occupants from even large tornadoes, but are too costly and overly 
conservative for use on hurricane coast. New research is needed to find 
more appropriate and cost effective solutions for construction on the 
hurricane coast.
    Dual-Use Public Hurricane and Tornado Shelters--Schools are the 
most commonly used buildings for hurricane evacuation shelters, but 
they are not structurally designed to provide a safe haven. Similarly, 
children shelter in place while in school during tornado warnings, but 
these buildings too are not designed with adequate protection. Research 
and development of design guidelines and methodologies on how best to 
construct schools and other public buildings for dual function as 
shelters from hurricanes and tornadoes is desperately needed.
    Retrofit Technologies for Wind Resistance--Although it is much 
easier to build wind resistance into new construction, the country has 
an enormous investment in existing building stock. Technologies for 
cost-effective retrofits to improve wind resistance of these buildings 
should be an important focus of any new research program.
    Congress has taken action to establish a program to mitigate the 
impact of severe windstorms. What is needed in the immediate future is 
funding for the new program. I would urge Members of the Subcommittee 
to work with your colleagues in the Appropriations Committee to ensure 
that the Windstorm Hazards Reduction Program can begin the work it was 
designed to do. For Fiscal Year 2006 the program is authorized for 
$22.5 million dollars in spending, spread over four agencies. 
Specifically, the law authorizes:

  <bullet> $8.7 million for the Federal Emergency Management Agency;
  <bullet> $3 million for the National Institute of Standards and 
        Technology at the Department of Commerce;
  <bullet> $8.7 million for the National Science Foundation; and
  <bullet> $2.1 million for the National Oceanic and Atmospheric 
        Administration.

    Once again, thank you for the opportunity to present the views of 
the many organizations I am representing here today. I would be happy 
to answer any questions that you might have.

    Senator DeMint. Thank you, Dr. Reinhold?

         STATEMENT OF TIMOTHY A. REINHOLD, Ph.D., VICE 
 PRESIDENT OF ENGINEERING, INSTITUTE FOR BUSINESS & HOME SAFETY

    Dr. Reinhold. Thank you, Mr. Chairman, Members of the 
Committee and ladies and gentlemen, it's a pleasure to be here 
and have an opportunity to discuss some of the issues that we 
share in common, relative to trying to predict and to prevent 
the disasters that we all face when some of the natural events 
that will occur and can occur, do occur. And we're clearly not 
doing a good enough job in terms of building our homes and our 
businesses to provide the resiliency within our community so 
that they can weather these storms without the kind of distress 
we've seen most recently in Florida, but we have seen it in 
most every other state when these major events occur.
    What we're seeing in the most recent events is very clearly 
that moving to a better building code is making a huge 
difference in the way people can pick up the pieces and move on 
after the storms. We've done a very good job in terms of 
improving the structural resistance of our buildings, but we've 
still got some serious problems in terms of water penetration 
and the other issues that come in when water gets in the house. 
When you have ceilings collapsing, people say it's great that 
you've helped me keep my house together, it would be really 
nice if I could live in it after the storm goes through, so 
we've got some disconnects there, we're making progress, but 
we've got some other issues that we really need to deal with. 
The insurance industry has certainly been a partner in this in 
trying to help move things forward, and there are several 
initiatives that we're involved in that I think will help along 
this. And it's based--the insurance industry provides a lot of 
that spreading of the risk and providing the resources to help 
communities and individuals rebuild after storms. In the 
previous year we had 1.7 million claims in the State of 
Florida, one in five homeowners had a claim in the State of 
Florida, and a total of $20 billion worth of insured losses, 
something that rivals Hurricane Andrew, and yet the insurance 
industry came through it in better shape in terms of being able 
to respond. We didn't have companies going bankrupt like we did 
after Hurricane Andrew, we did not have people not being able 
to respond in quite the same way, I think there was one company 
that got into trouble or went bankrupt as a result of the 
storms this last year, and most have been able to respond in a 
fairly timely fashion in closing files and reacting with the 
population. With that number of files, it certainly took a long 
time, and people are still recovering and having a difficult 
time finding contractors. There are people still in Port 
Charlotte, Punta Gordo area that are facing a year wait to get 
a contractor to be able to come in and rebuild their home. Next 
to them would be other homes and businesses built to the latest 
building codes that as soon as power was restored, they were up 
and running, and life was almost back to normal. And so as you 
walk through the areas, you were able to see that difference.
    One of the things that we did do this last year, is we 
hosted a group from Louisiana, including the Insurance 
Commission and others to come into the State of Florida and 
showed them firsthand the performance and the benefits of 
having strong building codes. There are so many states right 
now in so many communities that don't have any building code, 
or have adopted a weakened version of our model building codes 
that put the residents at risk when these kind of events occur, 
and so consequently, one of our big initiatives and interests 
is in trying to incentivize the state to go to statewide 
building codes and to do adequate enforcement and adoption, 
because it is much cheaper to make that change in the new 
construction and to build it in to start with, rather than to 
come back and do it as a retrofit afterwards. A lot of my 
career at Clemson University over the last few years was spent 
in trying to develop practical ways of retrofitting homes, and 
I know how expensive and how difficult it can be to try to do 
that. So there's a challenge in trying to come up with these 
practical ways, there's research that is needed, there are ways 
that we need to make progress in terms of helping people make 
good decisions about, given the state of your house and the 
status of that, what are the most economical and most 
beneficial things you can do to improve your home and bring it 
up closer to your neighbors that have a new home built to the 
latest codes. I think one of the most interesting things for me 
in going around after the storms last year, was actually seeing 
how well some of the new manufactured housing units fared in 
the storms. In 1994 after Hurricane Andrew when a number of us 
who were involved in investigating the damage after Hurricane 
Andrew said, if you keep building manufactured housing the way 
you're building it today, in a storm like Andrew, you have got 
to consider it expendable, it's going to be gone. And we saw 
that widespread in Punta Gorda, Port Charlotte, where Hurricane 
Charlie hit and where the winds were higher than any storm 
since Andrew to hit the United States, we found manufactured 
homes built to the latest standards that were adopted after 
1994 that were basically unscathed, or structurally quite 
sound. Some of them were beat up by the debris flying off of 
other homes around them, but overall, it was very clear that 
the codes were making a major, major difference there. And so 
we're interested in the Federal Government helping to 
incentivize the process of trying to get building codes adopted 
broadly across the country, we think there are opportunities in 
terms of providing incentives for people when they're buying a 
home and taking out loans to do mitigation measures then when 
there is possibly more dollars available than you can put on 
the table by rolling things into your mortgage and so forth, 
maybe Fannie Mae and others can help with some of that process.
    [The prepared statement of Dr. Reinhold follows:]

  Prepared Statement of Timothy A. Reinhold, Ph.D., Vice President of 
           Engineering, Institute for Business & Home Safety

    Chairman DeMint and Members of the Subcommittee, my name is Tim 
Reinhold, and I am the Vice President of Engineering for the Institute 
for Business & Home Safety (IBHS), which is a nonprofit initiative of 
the U.S. property and casualty insurance industry with a mission to 
reduce deaths, injuries, property damage, economic losses and human 
suffering caused by natural disasters. We are an organization dedicated 
to natural hazard loss reduction, and very much involved in windstorm 
impact reduction in our related efforts in:

  <bullet> Research
  <bullet> Communications
  <bullet> Outreach
  <bullet> Building code development and adoption
  <bullet> Data collection and analysis
  <bullet> Promotion of incentives for mitigation and disaster 
        resistant construction

    It is clear that this Committee and IBHS have significant areas of 
common interest. Over the past decades, we have seen dramatic drops in 
the loss of life in hurricanes due to better warning and evacuation. 
However, we have also seen dramatic increases in property losses as our 
Nation concentrates more and more of its population and wealth along 
our vulnerable coastlines. With this rapid growth in population, we are 
certainly not immune to a large loss of life in a future event. Many 
experts are concerned that a fast developing and fast moving storm 
could produce a large loss of life among people trapped in traffic jams 
associated with attempts to evacuate too many people in too short a 
time. To counter this risk and the dramatic increases in property 
losses, we desperately need to build stronger and safer homes and 
businesses so that coastal inhabitants who are not in vulnerable 
structures or in inundation areas will not need to evacuate and so that 
the resiliency of our communities is dramatically improved. Ultimately, 
we are not likely to be able to provide enough evacuation capacity and 
warning time to handle the demands, if population growth continues 
unabated, and many would argue that we have already passed the point 
where mass evacuation is viable in a large number of vulnerable areas.
    The Committee has asked me to focus my testimony on the role of the 
insurance industry in reducing the exposure of individuals and 
businesses to the impact of windstorms, IBHS's work to promote disaster 
resistant technologies, any barriers to the adoption of these 
technologies, and a discussion and presentation of any cost-benefit 
analysis of disaster resistant technologies.

The Role of the Insurance Industry
    First and foremost, the insurance industry provides the primary 
mechanism for sharing risk and accumulating resources needed to help 
individuals and businesses recover from the impact of windstorms. It is 
clear from the experience of the 2004 hurricane season that the 
insurance industry has come a long way since the upheavals caused by 
Hurricane Andrew in 1992. In the aftermath of Andrew, a number of 
companies or at least their Florida subsidiaries were rendered 
insolvent and several companies were bankrupt. In 2004, despite the 
fact that one in five Floridians filed a claim (three times the number 
of claims filed after Hurricane Andrew) and total claims exceeding $20 
billion (about the same insured losses as Hurricane Andrew, in 2004 
dollars), only one company went bankrupt. A significant reason for this 
improved performance is related to the better understanding of all of 
the issues surrounding responding to major and widespread windstorm 
impacts, to better preparation of catastrophe teams, and to better 
modeling of the risks.
    The improved modeling offers exciting possibilities for support of 
windstorm mitigation efforts. This modeling is occurring within the 
Federal sector, through FEMA's HAZUS-MH, and within the private sector, 
through efforts of various modeling companies that provide services to 
the insurance and reinsurance companies. A major focus of the modeling 
efforts in both the Federal and private sectors has been on predicting 
damage and losses for large portfolios of property and infrastructure. 
This helps emergency managers plan and organize response efforts, 
secure needed supplies and stage resources. It helps insurers in 
quantifying their risks to help them make better business decisions. 
The loss estimates produced by these catastrophe models are also used 
by insurers to help them set reserves, determine the need for 
reinsurance and provide input for setting appropriate premiums. Real 
time analyses also help insurers plan and stage their resources to 
facilitate rapid response through adjusting and settling claims in the 
days and weeks following a major windstorm disaster.
    The laws of large numbers have made the applications listed above a 
somewhat easier task than the prediction of the performance of an 
individual structure and the associated benefits of a specific 
mitigation measure. Nevertheless, the modelers are tackling the 
individual property and mitigation issue and making progress in their 
predictive capabilities for these cases. Insurers are using the results 
of these models along with available post-storm evaluations to 
negotiate rates and incentives for mitigation measures in Florida 
policies.
    In 2000, the Florida Windstorm Underwriting Association (now known 
as Citizens Property Insurance) increased their rates dramatically 
(200-300 percent) as they introduced a class plan whereby buildings 
insured through the wind pool could be inspected for wind resistant 
features and thereby qualify for mitigation related discounts. Under 
this plan, homes can qualify for up to a 70 percent discount if they 
contain all the mitigation features considered by the program. This 
case clearly shows the kind of dynamics at work in this process. As 
risks are better defined, more vulnerable properties receive less 
favorable treatment and less vulnerable properties receive more 
favorable treatment.
    Insurance policies issued in Florida currently consider mitigation 
features as a factor in the rating of a home for insurance. With the 
implementation of the latest version of the Florida Building Code in 
2002, all insurers in the state were required to recognize the 
hurricane resistive features of the codes in future rate filings in the 
state. The result is lower insurance premiums for homes that are built 
in accordance with this stronger new building code as compared to older 
more vulnerable homes. The wind resistive features that insurers are 
required to give credit for include: opening protection (storm 
shutters), roof to wall connections, roof deck connections and roof 
covering type.
    In addition to Florida, the Texas Department of Insurance mandates 
insurance discounts for homeowners that have impact resistant roofing 
products installed on their homes in this hail prone state. In the 
Dallas, TX, area, consumers can see as much as a 25-30 percent decrease 
in their premiums for using these products on their roofs.
    Note that because of the regulated nature of rates in nearly all 
states, this is a process that is negotiated between individual 
companies and the regulators.
    It must be emphasized that insurance related incentives are only 
one of the ways to promote better construction and mitigation of 
existing buildings. In general, it is hard to motivate homeowners to 
spend thousands of dollars on upgrades or retrofits to save hundreds of 
dollars a year on insurance. Where I used to live in Clemson, South 
Carolina, a reduction of my entire insurance premium would not have 
been enough financial incentive for me to retrofit my house. When I re-
roofed my house in Clemson, I did strengthen my roof, but I did it for 
reasons other than a cold fiscally based benefit-cost calculation.
    To be effective, incentives need to go beyond those offered by or 
required of the insurance industry. Buildings that survive windstorms 
unscathed are a benefit to their communities. People can stay in their 
homes, businesses can remain open and people can continue to go about 
their lives with minimal disruption. These people are also likely to 
not be victims, and will not require any government assistance to 
recover from a disaster since their impact would be minimized.
    Because of the far reaching effects of mitigation, IBHS believes 
that incentives for windstorm mitigation need to go beyond just 
insurance and include things like tax breaks, mortgage rate or fee 
incentives, and incentives from businesses within the community. We 
need to adequately recognize the role that wind resistant construction 
of homes and businesses play to keep the community alive and well 
throughout these events. If homes are destroyed, then workers will not 
be able to come to work and if businesses are destroyed, then workers 
will not have employment to go to. The interconnections run deep and it 
is critical that we address strengthening of all elements of the fabric 
of our communities. Fully one quarter of small businesses that close 
following a disaster do not reopen. Some communities such as Homestead, 
Florida, are just now recovering from Hurricane Andrew.

IBHS Works to Promote Windstorm Disaster Resistance
    The majority of IBHS activities relating to windstorm impact 
reduction involve applying research and development that has been 
conducted by universities, Federal agencies and construction industry 
related trade associations. The goal of these activities is to 
understand, communicate and implement the latest knowledge on windstorm 
mitigation into the work of the organization. These activities include:

  <bullet> Maintaining a series of consumer focused guides and 
        brochures that relate to a wide range of natural disasters 
        including windstorms.

  <bullet> Maintaining a website with publicly available information on 
        natural disaster mitigation, including windstorm damage 
        mitigation.

  <bullet> Developing two interactive web-based programs to help home 
        and business owners develop customized pre-disaster mitigation 
        plans and post-disaster recovery plans, as well as identify 
        home structural improvements.

  <bullet> Serve as a technical resource for our member insurance 
        companies to help them better understand technical aspects of 
        windstorm mitigation.

  <bullet> Support the improvement of building codes with regard to 
        natural disaster damage mitigation on behalf of our member 
        insurance companies.

  <bullet> Support the adoption of the latest model building codes at 
        the state level and working to ensure that they are not 
        weakened by local amendments.

  <bullet> Participate in the development of the ASCE 7 wind provisions 
        that are the basis for wind loads in the current model building 
        codes.

  <bullet> Establish statewide coalitions for natural hazard loss 
        reduction that incorporates land use planning emphasis in 
        mitigation activities among multiple state and local government 
        agencies.

    Over the past few years, IBHS has worked with a number of 
universities including Clemson University, the University of Florida, 
Florida International University, Texas Tech University, Louisiana 
State University, and Colorado State University to stay abreast of 
current research and information. Similarly, IBHS works with FEMA on 
flood and wind related retrofit issues as well as the Department of 
Energy through Oak Ridge National Labs as a part of the Roofing 
Industry Committee on Weather Issues (RICOWI). IBHS also has working 
relationships with several construction and testing related trade 
associations including APA, the Engineered Wood Association, the 
National Roofing Contractors Association, and Underwriters 
Laboratories.
    IBHS is a strong and consistent advocate of the adoption and 
enforcement of national model building codes and standards. We work 
with our member companies, emergency managers, building officials, 
civic leaders and code officials to build coalitions that will endorse 
and support the adoption of statewide building codes. We understand the 
power and effectiveness of a strong well enforced building code to 
protect homes and businesses. We seek to establish incentives for 
states and communities to adopt the latest model building codes, 
without local amendments that would weaken the disaster mitigation 
measures. The Federal Government can help incentivize the statewide 
building code adoption process by increasing pre- and post-disaster 
mitigation funds for those states that do adopt up-to-date model 
building codes and promote adequate enforcement of these codes.
    However, we also understand that the building code is the minimum 
capacity required (the poorest quality home you can legally build) and 
we are actively promoting code + construction through our Fortified . . 
. for safer living<SUP>'</SUP> new construction program. This program 
is small but growing. We recently entered into agreements for a 
development of 600 to 800 homes in the panhandle of Florida, and 
another development of approximately 60 homes in the Myrtle Beach, 
South Carolina area where every home will be a Fortified . . . for 
safer living<SUP>'</SUP> home. One of our member companies is planning 
to file a rate reduction for the Fortified homes in South Carolina.
    During the 2004 hurricane season, IBHS provided technical support 
to Clemson University, the University of Florida and Florida 
International University in the deployment of instruments to measure 
wind speeds and wind pressures on houses. This data has provided much 
needed surface measurements of wind speeds in areas impacted by the 
storms. We have actively sought to bring this information and the wind 
field analyses of NOAA and HAZUS-MH related wind field modeling to the 
attention of the public so that they better understand the magnitude of 
the wind event they likely experienced. We continually encounter a 
public that is convinced that they experienced the peak wind of the 
storm at their business or home location, while data and modeling would 
suggest substantially lower winds. This understanding of the event is a 
critical factor that can help property owners make judicious decisions 
about future mitigation activities.
    In the aftermath of the hurricanes of 2004, IBHS participated in 
FEMA Mitigation Assessment Teams and is helping to prepare reports on 
Hurricanes Charley and Ivan. IBHS also worked with the University of 
Florida on a Florida Department of Community Affairs (Florida DCA) 
funded project to conduct a stratified statistical sample based study 
of the relative performance of buildings built under the 2001 Florida 
Building Code versus ones built under the Standard Building Code 
between 1994 and the adoption of the 2001 Florida Building Code. IBHS 
is analyzing building permits for reconstruction in Charlotte County, 
Florida following Hurricane Charley to assess the relative performance 
and reconstruction costs of buildings built in different eras and to 
different standards. IBHS has also been awarded funding from the 
Florida DCA to develop a web-based interactive retrofit guide for 
homeowners. We are working with builders, state and national experts to 
develop that tool.
    In addition to the applied research related activities above, IBHS 
does occasionally get involved in performing and funding of research. 
One such case involved IBHS providing match funding to Clemson 
University to conduct full scale, destructive testing of houses in 
Horry County, SC. This project involved testing actual homes before and 
after hurricane retrofits were applied to determine how much strength 
was being added to the structure using various retrofit techniques. The 
houses were made available because they were bought out by FEMA 
following flooding during Hurricane Floyd. Primary funding was provided 
by the South Carolina Department of Insurance. IBHS is currently 
funding research being conducted jointly with a Florida home builder to 
investigate ways to retrofit soffit materials that suffered widespread 
failures during the hurricanes of 2004.
    IBHS also works with other partners from time to time to fund 
research studies that estimate the savings provided through the 
implementation of new and stronger building codes in coastal 
environments. Three such reports have been prepared over the past four 
years by Applied Research Associates in Raleigh, NC, for analysis of 
the impacts of new codes along the North Carolina, South Carolina and 
Texas coastlines. These reports point to the dramatic savings over time 
that can be achieved through the use of stronger building codes.
    The results of this research are used to help validate and refine 
the mitigation messages that we use at IBHS. We understand how 
expensive it can be to properly retrofit an existing home, and seek to 
create a demand for disaster resistance in new construction that will 
exceed the desire for carpet and appliance upgrades.
    IBHS works with Federal, State and local governments a couple of 
different ways to support windstorm impact reduction. The first is 
through the distribution of our consumer related materials through 
state and local governments. Oftentimes, this is accomplished through 
providing materials to local grassroots style organizations to help get 
the work out locally. Two notable partners include South Carolina Sea 
Grant and North Carolina Sea Grant. The second way is participating in 
the building code adoption process on the state level. Over the past 
few years, IBHS has taken an active role in wind prone states including 
North Carolina, South Carolina, Texas, Florida, Louisiana and New York. 
Following the hurricanes of 2004, FEMA and member companies distributed 
large numbers of IBHS pamphlets that provided guidance on the claims 
process. Members indicated that information calls to their catastrophe 
call-in centers dropped after the guides were distributed.

Barriers to Adoption of Windstorm Resistance
    The main obstacles to widespread implementation of windstorm 
mitigation techniques in new and existing structures relate directly to 
issues of complacency, education, research and cost. Throughout the 
country, homeowners are, in general, complacent about their exposure to 
extreme windstorms or believe that there is little that can be done to 
provide protection from the most intense storms where people frequently 
are killed or injured. People who live in central Florida have 
typically said that the real risk is in South Florida, or the 
Panhandle. Likewise, builders and legislators who live and work in the 
Florida Panhandle think that they are protected by a shelf of cooler 
water off their coast and that the real risk in the Keys or in the 
Carolinas. A major problem is that the typical return periods between 
major storms is such that people do not think it will happen to them.
    Because of this low perception of threat from windstorms, consumers 
are less likely to spend the money required to make their homes more 
resistant to windstorms--especially when they can spend their money on 
upgrades they can enjoy everyday like granite counter tops and hardwood 
floors. The competition to spend extra money rarely ends with the 
mitigation winning out.
    The lack of data and research on the benefits of mitigation and 
strong codes also poses a barrier to the implementation of mitigation 
measures. The data that insurers collect as a part of the claims 
process following a major wind event relates mainly to documenting the 
damage that the policyholder needs compensation for and making sure the 
insured is compensated according to the policy coverage in a timely 
manner. The role of the insurance adjuster in such a scenario is to 
document, estimate and pay or arrange for payment of covered expenses. 
Typically there are extreme time constraints placed on the adjustors 
and the companies they represent to review properties and act on claims 
in a short time frame. Given these responsibilities, it becomes too 
onerous (particularly in a catastrophe when large amounts of disaster 
victims need to begin their recovery) to expect that the adjuster would 
be able to determine and document the actual causes of loss and 
identify mitigation measures that could have prevented or reduced the 
damage. Because of this, insurance data alone provides little insight 
into the impact that wind mitigation can have on total losses.
    In order to produce meaningful data to assess the effect of 
windstorm mitigation activities, several things need to be known. 
First, the actual wind speed that the building was exposed to needs to 
be known. Then, details as to what parts of the building failed due to 
excessive wind force need to be documented and most probable causes of 
initiation of failure need to be identified. By comparing the wind 
speed with a careful study of the failures, researchers can begin to 
make credible quantifications of the potential benefits of windstorm 
mitigation.
    Unfortunately, many of the NOAA Automatic Surface Observing Systems 
(ASOS) lose power and stop recording or reporting wind speed data 
during severe wind storms. There is a clear national need to harden 
these systems and provide backup power so that NOAA and all those 
affected by these storms have better data on surface winds in various 
areas impacted by the storms. In the interim, to get better data on 
surface winds, IBHS works closely with hurricane researchers from a 
number of universities. As mentioned earlier, teams from Clemson 
University, the University of Florida, Texas Tech University and 
Florida International University have for several years now deployed 
mobile wind data acquisition towers in front of land-falling hurricanes 
to provide ``ground truth'' data on wind speeds so that these speeds 
can be correlated with building damage. Hurricane Isabel in 2003 was 
the first time that these mobile towers were equipped with cellular 
modems that allowed for uploading of wind speed data in real time to 
the Internet. This information was relayed to NOAA and provided them 
with real time ground truth data. These systems were active in all of 
the 2004 hurricanes. For 2005, NOAA is making access to the GOES 
satellite available for these instruments so that data can be reported 
in a more reliable manner and better integrated into NOAA's analyses.
    Post storm analyses have also been alluded to earlier in this 
testimony. IBHS is working with builders, state building officials, 
building departments, university researchers, and property appraisers 
to accumulate data from a wide variety of sources and to seek insights 
into the merits of stronger building codes and mitigation efforts. This 
work is ongoing.
    A number of barriers to building stronger and safer also relate to 
the adoption and enforcement of building codes and standards. First, a 
large number of local communities throughout the Nation have not 
adopted any building codes and standards for residential construction. 
Second, a large majority of local communities have not adopted the 
latest model building codes without any local amendments that weaken 
the model provisions. Third, while there is more widespread adoption of 
model building codes and standards for commercial properties, there are 
again many local jurisdictions where code adoption is non-existent or 
woefully out of date. Uniform and strong enforcement is another key 
issue, even in local communities that have adopted the latest 
standards. This lack of uniformity in the baseline for construction of 
homes and businesses means that the performance of buildings is less 
predictable and the levels of risk vary dramatically from jurisdiction 
to jurisdiction. We find that responsible builders have difficulties 
competing in areas where there are no building codes, which leads to 
building to the lowest denominator. Furthermore, we see national 
builders building differently in areas with identical design wind 
speeds, simply because the local code adopted in a particular area does 
not require the same level of construction as the national model code 
being enforced in the other area. All too often, the local building 
code is treated as the maximum rather than the minimum.
    While issues of states' rights and local authority generally keep 
Federal agencies from trying to mandate building codes except for 
Federal buildings, there are opportunities for the Federal Government 
to initiate a number of incentives that would encourage states to adopt 
and enforce statewide building codes without local amendments that 
weaken the minimum requirements. FEMA could use the adoption and 
enforcement of statewide building codes as criteria for providing 
additional pre- and post-disaster mitigation funds to states. Federal 
mortgage agencies could provide lower interest rates or lower fees for 
mortgages on properties built to the latest building codes and 
standards.
    Finally, many of the test and evaluation methods available for 
assessing the windstorm performance and durability of materials, 
components and systems fall short in reproducing the true nature of the 
loads and effects of severe windstorms and/or the effects of 
environmental factors on aging and associated degradation of windstorm 
resistance. Federal agencies can play an important role in funding 
research and developing facilities that will allow the more realistic 
simulation of windstorm loads and effects and in the development of 
tools and facilities for assessing the effects of aging. Some efforts 
along these lines have been supported through the Partnership for 
Advancing Technology in Housing (PATH) through research and grants 
initiated by the National Institute for Standards and Technology and 
the National Science Foundation. Much more work is needed. One IBHS 
member company recently donated $400,000 to Florida International 
University to create a new windstorm simulation facility capable of 
testing actual building components and systems in a realistic wind and 
wind-driven rain environment. IBHS staff are assisting with the 
development of this facility.

Benefit-Cost Analyses of Disaster Resistant Technologies
    As indicated earlier in this testimony, IBHS with partners has 
funded several benefit-cost studies for specific building code adoption 
issues in Florida, North Carolina and Texas. These studies have clearly 
demonstrated the positive benefit-cost ratios of the particular 
provisions under consideration. We are aware of a study conducted by 
Texas A&M that evaluated the benefit-cost ratios for specific 
individual provisions, combinations of provisions and the entire code 
that related to the proposed adoption of a Texas Department of 
Insurance Wind Resistant Construction Code. The analysis showed that 
the benefit-cost ratios for various individual provisions varied 
significantly depending on home size and wind climate but that the 
benefit-cost ratios tended to increase and stabilize as the suite of 
provisions became more complete in addressing the most common sources 
of losses. For individual provisions, the benefit-cost ratios ranged 
from less than 1.0 to as high as 60 depending on the building size and 
windstorm intensity. For adoption of the entire code, the benefit-cost 
ratios were typically in the range of 4 to 7, meaning for every 
additional dollar spent on increased construction costs, losses were 
reduced by 4 to 7 dollars over the expected life of the property.
    FEMA has funded an independent national benefit-cost study of its 
mitigation expenditures. This study was contracted to the Multi-hazard 
Mitigation Council (MMC) of the National Institute for Building 
Sciences (NIBS). The MMC hired the Applied Technology Council (ATC) to 
conduct the independent study and the ATC report is in the final review 
stages within the MMC. I represent IBHS on the MMC and have been 
involved in the review of the ATC report. While the report is still 
going through the final review stages and I cannot be precise in the 
numbers that will be finally reported, I can say that my assessment is 
that with one exception, the study is conservative in its assumptions 
and still shows a positive benefit-cost ratio for both the Nation as a 
whole and for the Federal Treasury. The one potentially non-
conservative aspect is the assessment of the number of deaths avoided 
by tornado shelters constructed with partial funding from mitigation 
grants. However, even if the number of deaths avoided is reduced by an 
order of magnitude, the benefit-cost ratio for the wind related 
mitigation measures is still positive. With this reduction in deaths 
avoided, we expect that the conservative benefit-cost ratio for all the 
FEMA funded mitigation measures will be on the order of 3, both for the 
Nation as a whole and directly for the Federal Treasury.
    The types of modeling tools needed to conduct benefit-cost studies 
in the area of windstorm mitigation have been improving in recent 
years. With the data that is being gleaned from the hurricanes of 2004, 
there should be significant new opportunities to calibrate and validate 
these models. The time is ripe for a major effort to conduct benefit-
cost studies to assess the value of adopting and enforcing model 
building codes and standards, and for building to code + levels of 
protection from natural and man made hazards.

Summary
    Windstorms and other natural disasters happen every year in the 
United States, and impact thousands of homeowners and businesses. Yet 
we do know how to build homes and commercial structures so that impacts 
from natural disasters are significantly reduced. Ongoing research 
teaches us more every year, and ongoing communication and education to 
the public has the potential to reduce losses every year. All of the 
stakeholders can contribute to the creation of a climate where hazard 
resistant construction is valued and demanded and where a myriad of 
incentives are offered that will encourage local communities and states 
to build hazard resistant communities that become known for their 
resiliency in the face of severe windstorms or other natural and 
manmade hazards.
    There are clear opportunities for the Federal Government to support 
research and the removal of barriers to the development of hazard 
resistant construction. We believe that a good way would be to create 
incentives for states to adopt and enforce statewide model building 
codes and standards. NOAA and other agency support for wind field 
analyses that better communicate expected winds across regions impacted 
by severe windstorms will help with public communication of risks and 
experience. We are also interested in partnering with Federal agencies 
to conduct benefit-cost studies for building codes and natural hazard 
mitigation measures. Appropriation of new funds in FY06 and beyond to 
support the National Windstorm Hazard Reduction Program, that was 
authorized as part of the National Earthquake Hazard Reduction Program, 
will further the IBHS goal of making communities safer from coast to 
coast.

    Senator DeMint. Your credibility just went up a good bit 
when I found you'd been at Clemson.
    [Laughter.]
    Senator DeMint. Mr. Ahlberg?

 STATEMENT OF DOUG AHLBERG, DIRECTOR, LINCOLN-LANCASTER COUNTY 
                      EMERGENCY MANAGEMENT

    Mr. Ahlberg. Thanks very much. First of all, it's an honor 
and a privilege to be invited to testify to you this afternoon. 
I am a Director of Emergency Management for Lincoln-Lancaster 
County in Nebraska. As you may or may not know, on the 22nd of 
May of last year, southern Lancaster County as well as five 
other counties in Southeastern Nebraska fell victim to a 
tornado that was on the ground for 54 miles. At its widest 
point it was two and a half miles wide, and on the Fujita Scale 
it had an F rating of four. Because of the forecasting and this 
information that was provided to us by the National Weather 
Service out at Valley, we lost one person, and had 37 injuries 
that basically did not require an overnight stay at the 
hospital, so we were extremely fortunate. Without those 
forecasts, I think that the numbers would have been 
considerably higher as a direct result of the storm.
    Now, Lincoln and Lancaster and a county called Saline and 
Gage are the only three counties in the State of Nebraska that 
have been certified by the National Weather Service as being 
storm-ready. This is kind of an accreditation of our abilities 
to report and to provide for advanced warning in the approach 
of severe weather. Last spring, the National Weather Service 
initiated out of Valley a conference call system where if they 
are predicting severe weather for the Southeastern portion of 
the State of Nebraska, all emergency managers and local 
broadcasters are provided an opportunity to participate in that 
conference call.
    Now, just a couple of weeks ago we had a conference call 
with the anticipation of severe weather, and that was during 
the NCAA baseball regional that was held in Lincoln, so it was 
with quite a bit of interest that I participated in that 
particular telephone call. We had well over 6,500 people that 
were in attendance at one ball field at that particular time. 
Ten minutes after the first pitch of the evening game, the 
National Weather Service put Lincoln and Lancaster County in a 
tornado warning. With the advanced information that we had we 
were able to have the necessary precautions in place to allow 
for the events that did follow after that announcement was 
made. But that brings me to one of the concerns that I have and 
the consideration I would like for NOAA to look at, and that is 
a warning was issued, we were begging and pleading with people 
to leave their seats to take shelter because of the warning 
that was issued, and the response that we got was, ``Well, 
we've had five or six already, and nothing's occurred, so we'll 
just stay here in our seats and see what happens.'' I really 
would have liked to see, it isn't going to cost anybody a dime 
to look at a third tier of warnings to be established, 
especially when you talk about severe weather, it's kind of 
like your timer, it's green, yellow, red, it doesn't go from 
green to red, there's this little intermediate step that's in 
the middle, and that would allow people an opportunity to know 
that there is a tornado vortex that is present in Doppler 
radar, and to add significance to the word ``warning,'' and 
that would be that a storm has been confirmed in one form or 
another. Right now, people listen to a warning and we issue 
five or six and nothing occurs, they really don't pay any 
attention to it. They should, and I think everybody knows that 
we should, but I think we have a tendency to become rather 
apathetic after awhile, especially when you're confronted with 
it almost on a daily basis during the months of April, May and 
June, especially in Nebraska.
    Now, several years ago, and this is my second concern, the 
National Weather Service combined in the Lincoln and Omaha 
region, as far as providing weather service to a particular 
part of our state. The National Weather Service out of Valley 
covers 30 counties in Nebraska and 9 in Western Iowa, that runs 
from the South Dakota/Nebraska border on the north, to the 
Kansas border on the south, and I think that oftentimes bigger 
is not better. As far as consolidation is concerned, the 
technological advances that you have seen over the past few 
years, the total number of improvements that you've seen in 
forecasting still relies on those forecasters that are sitting 
there making those predictions and providing us with those 
forecasts. Now, Lancaster County alone is 864 square miles, and 
we have a population of around 246,000. Omaha, the largest city 
in the State of Nebraska, is also included in the service area 
provided by Valley.
    Now Lincoln and Lancaster County is 55 miles away from the 
National Weather Service radar site in Valley. Again, bigger 
isn't necessarily better, and I would hate to see additional 
forms of consolidation of the radar services, and what National 
Weather Radar Sites we presently have across the whole country.
    Now, since September 11, 2001, Homeland Security has 
invested millions of dollars to deter terrorism, and for that, 
we in Nebraska are very thankful. However, does Mother Nature 
fit the definition of a terrorist? I think so, and I think that 
moneys can be wisely spend to improve NOAA's capabilities to 
provide for the safety of those folks that live in those 
coverage areas. Thank you.
    [The prepared statement of Mr. Ahlberg follows:]

Prepared Statement of Doug Ahlberg, Director, Lincoln/Lancaster County 
                          Emergency Management

    I have come here today to discuss two topics which are important to 
those of us who live in the Midwest and both topics are related to 
severe weather. The first topic I will discuss is our severe weather 
warning system and the second topic concerns our weather forecasters.
    On May 22, 2004, southern Lancaster County, along with 5 other 
counties, fell victim to a tornado that was on the ground for 54 miles, 
had a damage path at its widest point of 2\1/2\ miles, and an F4 rating 
on the Fujita scale. One death was reported and a total of 37 injuries 
were reported as this storm decimated the Village of Hallam.
    The National Weather Service in Valley, Nebraska, along with local 
broadcasters, provided the citizens of southern Lancaster County and 
surrounding counties with a minute by minute forecast of the tornado's 
path and projected future movements. Without these warnings, there is 
no doubt in my mind that the number of deaths and/or injuries would 
have been much greater.
    Lancaster, Saline and Gage Counties were affected by this 
particular storm and are the only 3 counties in the State of Nebraska, 
on May 22, 2004, to have been certified by NOAA as ``Storm Ready'' 
counties. Since last spring the Weather Service in Valley has initiated 
a conference call program for all Emergency Managers and media 
representatives in their coverage area. The purpose of this conference 
call is to provide information about the possibility of severe weather 
on any given date. During a recent NCAA regional baseball tournament in 
Lincoln (where over 4500 people were seated), this advance information 
was extremely helpful in preparing for the possibility of tornadic 
activity in the area of Lincoln. Within 10 minutes of the first pitch 
of the evening game, Lincoln and Lancaster County were placed in a 
tornado ``warning''. Advance precautionary information provided to us 
allowed for a timely response to this ``warning''.
    One suggestion I would like to make with regard to watches and 
warnings is to provide for three (3) phases of weather warnings rather 
than the two (2) which are currently being used. An example of a three-
tiered system would be a tornado ``watch'', tornado ``alert'', and a 
tornado ``warning''. Currently, a ``watch'' and a ``warning'' are used. 
The addition of the ``alert'' would indicate a radar image of a tornado 
vortex signature. Then a tornado ``warning'' would be issued when a 
tornado is confirmed. This would be very similar to a signal light with 
the green, yellow and red. I feel that often when a ``warning'' is 
issued and nothing happens, the general public begins to question the 
validity of the ``warning''. Adding the additional ``alert'' advisory 
would allow for the seriousness of the ``warning'' to have significant 
impact.
    Several years ago Lincoln and Omaha's weather services were 
combined and placed in Valley, Nebraska. All Emergency Managers would 
like to have a weather service in their own backyard and we all 
understand that is not practical. However, the service area for each 
weather service site has been increased dramatically. The service area 
for the Valley Weather Service consists of 30 counties in eastern 
Nebraska and 8 counties in western Iowa. This service area extends from 
the Nebraska/South Dakota boundary on the north to the Nebraska/Kansas 
boundary on the south. With the consolidation of facilities and the 
increase of service area size, an additional burden has been placed on 
those forecasters tasked with warning over half of the State of 
Nebraska's total population.
    Lancaster County alone consists of 864 square miles that had become 
extremely urbanized, with a large portion of the population moving into 
a rural-type setting. With a population of over 246,000, Lancaster 
County is over 55 miles from our weather service provider in Valley, 
Nebraska. Sometimes bigger is better, but not necessarily when dealing 
with public safety issues. Consolidation of facilities, when dealing 
with weather issues, is not the solution that provides the best service 
for those living in areas affected by severe weather.
    Since September 11, 2001, Homeland Security has invested millions 
of dollars to prevent acts of terrorism. Does ``Mother Nature'' meet 
the definition of a terrorist? I think so.
    In conclusion, I have come here today to ask that you consider two 
issues. The first one is that you consider adding a third tier to the 
warning system used for severe weather. The second issue is that you 
reconsider the size of the service areas that the National Weather 
Service forecasters have to work with. Our lives depend on the accuracy 
of the weather forecasts and our warning system.
    Thank you.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator DeMint. I think calling Mother Nature a terrorist 
will be right up there with some of the great comments in 
history, so thank you for making that in our Committee today.
    I'm going to yield to our Ranking Member, Senator Nelson, 
to begin the questions.
    Senator Ben Nelson. Well, thank you, Mr. Chairman, thank 
you for that privilege, and Mr. Ahlberg, it's great to have you 
here. I think one of the reasons you had trouble trying to get 
the people to leave the stadium is Nebraska was leading the 
Miami Hurricanes, they were a little bit worried about their 
luck changing if they left the field.
    Maybe you could give us an idea of some of the things that 
you do to achieve that certification so that you can show how 
you deal with the communities in the Lincoln and Lancaster 
outreach in the communities that provided some benefit in this 
particularly devastating tornado.
    Mr. Ahlberg. The National Weather Service, by certifying 
us, brings up a lot of protocols that we have to meet. My 
grandfather told me a long time ago, if it's fact, it's not 
brag. We are very fortunate in Lancaster County to have one of 
the premiere spotters networks anywhere in the country. As a 
matter of fact, 2 weeks ago, National Geographic sent a film 
crew to my emergency operation center to basically document how 
we function with that spotters network. That's only part of it. 
Our ability to get warnings out, whether it's through NOAA's 
weather radio, all hazard radios, whether it's through tone 
alert receivers, whether it's through our ability to interrupt 
cable vision, the use of the VAS systems, all of these things 
are part of the certifications to ensure that we're getting 
this information out. We have looked at alternatives of getting 
those particular warnings out, one of which is a reverse 911 
callback system on the telephone, but that's something that's 
extremely expensive to accomplish. A lot of people have the 
feeling, we'll rely on outside warning devices, the outside 
warning sirens, that's all well and good if you have one in 
your backyard at two o'clock in the morning, but it's not going 
to wake you up, they are outside warning devices, and we have a 
large number of those in our county, we looked at this 
emergency callback system that would make 3,500 phone calls a 
minute, I think in the last gubernatorial race that we had in 
Nebraska, I was receiving some of those phone calls in the 
evening with a political message, but it is something that is 
relatively expensive, and when you get into the smaller 
populated states, the smaller populated counties, that is an 
additional cost that they cannot afford. This particular 
system, you can GIS it, you can GPS it, you can have it call 
back by prefix numbers, you can have it call back by zip 
codes--all of these things that will wake a person up when 
there's a life-threatening situation at two o'clock in the 
morning, I think should be looked at, and that's technology 
that we have available right now. The problem is, like 
everything, it costs dollars to pay for it.
    Senator Ben Nelson. Having toured the Hallam, Nebraska site 
a day after the storm, seeing the devastation that was there, 
it's remarkable that anyone survived, and I remember visiting 
with a gentleman whose house was entirely gone, including the 
bathtub, and he survived by wrapping himself around the commode 
and held on and survived while everything else left him. The 
power and sometimes the suddenness of a tornado, even with a 
warning, does create a need for such devices as the reverse 
911, and in your opinion, are you comfortable with any kind of 
reduction of funding for the National Weather Service?
    Mr. Ahlberg. No.
    Senator Ben Nelson. I appreciate that answer. As you think 
about it, are there other ways to supplement the work of the 
National Weather Service at the local level with what you do? 
Do you work back and forth and make their job more doable, 
certainly their ability to reach out, better?
    Mr. Ahlberg. I don't know if I make it--sometimes I think I 
make it very uncomfortable for them with some of the requests 
that I make, as do most of the emergency managers around the 
country, it's a resource that I don't think we can do without, 
first of all. I don't think with the technology that we have, 
the ability to dovetail all of those technological advances 
with the National Weather Service, with commercially produced 
weather sentry systems through meteorologics, Accuweather, all 
of those things dovetailed together to give us the best 
possible solution, to provide adequate warning for severe 
weather, especially in the Midwest. Like you said, Senator, 
it's rather spontaneous, it develops rather quickly. No 
offense, but hurricanes basically take a long time to evolve 
and to have a landfall. For example the other night, Seward 
County, which is west of Lancaster County, was placed in a 
severe thunderstorm warning. That storm moved in and dissipated 
as it moved into Lancaster County. As it approached the middle 
portion of our county, it again increased in severity, and 
again, Lancaster County was placed in the severe thunderstorm 
warning, so these things developed rather quickly.
    I'm not a meteorologist, I'm not a weather forecaster, but 
we rely quite heavily on their expertise, and those 
forecasters' information that they provide us, and that's why 
when you talk about consolidating facilities, you're still 
talking about the human element of looking at the radar and 
making that forecast, and you could have four or five in one 
particular geographic area, storms that develop that are taking 
up every waning minute of those forecasters to ensure that they 
have proper information provided to us as emergency managers 
and to the general public.
    Senator Ben Nelson. Well, thank you very much for what you 
do and for being here today, and thank you, Mr. Chairman.
    Senator DeMint. Thank you, Senator, I've got pages worth of 
questions I wish I could ask all of you, but I've got to run to 
the next meeting. This has been so helpful to us, I assure all 
of your comments will be in the record, and we may be getting 
back to all of you on things that we're following up on. Mr. 
Walsh, it is good to hear that you have a good working 
relationship between the media and the Weather Service, just 
some good things to work with. We appreciate it, and you are 
dismissed.
    [Whereupon, at 4:30 p.m., the Subcommittee adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. Jim DeMint to 
                              Max Mayfield

    Question 1. You testified that intensity prediction is one of the 
greatest challenges facing hurricane prediction. Can you explain why 
intensity is not one of NOAA's GPRA metrics and whether you plan to 
include it in the future?
    Answer. Given the large number and variety of basic science issues 
associated with intensity prediction, including questions concerning 
observation and modeling improvements required to improve hurricane 
intensity forecasts, it has been difficult to determine an appropriate 
goal under the Government Performance Results Act (GPRA). To formulate 
an appropriate GPRA measure, first, an internal NOAA National Weather 
Service intensity performance measure was created, which calls for a 30 
percent reduction of the intensity error by 2015. Second, while we 
review and monitor the internal measure we must simultaneously begin to 
(1) address the many science issues and surrounding questions, and (2) 
make progress on the intensity issue through a multi-pronged approach 
involving: (a) improved observations; (b) improved models; and (c) an 
independent science review team focused on the hurricane intensity 
forecast issue. A GPRA appropriate measure will result from this 
process.
    NOAA has already committed to improving intensity forecasts by:

  <bullet> Developing the ability to collect high-resolution data and 
        observations through NOAA's Gulfsteam-IV (G-IV) jet. The 
        aircraft is being outfitted with Doppler tail radar to provide 
        unprecedented precipitation and wind field data to aid our 
        understanding of the circulation of a hurricane throughout the 
        depth of the troposphere.

  <bullet> Installing seven new marine buoys at high priority sites in 
        the Caribbean and Atlantic Ocean. Forecasters require highly 
        accurate real-time measurements of wave height, wind speeds, 
        and surface pressures to run hurricane models and ground-truth 
        satellite observations. These new buoys address gaps in the 
        current marine buoy network, providing forecasters with an 
        early warning system of marine observations in the open ocean.

  <bullet> Developing the next generation hurricane model, the 
        Hurricane Weather Research and Forecast model (HWRF). The HWRF 
        is a high-resolution coupled air-sea-land prediction system 
        that relies on advanced physics and will be operational by 
        2007. The HWRF will assimilate high-resolution G-IV data from 
        the inner core of the hurricane with other operational buoy, 
        aircraft and satellite observations surrounding the hurricane 
        system. NOAA also has committed to increasing the computational 
        speed required to run this improved model, and to make the 
        results available to the forecasters in the Tropical Prediction 
        Center/National Hurricane Center on a real-time basis.

  <bullet> Accelerating enhancements to the Global Forecast System 
        (GFS) and Geophysical Fluid Dynamics Laboratory (GFDL) model, 
        which have shown promise in improving forecasts of intensity 
        (strength), and structure (size) of hurricanes so far this 
        season.

  <bullet> Establishing a Hurricane Intensity Research Working Group 
        (HIRWG) under the auspices of the NOAA Science Advisory Board 
        to review current plans and make recommendations to accelerate 
        improvements in intensity forecasts. The HIRWG can also assist 
        NOAA in establishing credible goals, leading to meaningful GPRA 
        goals, in intensity forecasts that can be addressed through 
        improvements in science, observations, and modeling.

    Question 2. Does the National Hurricane Center plan to link State 
Department of Transportation evacuation plans on its website?
    Answer. The Tropical Prediction Center/National Hurricane Center 
provides links to emergency management Internet sites for all 
hurricane-vulnerable states. Some of these state websites include 
information on evacuation zone and route maps. These are locally 
tailored products, which the public can use in their personal disaster 
planning. These maps incorporate the findings from the evacuation plans 
into a format that is more easily used by the public.
    In addition, the NOAA Coastal Services Center is working with 
hurricane-vulnerable states to develop a single Internet site that 
enables citizens to locate and map hurricane evacuation zones. Mapping 
these zones helps citizens become more prepared to evacuate and avoid 
the potentially life-threatening affects of a hurricane. This work-in-
progress can be visited at http://www.csc.noaa.gov/hez_tool/.

    Question 3. NOAA's GPRA track error target for 2004 was 129-mile 
error, and your actual performance was 94-mile error. The 2003 actual 
track error was 107-mile and in 2002 it was 124-mile error. The Weather 
Service has been exceeding its 2004 target since 2002. Additionally, 
your FY 2010 target (124 miles) is the same as its 2002 actual 
performance. Do you continue to believe this target is still of value 
and if not will you be revising the metric? Are you considering longer 
time frame GPRA targets? Is the recent performance anomalous and do you 
expect performance to degrade?
    Answer. Since 1995, we have seen a marked increase in the number of 
hurricanes in the deep tropics. These systems typically take long, 
primarily straight tracks through an uncomplicated environment and, as 
a result, are associated with relatively low track forecast errors. For 
seasons in which much of the hurricane activity occurs at higher 
latitudes (such as in El Nino years), the Tropical Prediction Center/
National Hurricane Center usually registers higher average forecast 
errors. GPRA targets are developed based on analysis of long term 
performance thereby taking into account this year-to-year natural 
variability. Therefore, it would be premature to extrapolate the recent 
downward trend in forecast errors to derive a new GPRA target. Overall, 
however, we would expect forecast errors to decrease as we continue to 
make improvements to our observing systems and forecast models, and we 
continue to review and analyze past performance to determine when 
downward revision of the GPRA goal may be appropriate.

    Question 4. Please detail, with cost estimates, what tools, both 
computational and observational, are necessary to increase the 
effectiveness of hurricane intensity predictions.
    Answer. The computational tools and observational platforms 
necessary to increase our effectiveness of hurricane intensity 
forecasting are included in current efforts (FY 2005) and planned for 
FY 2006. Again, these efforts are consistent with our three-pronged 
approach to address the hurricane intensity forecast issue, by 
addressing:

Observations:
  <bullet> Hurricane Buoys.
    --The procurement and deployment of hurricane buoys provides 
        forecasters highly accurate real-time measurements and fills 
        data gaps in the current marine buoy network. The Military 
        Construction Appropriations and Emergency Hurricane 
        Supplemental Appropriations Act, 2005 (Pub.L. 108-324) provided 
        $1.8M for the purchase and deployment of 7 Hurricane Data Buoys 
        for the South Atlantic and Caribbean.
  <bullet> Satellite observations.
    --Significant efforts are ongoing in applying the latest technology 
        to future remote-sensing instrumentation.
  <bullet> Reconnaissance and Surveillance Aircraft.
    --Aircraft upgrades, including G-IV Doppler radar, are underway 
        that will provide new data sources for assimilation into future 
        hurricane models. The Military Construction Appropriations and 
        Emergency Hurricane Supplemental Appropriations Act, 2005 
        (Pub.L. 108-324) provided $3.5M for G-IV Doppler radar.

Modeling:
  <bullet> Enhancements to the Global Forecast System (GFS) including 
        data assimilation activities that effectively use satellite and 
        high resolution ground-based radar data.
  <bullet> Implementation of the Hurricane Weather and Research 
        Forecasting (HWRF) system is scheduled for 2006 with full 
        implementation expected in 2007. The Military Construction 
        Appropriations and Emergency Hurricane Supplemental 
        Appropriations Act, 2005 (Pub.L. 108-324) provided $1.0M to 
        accelerate HWRF.
Research:
  <bullet> The Joint Hurricane Testbed currently has 12 projects 
        active, focused on the mission to rapidly and smoothly transfer 
        new technology, research results, and observational advances of 
        the United States Weather Research Program into operational 
        forecast products. The Military Construction Appropriations and 
        Emergency Hurricane Supplemental Appropriations Act, 2005 
        (Pub.L. 108-324) provided $0.7M to improve Hurricane Intensity 
        Model development.

    Short-term intensity forecasts can be improved indirectly through 
model guidance provided to forecasters and directly through improving 
the surface observing network available to the forecasters. Proposed 
additional buoys and improvements to dropsondes will contribute to such 
advances. Those platforms, however, provide limited spatial and 
temporal resolution, e.g., relatively isolated point observations in 
the case of buoys. A longer-term solution to specify at high resolution 
the surface wind field over the areas covered by hurricanes requires 
additional advances in satellite technology. At present, such systems 
as Quikscat and SSM/I do not provide accurate surface wind information 
in areas of precipitation. These precipitation areas are of great 
importance in hurricanes.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ted Stevens to 
                            Dennis McCarthy

    Question 1. Dr. Syun Akasofu, the Director of the International 
Arctic Research Center of the University of Alaska has provided my 
office with satellite photographs of a typhoon type storm in the Bering 
Sea close to Barrow. Additionally, in October 2004 Alaska's West Coast 
(Nome) experienced a ``Coastal Storm'' (the equivalent in millibars Low 
Pressure) to a Category 4 Hurricane. What are the National Hurricane 
Center and the National Weather Service working on to broaden 
``warning'' and ``watch'' notifications and to increase their ability 
for all parts of the country and specifically Alaska?
    Answer. The October 2004 coastal storm proved to be one of the 
strongest storms on record for the western Arctic coast of Alaska. 
While loss of property was unavoidable in this instance, lives and 
personal property were protected through nearly unprecedented lead 
time, education, outreach, mitigation and preparedness activities 
provided by NOAA's National Weather Service (NWS), working closely with 
Alaska's Department of Homeland Security and Emergency Management. 
NOAA's numerical weather prediction and ocean wave models performed 
unusually well, especially given that this storm had its origins as an 
ex-typhoon originating in the western Pacific (where lives were lost in 
Japan).
    NWS forecasters provided 3 days of lead time to emergency managers 
and the public, allowing physical mitigations to be erected and 
evacuations to take place well in advance of the initial winds. The 
NWS, working with emergency managers, has for several years used a 
special ``Hurricane-Force Wind Warning'' for use in these 
circumstances, to draw attention to non-tropical hurricane-force winds.
    Forecasters and managers do plan for such cases using guidance 
provided by models and forecasters at the NWS National Centers for 
Environmental Prediction (NCEP), as well as guidance developed by the 
NWS Meteorological Development Laboratory on storm surge in Alaska. 
These guidance sources need improvements, especially over the North 
Pacific, where upstream weather observation data (over Asia and the 
Pacific Ocean) is particularly sparse. NOAA's efforts to deploy an 
Integrated Ocean Observing System (IOOS), as part of the Global Earth 
Observing System of Systems (GEOSS), will help fill the data void.

    Question 2. The National Weather Service in Alaska has limited 
ability to predict severe weather and storms. The lower 48 contiguous 
states have overlapping weather radar, Alaska on the other hand has 7 
radar sites, and only about a sixth of the state has weather radar 
coverage. Alaska does have satellite coverage but satellites don't show 
storm severity. For example, there is no radar coverage over Yakutat, 
so Cape Fair-Weather, when there is heavy traffic of commercial 
vessels, is literally without storm severity forecasts. What is and 
could be done to improve weather prediction coverage in Alaska?
    Answer. The NWS has an effective weather warning program in Alaska. 
The NWS modernization resulted in significant improvements and advances 
in weather technology and in forecast and warning services. Radar 
siting throughout the United States was carefully considered. Nearly 
\1/3\ of Alaska by area, and nearly \2/3\ by population, is covered by 
NWS Doppler radar technology below 10,000 feet. Given the terrain and 
climate, it is cost prohibitive to establish full radar coverage via 
deployment of additional NEXRAD radars. We are exploring the use of 
other radars, owned by other government agencies and private industry, 
to supplement the existing radar coverage.
    Significant improvements to Alaska's weather prediction 
capabilities, and extension of lead times for gale and storm conditions 
for commercial vessels, will come mainly from improved modeling. When 
data is effectively assimilated, increases in satellite and in-situ 
observations will have the greatest direct impact to model performance. 
The National Polar Orbiting Environmental Satellite System (NPOESS) 
will greatly enhance our observational capabilities in this data sparse 
region, and significant improvements in modeling and forecasts are 
expected to result from NPOESS deployment.

    Question 3. Alaska is not part of the National Lightning Detection 
System, which is provided year round to the lower 48 states by the 
National Weather Service. The Bureau of Land Management (BLM) provides 
lightning information for Alaska--but only from April thru October 
(fire season) of each year, but it does not report data to the National 
Weather Service East of Longitude 140 West (Yakutat). My staff has been 
briefed that the data exists, but not supplied because it also shows 
data belonging to Canada. This communications breakdown leaves citizens 
in cities like Juneau (the State Capital of Alaska) with no advanced 
storm warning. What is the Department of Commerce doing to obtain an 
international agreement with Canada to allow lightning detection 
reporting in South East Alaska? Additionally, why isn't Alaska part of 
the National Weather Service's National Lightning Detection System?
    Answer. The Department of the Interior's Bureau of Land Management 
has a contract with a private vendor to supply lightning data. There is 
only one vendor and consequently only one National Lightning Detection 
System at this time. The NWS uses the BLM contract to obtain data. As 
of now, there are no sensors in Alaska. Expansion of the National 
Lightning Detection System into Alaska is under consideration as part 
of the National contract. At the same time, the NWS is developing an 
agreement to acquire Environment Canada's Canadian Lightning Data 
(CLD). This will provide data East of Longitude 140 West. As a 
demonstration, the NWS Alaska Region accessed the CLD data during the 
current 2005 fire weather season. In addition, the NWS is also in the 
process of negotiating with the Department of the Interior's Bureau of 
Land Management (BLM) on expanding their sensor network. This 
negotiation could potentially lead to the BLM acquiring two additional 
sensors within the next two years. These efforts will strengthen the 
CLD and the BLM Alaska lightning detection network. The NWS and the 
Meteorological Services of Canada have been strong partners for many 
decades.

    Question 4. Nine of the twelve remote weather facilities in Alaska 
are old and in poor repair. What is NOAA doing to upgrade these 
facilities?
    Answer. NOAA's National Weather Service has an Alaska Region 
facilities upgrade program to address safety and building code 
violations. The program successfully acquired new housing at our 
facilities in Kotzebue and Annette in 2005. In addition, the Saint Paul 
office is currently under renovation and a contract for new housing has 
been awarded. Housing at Cold Bay has also been renovated as well as 
the office in Kodiak. Additionally, the Weather Service Office in 
Annette is in the design phase, which includes plans for construction 
under the U.S. Green Building Council's Leadership in Energy and 
Environment guidelines. Future plans will consider office projects in 
Nome and Barrow and housing projects in McGrath, Barrow, Nome, Valdez, 
and Yakutat. However, these are major long-term projects that require 
significant planning.

    Question 5. Climate impacts such as coastal erosion, melting 
glaciers, drought and flooding are all occurrences happening in Alaska. 
In discussions on Climate Change, scientists have been calling Alaska 
the ``Canary in the Coal Mine'' implying it is the Climate Change 
warning area for the rest of the world. We have data scarcity on Global 
Climate change partially because current technology and equipment are 
not being placed in Alaska. What is NOAA doing to correct this 
oversight?
    Answer. NOAA is supporting enhancement of the International Arctic 
Buoy Program to provide ice thickness measurements in the Arctic Ocean 
north of Alaska to track the changes in thickness of multi-year ice and 
to learn how changes in the atmosphere and the ocean are affecting the 
ice. An ice profiling sonar system is located in the Chukchi Sea north 
of Alaska to determine changes in the seasonal ice zone that affects 
the Alaska northern coast.
    The expansion of the Climate Reference Network (CRN) is progressing 
in Alaska, with two CRN sites installed in 2002 and three sites in 
2005. These sites will provide a reliable record of climate variability 
and change in this climate sensitive environment. NOAA is aggressively 
partnering with other State, Federal, and non-governmental agencies 
(such as the Alaska Ocean Observing System) to develop requirements, 
plans, funding mechanisms, and priorities for installation of new 
climate observing (and modeling) capabilities in Alaska.
    In 2007, we will celebrate International Polar Year. NOAA supports 
the concept of an International Polar Year. The International Polar 
Year is an ideal opportunity to advance observations of the polar 
region. NOAA uses polar observations in support each of its four 
strategic goals, and has responsibility for archiving and long-term 
stewardship of the data, and its application to societal needs.
    The question suggests that drought is occurring in Alaska. Drought 
is not currently a problem in Alaska. Visit http://www.drought.unl.edu/
dm/monitor.html to view an up to date U.S. drought monitor map.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Dennis McCarthy

    Question 1. Does the National Weather Service (NWS) plan to include 
three-dimensional ceilometry, a technology developed with NWS funds, 
into the Automated Surface Observation System (ASOS) upgrade plan?
    Answer. The three-dimensional ceilometry technology has been 
explored under the Small Business Innovation Research (SBIR) program. 
While the technology shows some promise, its development is not yet at 
a stage where we have been able to incorporate it into the Automated 
Surface Observation System (ASOS) upgrade plan. The Automated Surface 
Observing System Product Improvement (ASOS PI) Program is currently 
replacing the existing ceilometers, because (1) they are not 
logistically supportable beyond 2007; (2) the height range is to be 
increased from 12,000 feet to 25,000 feet [at most sites], and (3) the 
height range is to be increased to 40,000 feet [at 240 sites] if it is 
achievable and affordable.
    Three-dimensional ceilometry could become part of the program in 
the future. We estimate providing the three-dimensional, as compared to 
the one-dimensional technologies now used, would raise the cost of the 
ASOS PI effort by 50 percent to 60 percent, and would extend the 
schedule beyond the limits of our ability to provide logistical support 
to the current network. The current ASOS processing capability also 
imposes limits on sensors within its suite. The schedule extension is 
based upon the need to revise, test, and implement a new algorithm to 
report three-dimensional cloud reports, and examine the feasibility of 
incorporating into the current ASOS configuration.

    Question 2. Does the NWS find utility in the Small Business 
Innovation Research program?
    Answer. Yes. The NWS has found utility in the Small Business 
Innovation Research program. This program has provided the opportunity 
for the NWS to perform research and development on technologies, 
observing systems and sensors, and computational advancements that will 
contribute to the NWS mission of providing the Nation's weather, water 
and climate forecasts and warnings.
    The NWS presently has a Phase 1 program for a ``Self Cleaning 
Temperature and Conductivity Sensor.'' The NWS also has an ongoing 
Phase 2 program for a ``Prototype Computer Grid Software Product for 
NOAA.'' This year, the NWS is expected to have up to five Phase 1 
contract awards for innovative research in the following topic areas:

        1) NOAA Weather Radio (NWR) Broadcast Simulation
        2) Measurement of Sea Surface Salinity
        3) New Data Telemetry Protocols For Automated Flood Warning 
        System
        4) Predictive Modeling For Solar Insolation
        5) Space Weather Data

    The development of these topics and technology areas has the 
potential for providing future benefits and improvements to the NWS in 
meeting its important mission.

    Question 3. The Small Business Innovation Research Policy Directive 
RIN 3245-AE72 for Phase 3 transition of NWS funded technology 
development states that Phase 3 projects are not required to be 
recompeted prior to the awarding of a contract. Does the NWS still 
intend to abide by this directive? How many Phase 3's have you funded? 
How many of these contracts were subject to further rounds of 
competition beyond that associated with Phase 1 and 2?
    Answer. The NWS will abide by this Small Business Innovation 
Research (SBIR) Policy Directive where it is applicable and appropriate 
under law. The funding and execution of a Phase 3 program would be most 
likely applicable under the existence of the following conditions: (1) 
the Phase 3 program provides the best value to the government and 
fulfills the best interest of the government/agency in meeting its 
requirements and goals; (2) funding is available and appropriated 
(Phase 3 is not funded from SBIR funds); (3) the technology that was 
developed from the Phase 1 and 2 programs meets the stated agency 
program or procurement requirements. If these conditions exist and are 
applicable under law, the NWS would appropriately abide by this SBIR 
policy directive.
    No Phase 3 programs have been funded by the NWS.
    Under the above stated conditions no NWS Phase 1 or Phase 2 
programs would have been or have been subject to further competition.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. E. Benjamin Nelson to 
                            Dennis McCarthy

    Question 1. If the President's FY 2006 budget for the National 
Weather Service (NWS) is enacted as it was submitted to Congress, will 
it sustain NWS operations at last year's level? How much of a shortfall 
will there be? Is $40 million a good rough estimate?
    Answer. Yes, if the President's FY 2006 budget for the NWS is 
enacted as submitted it will sustain NWS core operations at FY 2005 
levels while providing targeted improvements. However, the President's 
Budget assumes a 2.3 percent pay raise. If the enacted pay raise 
differs from this assumption NWS will have to identify measures to 
absorb the additional costs to maintain core operations in FY 2006. NWS 
is particularly vulnerable to the cumulative effect of pay increases 
above budgeted amounts with approximately 67 percent of the NWS 
operational budget dedicated to labor costs associated with its 
nationwide 24/7 weather forecast and warning mission.

    Question 2. What National Weather Service programs and services, 
including maintenance and hiring decisions, would have to be reduced, 
deferred, or eliminated under the President's budget?
    Answer. As stated above, the FY 2006 President's Budget will 
sustain current operations at the FY 2005 level. As with FY 2005, our 
FY 2006 strategy will continue to prioritize continuity of service 
operations. If NWS labor cost reductions are considered, NWS will, to 
the maximum extent possible, limit these labor cost reductions to avoid 
degradation of current services.

    Question 3. Would the National Weather Service be able to keep all 
of its current positions filled under the President's budget?
    Answer. The President's Request incorporates a ``labor lapse'' rate 
assumption, which accounts for normal turnover and employee time to 
recruit and fill vacancies as they occur. In addition, in order to 
mitigate unfunded FY 2005 requirements, the NWS increased its labor 
lapse rates for its Headquarters components (+3.4 percent) and for its 
field components (+0.4 percent). The NWS plans to continue the 
increased FY 2005 lapse rates into FY 2006 and, depending on the 
viability of other options, may increase them. NWS is focused on 
ensuring that critical forecast and warning vacancies are filled.

    Question 4. You testified that there are several upgrades in the 
NWS radar system planned for the next few years. Would the timeline for 
these upgrades be affected by the President's budget?
    Answer. The President's FY 2006 Budget Request does not impact the 
timeline. Major upgrades to the radar system are funded through NEXRAD 
Product Improvement (NPI), administered by NWS but funded by: the 
National Weather Service (Department of Commerce), the U.S. Air Force 
(Department of Defense), and the Federal Aviation Administration 
(Department of Transportation).

    Question 5. The Committee has been informed that training programs 
at the National Weather Service Training Center (NWSTC) in Kansas City 
were seriously curtailed this year due to budgetary shortfalls. How 
much money is needed to restore the training program to its prior 
status? Is the training program likely to be further curtailed under 
the President's budget for FY 2006?
    Answer. In FY 2005 the NWS National Training budget for the NWSTC 
was reduced by $1.5M. At this time no additional FY 2006 reductions are 
anticipated for the NWSTC. As with the FY 2005 reductions, NWSTC 
training priorities will continue to focus on maintaining core 
operational training (meteorological, hydrological and technical/
electronic training requirements). Also, as with our FY 2005 NWSTC 
curriculum and to offset the $1.5M reduction, we are increasingly 
focused on the use of remote/distance training, which is more 
economical and can reach more of our workforce than traditional in-
residence training.

    Question 6. How much of an increase in the FY 2006 budget would the 
National Weather Service need in order to make up for shortfalls 
incurred in FY 2005?
    Answer. As stated earlier, the FY 2006 President's Budget will 
sustain operations consistent with FY 2005 levels.

    Question 7. The Committee has been informed that the National 
Weather Service is considering plans to further consolidate its 
Forecast Offices into a dozen or so larger offices with greater areas 
of responsibility. Is this true?
    Answer. There are no plans to consolidate forecast offices. As 
technology continues to evolve and science advances, we are exploring 
ways to take advantage of new science and technology to make the best 
use of our workforce and to provide a higher level of service. All 
options we are exploring are based on the existing complement of 122 
weather forecast offices (WFOs), each maintaining responsibility and 
accountability for their existing areas. The only consolidation being 
considered is some routine production, which will allow forecasters in 
all WFOs to work in an event-driven mode to focus on significant 
impacts and provide more direct decision assistance to partner agencies 
(i.e., the emergency management community).
    Note: Although there are no plans to consolidate any of the 122 
WFOs, there are three smaller weather service offices, which were 
originally scheduled for closure as part of the NWS Modernization and 
Restructuring effort of the 1990s. These three weather service offices 
(Williston, ND; Erie, PA; and Evansville, IN) each have mitigation 
efforts underway to improve radar coverage, and may be proposed for 
closure depending on the results of these efforts.

    Question 8. What process will be used to decide which offices are 
eliminated or consolidated?
    Answer. There are currently no plans for office elimination or 
consolidation. Should future plans call for consideration of office 
elimination or consolidation, NOAA will keep Congress informed of these 
plans.

    Question 9. How would such consolidation affect weather coverage 
and forecasts in Nebraska?
    Answer. There are no plans for office elimination or consolidation. 
We expect to be able to continue improving services from our existing 
122 weather forecast offices in the coming years, including Nebraska.

    Question 10. Will the agency be able to certify that there will be 
no degradation of service to the public?
    Answer. Any upgrades to our forecast and warning service will be 
coordinated closely with public officials. We monitor our forecast and 
warning performance metrics very closely, even posting them for display 
in our forecast offices. The ``non degradation of service'' standard 
was adopted to direct the NWS Modernization and Restructuring effort of 
the 1990s. As we look at upgrades to our services, we are certainly 
committed to meet the ``non degradation of service'' standard, but our 
focus is on improving services, not merely maintaining them.

    Question 11. How many National Weather Service buoys experienced 
failed or faulty sensors during FY 2005? How many buoys failed 
completely?
    Answer. The National Weather Service maintains 101 buoys. As of 
August 1, 2005, 33 of these buoys failed meaning that data was not 
being transmitted. Of the 33 buoys, 15 of the failures were caused by 
severe weather, 7 by a collision and/or tampering, and the remaining 11 
failures were caused by communications or power failures.
    Status of buoys: 28 of the 33 have been repaired. Of the remaining 
five, four are expected to be back in service by the end of September 
(pending availability of a U.S. Coast Guard vessel for deployment), and 
two will be repaired in FY 2006.

    Question 12. Has the repair of these buoys been delayed as a result 
of insufficient funding?
    Answer. In order to best manage our funding, we sought to reduce 
costs by allowing tolerable delays in servicing some buoys. Instead of 
paying the cost of renting a ship to perform a repair, we waited for 
opportunities to group multiple repairs into a single voyage, 
preferably using a ship for which we did not have to pay rent, such as 
a U.S. Coast Guard ship.
    The most common cause of delay in repair of the buoys is the time 
of year and scheduling of vessels to complete the repair. Buoys located 
in the northern Pacific Ocean are difficult to service in the winter 
months, causing delays until conditions are safe for a vessel to 
service the buoy.

    Question 13. Has the National Weather Service had to defer the 
acquisition of spare NOAA weather radio transmitters due to budgetary 
constraints? Has this had an impact on weather radio coverage?
    Answer. In FY 2005 NOAA deferred the purchase of spares for NOAA 
Weather Radio (NWR) transmitters. These spares would have served as on-
site spares, thus allowing a technician to repair a transmitter within 
a shorter time frame and without the expense of making separate trips 
to diagnose and then repair failures. These on-site spares are 
redundant and without them the NWR stations remained in operation via 
the backup transmitter until the primary transmitter was repaired.
    With the funding requested in FY 2006 to complete and sustain NWR, 
NOAA's National Weather Service will begin replacement of the 1970's 
era transmitters, many of which are not redundant. By replacing old 
transmitters with modern, redundant, solid-state transmitters, overall 
reliability and availability of the NWR network will increase.

    Question 14. What technology or analytical approach currently holds 
the most immediate promise for reducing the number of false tornado 
warnings?
    Answer. In the short-term (a few years), NOAA NWS is planning 
evolutionary changes and upgrades to the existing Doppler radar network 
that are expected to reduce tornado false alarm rates (in approximate 
chronological order):

        1) NOAA will access data from the Federal Aviation 
        Administration Terminal Doppler Weather Radar (TDWR), as these 
        radars are better able to discern storm winds than NEXRAD 
        (under certain conditions at the same range). The combination 
        of NEXRAD and TDWR data across the United States will result in 
        finer sampling of winds and weather and will improve overall 
        coverage.

        2) New radar software (i.e. Open Radar Data Acquisition) will 
        allow measuring the distribution of winds in small chunks of 
        atmosphere (i.e., resolution volumes). Particular wind 
        signatures that can be detected by radars with improved 
        resolution can discern tornadoes; this data can reduce tornado 
        false alarm rates.

        3) Dual polarization radar and improved spectral analysis 
        promise improved detection of tornadoes indirectly by 
        identifying debris, key storm structures (e.g., mesocyclones, 
        precipitation types known to affect tornado formation), and 
        tornadic wind signatures. Recent research indicates there may 
        be predictive value in knowing whether rain or hail is falling 
        near the region of storm rotation at low levels, and dual 
        polarized radar provides this information.

    A longer-term approach to reduce tornado false alarm rates is the 
use of high-resolution numerical weather models capable of assimilating 
radar and surface weather data to generate detailed near-real time 
information on storm development and evolution. Forecasters will be 
better able to estimate storm tornado potential and reduce false alarms 
with supplemental information about the inside of the storm. These 
models are undergoing research and development.
    The ideal way to reduce tornadic false alarm rates is to have high-
resolution real-time measurements of winds within the storm cloud, as 
this affords the best chance of directly detecting actual tornadic 
conditions. These measurements could be achieved by systems such as 
networks of phased array radars at extremely high frequency combined 
with high-density surface observational networks. These technologies 
are currently being investigated.
    From the perspective of our partners in the emergency management 
community, tornado false alarm rates are not considered a critical 
metric, as compared to improved detection and longer warning lead 
times. The feedback from emergency managers is that the cost of tornado 
false alarm rates is rather low in terms of warning communities whereas 
the cost of missing tornadoes is much higher and remains their key 
concern. In general, the decreased rate of false alarms is a 
consequence of improved detection and not a primary goal, as the 
technologies that improve tornado detection generally reduce false 
alarm rates as well (e.g., NEXRAD), as long as appropriate training is 
provided.
    We are testing a new approach toward increasing the precision of 
our severe thunderstorm/tornado watches and warnings by redefining the 
areal extent they cover. This approach is called the ``polygon 
warning'' concept. This approach reduces the geographic area defined in 
most warnings (allowing us to warn for areas smaller than a full 
county), thereby reducing false alarms in terms of area and population 
warned. Preliminary results are quite promising.
    We will begin another upgrade on the WSR-88D (NEXRAD) radar network 
late this summer: the Open Radar Data Acquisition unit. In addition to 
improving maintainability of the network, this technology will pave the 
way for future improvements in radar operations that will improve 
detection and warning.
    We conduct annual training for all of our forecasters who issue 
warnings to make sure they are aware of the latest advances in the 
science of severe storm forecasting to provide the most accurate 
tornado warnings.

    Question 15. What are the barriers to implementing this approach?
    Answer. There are no real technical barriers to improving and 
implementing the evolutionary changes and upgrades to the existing 
weather radar network to achieve the short-term reductions in tornado 
false alarms.
    Continued support for the ``NEXRAD Product Improvement'' program, 
along with substantial investment in research and development, will be 
required to improve the radar data processing/analysis and storm-scale 
model development.
    Studies of the economic value of tornado false alarm rates and 
probabilities of detection should continue. Unless there is a major 
improvement in technology and science, a change in the false alarm 
rates will be accompanied by a similarly signed change in the 
Probability Of Detection. There is insufficient scientific knowledge 
available to assess the relative value of a high false alarm rate 
versus a low probability of detection.
    Regarding reducing tornado false alarms in the long-term, 
developing and deploying networks of phased array radars across the 
United States, along with boundary-layer radars, are promising 
technologies. NOAA has a research effort underway to assess the long-
term use of phased array radar.

    Question 16. Are there gaps that the Committee should consider 
addressing? What are they?
    Answer. We appreciate the Committee's willingness to work closely 
with NOAA on future gaps that impact NOAA's operations and research 
activities. As technology and other advances move forward in the fields 
of weather, climate, and environmental research, we will advise and 
look forward to working with the Committee on our efforts to engage the 
stakeholders, organizations and individuals impacted by NOAA's mission.

    Question 17. I understand that the U.S. Weather Research Program 
was intended to facilitate the transition of new forecasting 
technologies and techniques from research to operations. What is the 
status of the USWRP today?
    Answer. Yes, the U.S. Weather Research Program (USWRP) is focused 
on facilitating and accelerating the transition of new forecasting 
science and technology from research to operations. The Interagency 
Working Group (IWG), which is the decision-making body for the USWRP, 
is currently reviewing the program including its overall strategy and 
priorities. Although the program's focus and resource allocations may 
change as a result of the IWG's review, it is highly likely that the 
USWRP will continue to focus on coordinating weather research and on 
transitioning research to operations.
    Specifically, the USWRP has prioritized research and development 
aimed at improving hurricane prediction, precipitation prediction, 
atmospheric observation strategies, and socio-economic impacts. The 
USWRP-supported Joint Hurricane Testbed (JHT) enables the transfer and 
operational implementation of new hurricane prediction techniques and 
technologies from the research community to NOAA's Tropical Prediction 
Center/National Hurricane Center. The USWRP also sponsors the 
Developmental Test Center (DTC) in Boulder, CO, which enables the 
transfer of new numerical modeling science to operations.

    Question 18. Is the Hazardous Weather Testbed in Norman, OK the 
NWS's only such center? This type of facility seems to hold promise for 
moving new technologies from research to application. Are there plans 
for establishing more such centers?
    Answer. No, the Hazardous Weather Testbed is not the only center of 
this type. Other test beds include the Joint Hurricane Testbed, the 
Developmental Testbed Center, the Hydrometeorological Testbed, and the 
Climate Testbed. All of these testbeds, including the Hazardous Weather 
Testbed, are designed to accelerate the transition of new science and 
techniques from research to operations.
    The Hazardous Weather Testbed accelerates improved techniques for 
forecasting the initiation of severe thunderstorms and early detection 
of tornados into operational implementation. The Joint Hurricane 
Testbed at NOAA's Tropical Prediction Center/National Hurricane Center 
in Miami, FL, has been operating for five years and is accelerating 
research results into hurricane forecast guidance products, including 
hurricane model improvements. The Developmental Test Center (DTC) in 
Boulder, CO, focuses on improvements to regional weather modeling using 
the Weather Research and Forecasting (WRF) community model. The 
Hydrometeorological Testbed (HMT) is being established to accelerate 
improvements in heavy precipitation and flood forecasts.
    The NOAA entities in Norman, OK, have an illustrious history of 
cooperation and collaboration in the exploration of new science and 
technology. The most outstanding example is the evolution, application, 
and deployment of Doppler weather radar. The Hazardous Weather Testbed 
is the latest iteration of this ongoing collaborative process, which we 
hope to emulate in other parts of the country where these kinds of 
partnerships and opportunities exist.
    In addition to supporting the establishment of testbed facilities, 
NOAA has also established a research to operations policy and a 
committee to monitor, oversee, and improve the transition from research 
to operations, not only for weather and water, but also for climate, 
oceans and ecosystems.

    Question 19. How should NOAA partner with academia and industry to 
improve its forecasts of severe storms and their impacts?
    Answer. NOAA collaborates with academia, industry, and other 
governmental partners to develop goals, roles, and plans for improving 
severe storm forecasts and warnings. The newly formed American 
Meteorological Society's Weather and Climate Enterprise Commission, the 
NOAA Science Advisory Board, and the U.S. Weather Research Program are 
examples of venues that help facilitate this interaction. We also work 
with individual researchers and professors to bring state-of-the-art 
training to our forecasters through tele-training, workshops, and 
seminars.
    NOAA will enhance its collaborative peer-reviewed research 
activities with academia and enhance data dissemination and warnings 
through the private sector in coordination with other Federal agencies 
with similar requirements. Any funded peer-reviewed projects should 
include those proposed by both the academic and the private sectors.

    Question 20. I understand that Phased Array Radar systems have 
great potential for increasing the accuracy of tornado forecasting but 
I also know that they carry a big price tag. How exactly would a new 
PAR system improve the ability to predict tornados in Nebraska?
    Answer. Changes in environmental conditions leading to tornado 
formation and continuing through a tornado's evolution occur on very 
small time scales. The new Phased Array Radar (PAR) system is capable 
of providing rapid updates on changing environmental conditions, five 
to six times faster then our current operational radars. Further, the 
phased array allows adaptive pointing of the antenna beam in directions 
where a tornado might be spawning, and allows in depth examination of 
such ``hot'' spots. The increase in resolution (number of data samples 
per time increment) is required to properly initialize high-resolution 
storm scale models. This is a developing area of research, but we feel 
there is a potential to blend real time observations with very short 
term forecasts (from minutes to tens of minutes), leading to the idea 
of ``warning on forecast'' rather than our current mode of ``warning on 
observation.'' Warnings based on forecasts could increase the lead time 
of tornado warnings out to 25-30 minutes.

    Question 21. What is the relative cost of a PAR system as compared 
to the current NEXRAD system?
    Answer. The National Severe Storms Laboratory (NSSL) in Norman, OK, 
has been working closely with government, university and private sector 
partners to answer this question. According to the latest information 
from industry, by 2012 the cost of the phased array radar modules that 
make up the antenna array (the most expensive part of the radar; each 
antennae face has over 4,300 modules) is predicted to be reduced by a 
factor of 50. This means that the modules currently in use today at 
NSSL, which each cost $2,000 when they were produced in the late 1970s 
will cost $40 per module in 2012. This will reduce the cost of a four-
faced antenna PAR system down to approximately $10-$15 Million per 
radar.
    It is inappropriate to compare the two systems, especially since 
NEXRAD radars are no longer in production. Commercially developed 
Doppler radars are available, but come with many challenges to 
integrate the data into the NEXRAD network. The hardware for a 
commercial radar costs approximately $4M.

    Question 22. Is there a difference in the total area each system 
can cover?
    Answer. No.

    Question 23. Is there a difference in the manpower required for 
each system?
    Answer. At this time, it is not likely there will be any difference 
in manpower requirements between the two systems. More information on 
manpower requirements will become available as the phased array radar 
design progresses.

    Question 24. What is the current status of the PAR system testing 
in Norman, Oklahoma?
    Answer. The PAR system testing in Norman is on schedule. The system 
has been modified from a missile detection and tracking system used by 
the U.S. Navy to a system capable of collecting weather data. In the 
last 15 months, a limited amount of weather data on tornadic storms has 
been collected. Data quality appears quite good and compares well to 
the NWS WSR-88D. We are currently awaiting more weather events and are 
actively improving the radar features to speed up the data acquisition. 
At the same time, our partners at the Federal Aviation Administration 
(FAA) have developed an aircraft tracking processor as part of the plan 
to make the PAR a multi-function system. The FAA software will be 
tested on the PAR in late August.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to
                          Timothy A. Reinholdt

    Question 1.  In your testimony you discuss how risk modeling 
coupled with variable insurance pricing is helping to encourage 
homeowners to build storm resistant buildings. Do you know if this 
practice is widespread outside of the Southeast?
    Answer. The practice is not even widespread in the Southeast, much 
less in the rest of the country. The two broad-based programs are in 
Florida and Texas where discounts have been mandated as part of a move 
towards more stringent codes and standards. Having said that, what is 
widespread is the use of basic catastrophe modeling to assess loss 
exposure and establish reserves and reinsurance needs. The move towards 
using these models to assess the value of mitigation measures is still 
somewhat in its infancy and has been driven largely by FEMA sponsored 
research and the need to establish some sort of a basis for the 
mandated discounts in Florida and Texas. While it is being used in 
these instances out of necessity, there are typically wide ranges in 
the overall loss estimates and even greater variability in the 
estimated benefits of particular mitigation measures.

    Question 2. How successful has this approach been in Florida in 
terms of getting people covered by insurance? Has it made insurers more 
willing to stay in the market?
    Answer. I can't comment on the influence of mitigation activities 
on availability or cost of insurance. However, where we are beginning 
to see movement in getting people to take protective measures has been 
when the amount of money on the table becomes large enough to make a 
difference in the return on investment. That has been particularly 
evident for properties in the Florida Wind Pool (Citizens) where large 
increases in premiums coupled with larger percentage reductions in 
premiums for mitigated properties have generated savings that can run 
into thousands of dollars.

    Question 3. Ultimately, what do you think needs to be done to have 
more standardized building codes?
    Answer. I do not believe that we are likely to see a federalization 
of building codes and standards. However, we have seen a merger of the 
National Model Building Codes (Standard Building Code, Uniform Building 
Code and Building Officials and Code Administrators Code) into a single 
International Code Council set of codes. These codes and standards are 
debated and developed in a consensus process at the national level and 
provide for local variations in hazards and risk. Unfortunately, in 
most states, the adoption is left to individual jurisdictions 
(counties, parishes, municipalities and cities) and these frequently 
change the model code provisions to suit the desires of local special 
interest groups. We believe that the states need to move towards 
statewide adoption of the model codes without local amendments that 
would weaken the provisions. We think that the Federal Government can 
help with this process by helping to create incentives for the states 
to adopt the model codes and ensure that they are well administered and 
enforced.

    Question 4. What needs to be done or can be done to make older 
buildings safer?
    Answer. Without a doubt, it is more effective and less costly to 
build well the first time than to come back and apply remedial measures 
after the fact. Having said that, I would offer the following 
suggestions for reducing the vulnerability of homes to windstorm or 
hurricane related damage. The first list is one that is best suited for 
construction of new homes. Following that, I have prepared a shortened 
list of the most practical items for retrofit.
The Key Structural Features for Hurricane Resistance of Homes Include:
  <bullet> Enough elevation to avoid storm surge or flooding.

  <bullet> If you are in a storm surge area, the pile foundation must 
        be deep enough to prevent damage or failure from scouring of 
        the beach.

  <bullet> The home needs to be well built with all parts tied together 
        with appropriately sized metal connectors and structural 
        sheathing (plywood or oriented strand board) for wood frame 
        construction or reinforcing if it is masonry construction.

  <bullet> The roof structure needs to be well anchored to the walls 
        using hurricane straps and the roof sheathing needs to be 
        fastened to the roof structure using the latest code 
        requirements for nails or preferably attached with ring-shank 
        nails.

  <bullet> If the home has one or more gable ends with a gable that is 
        more than about 3-feet tall, the gable should be braced to keep 
        it and the wall below from blowing in or being sucked out.

  <bullet> Porches and carports should be well anchored to their 
        foundations and support structure and pool enclosures should 
        have hefty anchors at the end columns and substantial diagonal 
        bracing (cables or metal tubes running along diagonals) to keep 
        them from blowing over.

  <bullet> If the home is located in an area where the building code 
        specifies gust design wind speeds of 120 mph or higher or if 
        the home is within 1-mile of the coast and the design wind 
        speed is greater than 110 mph, it should be outfitted with a 
        code approved protection for windows and doors and a wind 
        pressure and debris impact rated garage door.

  <bullet> Purchasers of newer homes should be aware that some codes 
        have allowed homebuilders to choose to strengthen the structure 
        and connections as an alternative to providing window and door 
        protection. If that is the case, you may well have a stronger 
        house structure but you may have wind and water blowing through 
        your house, ruining the contents and interior, if you get hit 
        by a strong storm.

For Older Homes:
    The structural wish list for older homes is similar to the one 
listed above for newer homes. However, if there are no hurricane straps 
or the house is not particularly well tied together, it can be very 
costly to fix the structural connections. If this is the case, then the 
priority for installing window and door protection and ensuring that 
the garage door is wind and impact rated or protected goes way up. 
Keeping wind out of the home by protecting the openings can give the 
home a fighting chance when a hurricane strikes, even if the structural 
connections are not what we would want in a home built today. If your 
home is not well connected, make your preparations early and evacuate 
to a better built refuge.
    The easiest thing to add that will have an impact on protecting the 
structure is protection for windows and doors. If the house has a 
shingle roof, when the house is re-roofed, the home owner can also have 
the roof sheathing re-nailed and a self adhesive flashing tape 
installed over the joints between the roof sheathing for a relatively 
nominal cost. A high-wind rated roof covering should be selected and 
installed according to the manufacturer's recommendations for high wind 
areas. Anchorage of porches, carports and pool cages can be improved at 
a reasonable cost. Gable end bracing can also be installed to reduce 
the chances that the gable ends will give way. Most of these things can 
be added later, but when someone is financing the home, they may want 
to see if they can add some of these retrofits into the purchase price 
or loan.
    Take a good look at the area surrounding the home. If there are 
significant sources of wind borne debris like flat roofs with gravel or 
tile roofs, then protection of glass becomes even more important. 
Evaluate trees in the area surrounding the home. Trees can be helpful 
in reducing wind loads on the house up to the point where they blow 
over onto the home. Tall pine trees are a particular concern because 
they can crash through the roof and walls like a guillotine. Pruning of 
trees to reduce their sail area can be an important mitigation measure 
if there are lots of trees near the house.
    There are real limits to what can be done for tile roofs short of 
removing them and re-installing tile with mechanical or adhesive 
products or a combination of the two. Tile roofs do seem to have a 
higher failure wind speed threshold than older shingle roofs, but the 
repair costs are much higher when they do fail. For shingle roofs, 
homeowners can adhere the tabs to the shingles below using an asphalt 
roofing cement as a stop-gap measure until the house is re-roofed. 
Start with shingles around the edges of the roof and work towards the 
interior if the shingle tabs are not well sealed.
    There is at least one bracing system for garage doors that has 
Florida Building Code approval. In other cases, garage doors are either 
being shuttered or replaced with a wind pressure and debris impact 
rated product. The effective bracing of existing garage doors requires 
structural braces that keep the door from bowing and buckling as well 
as bracing of or replacing the tracks that support the rollers.
    A lot of soffits were blown out during the Florida hurricanes last 
year and water got into the attics and walls. Vinyl and aluminum soffit 
material that is not attached to a backup wood structure should be 
strengthened. Sealing around windows and openings in walls can also 
help keep water from getting into the walls of the home.

                                  <all>

</pre></body></html>
